<html>
<title> - VEHICLE SAFETY FOR CHILDREN</title>
<body><pre>[Senate Hearing 110-436]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-436
 
                      VEHICLE SAFETY FOR CHILDREN

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER AFFAIRS, INSURANCE, AND AUTOMOTIVE SAFETY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
35-958 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
             Lisa J. Sutherland, Republican Staff Director
          Christine D. Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER AFFAIRS, INSURANCE, AND AUTOMOTIVE SAFETY

MARK PRYOR, Arkansas, Chairman       JOHN E. SUNUNU, New Hampshire, 
JOHN D. ROCKEFELLER IV, West             Ranking
    Virginia                         JOHN McCAIN, Arizona
BILL NELSON, Florida                 TRENT LOTT, Mississippi
MARIA CANTWELL, Washington           OLYMPIA J. SNOWE, Maine
FRANK R. LAUTENBERG, New Jersey      GORDON H. SMITH, Oregon
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 28, 2007................................     1
Statement of Senator Carper......................................     6
Statement of Senator Klobuchar...................................    49
Statement of Senator Pryor.......................................     1
Statement of Senator Sununu......................................     2

                               Witnesses

Campbell, Hon. W. Packy, Former Representative from New Hampshire     7
    Prepared statement...........................................     8
Claybrook, Hon. Joan, President, Public Citizen; Former 
  Administrator, National Highway Traffic Safety Administration..    19
    Prepared statement with attachments..........................    21
Gulbransen, Dr. Greg, Pediatrician, Syosset, New York............    10
    Prepared statement...........................................    12
McCurdy, Hon. Dave, President/CEO, Alliance of Automobile 
  Manufacturers; accompanied by Robert Strassburger, Vice 
  President, Safety and Harmonization............................    38
    Prepared statement...........................................    40
Medford, Ronald, Senior Associate Administrator for Vehicle 
  Safety, National Highway Traffic Safety Administration.........     4
    Prepared statement...........................................     5

                                Appendix

Association of International Automobile Manufacturers, Inc. 
  (AIAM), prepared statement.....................................    69
Fennell, Janette E., President, KIDS AND CARS, prepared statement    84
Greenberg, Sally, Senior Product Safety Counsel, Consumers Union 
  of U.S., Inc., prepared statement..............................    71


                      VEHICLE SAFETY FOR CHILDREN

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                               U.S. Senate,
  Subcommittee on Consumer Affairs, Insurance, and 
                                 Automotive Safety,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you all for being here today. It is my 
pleasure to welcome you to our Consumer Affairs, Insurance, and 
Automotive Safety Subcommittee hearing on vehicle safety for 
children. This is our first meeting of the year, and I want to 
thank my colleague, the Ranking Member, Senator John Sununu, 
who does a fantastic job on this issue and many others. We look 
forward to having a productive couple of years. We anticipate 
some of our colleagues will come and go today, because there 
are a lot of committee hearings going on right now, but I just 
wanted to say good morning, thank everyone for being here to 
talk about auto safety for children.
    We have jurisdiction over a wide range of issues that are 
important to the daily lives of consumers, and Senator Sununu 
and I have already discussed some other hearings that we'll 
have in the future. Some of those relate to children, some of 
those relate just to the general public, but I'm very pleased 
that we're taking this first hearing, at Senator Sununu's 
request, to talk about the subject matter today.
    In 2005, 1,451 children ages 14 and younger died as 
passengers in motor vehicle crashes, and approximately 203,000 
were injured in the United States. That's an average of four 
deaths and 556 injuries each day. We both feel that we need to 
work to reduce those numbers. And I know that Senator Sununu 
has shown a great commitment to this issue and, as I said, many 
others. I have two children myself and I feel the compulsion to 
try to make our vehicles and our roads safer for our children.
    I also want to thank the witnesses for being here this 
morning, providing testimony, for working with the Subcommittee 
staff on a variety of topics, in terms of scheduling and 
statements, et cetera.
    Today, we'll have five witnesses. They'll discuss a variety 
of topics and issues related to auto safety for children, 
including the Cameron Gulbransen Kids and Cars Safety Act of 
2007 that was introduced yesterday by Senator Clinton and 
Senator Sununu. And I hope that today's discussion will begin 
that process of dialogue that we're famous for, sometimes 
infamous for, here in the U.S. Senate. I hope that it 
definitely leads to more safety for our children and our other 
auto passengers.
    With that, I'd like to hear from Senator Sununu.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you very much, Senator Pryor. I 
certainly appreciate the fact that you've made the commitment 
to make this our first hearing of the year. As you indicated, 
Senator Clinton and I introduced legislation yesterday that 
would address, in particular, non-traffic fatalities. Over 
1,000 children in the last 5 years have been killed in non-
traffic accidents, and thousands more have been injured. And 
it's not just children, but, of course, when it happens to the 
youngest among us, I think anyone, whether you're a parent or 
not, can't help but feel the enormity of the loss.
    Representative Peter King has introduced legislation on the 
House side, and I certainly want to thank him for his great 
leadership on this issue. As well, Packy Campbell will be 
joining our panel today, a good friend of mine from New 
Hampshire who has dealt very personally with the impact that 
non-traffic auto fatalities can have on a family. This has been 
a long process, especially for a lot of the advocates and the 
coalition of partners that have worked on this legislation. We 
introduced legislation at the end of the 1st session in 2005, 
but obviously weren't able to see it completed on the floor, 
and this hearing, I think, is an important and early beginning 
to the process in the new session of the 110th Congress.
    You spoke about the impact accidents have. We're talking 
about thousands of lives, thousands of families. And anytime we 
talk about regulation, whether it's with auto safety or any 
other area, we have to be mindful of the cost. But the 
important thing, I think, in the construction of the 
legislation that we've introduced is that--in two of the key 
areas, making automatic windows safer, and ensuring that cars 
can't inadvertently be put into gear without the knowledge of 
the driver--the costs to implement these improvements are less 
than $10 on a car. And that is really significant, that 
existing technologies are there to make a huge difference in 
this area.
    And regarding the visibility behind a vehicle, where 
someone may unknowingly back over or back into a child, the 
technology exists that can certainly prevent tragic accidents. 
There's no question it's more than $10 a car to implement 
today. But there are different options and opportunities to 
both improve that technology and to bring down its cost.
    Equally important, we are mindful that changes and 
improvements in auto safety don't happen overnight. The auto 
industry has implemented significant improvements in past 
years, ranging from antilock brakes to side airbags. And this 
is done because it makes good business sense, because it makes 
good safety sense, because it makes a difference in the lives 
of the consumers that drive those vehicles. Things don't 
necessarily happen overnight, but I feel--and I think the 
supporters of this legislation feel--there are improvements 
that can, and need, to be made. We provide a window for NHTSA 
to develop new rules in these areas, and then to implement 
those rules over a 3-year window. And I think that is 
realistic, it's doable, it's achievable, and ultimately it will 
have a huge impact on both the fatalities and the injuries that 
we see in these three key areas.
    Our bill doesn't mandate any particular approach to dealing 
with brake-shift interlock or window safety or rear visibility. 
We don't tell the auto manufacturers how to do it. We don't 
tell NHTSA how to develop the standard. But we simply say that 
standards in these areas are essential, because they will have 
a material benefit for consumers. So, this is the beginning of 
the process, this session. I want to certainly thank all of 
those that have been involved in the KIDS AND CARS coalition 
for the advocacy work that they've done, and the work that 
they've done in helping to gather information. One of the 
things we realized early on was that we don't have good 
collection of data in this area. And NHTSA, represented by Mr. 
Medford today, I think is making strides in improving the 
process for data collection. So, we've already had a good 
impact in that area.
    I look forward to the testimony of all of our panelists 
today. I hope this Subcommittee and the full Commerce Committee 
can move the legislation as one of its first orders of business 
this year.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Now, typically what we will do is, we'll allow government 
officials to testify on a separate panel, but, by agreement 
with Senator Sununu and also with the permission of Ron 
Medford, who's going to be our first witness, we'd like to 
consolidate the panels today.
    So, let me introduce the panelists. Y'all come on up, grab 
a seat, all the panelists, and, as y'all are taking your seats, 
I'll introduce you. I'll recognize Mr. Medford first.
    Mr. Medford is the Senior Associate Administrator of 
Vehicle Safety of the National Highway Traffic Safety 
Administration, NHTSA. He'll be talking about NHTSA's effort to 
enhance automobile safety for children, and he'll give us a 
progress report on some of the studies under SAFETEA-LU.
    And we'll also hear stories from two parents whose children 
were tragically killed in separate non-traffic automobile 
accidents. Mr. Packy Campbell, whose son, Ian, was the victim 
of a runaway car, and also Dr. Greg Gulbransen, who 
accidentally backed over and killed his 2-year-old son, 
Cameron. I appreciate you all being here and your willingness 
to testify.
    Also, we'll have Joan Claybrook, the President of Public 
Citizen. She brings a wealth of experience and insight into the 
area of automobile safety. She was the NHTSA Administrator 
during the Carter Administration and has remained active in 
this area ever since. She'll talk about a variety of auto 
safety issues.
    And, finally, we'll have Mr. David McCurdy, on behalf of 
the automobile industry. He's the President of the Alliance for 
Automobile Manufacturers, and he'll talk about some of the 
advances made in child safety standards by the industry. He 
will provide an update on safety measures taken by the 
industry.
    So, with that, what I would like to do is acknowledge Mr. 
Ron Medford and ask him to make his opening statement.
    We're going to do 5 minutes on the opening statement. I'd 
love for y'all to watch the time. And then we'll have a series 
of questions after that.
    Mr. Medford?

         STATEMENT OF RONALD MEDFORD, SENIOR ASSOCIATE 
          ADMINISTRATOR FOR VEHICLE SAFETY, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Medford. Thank you, Mr. Chairman, Senator Sununu. I 
appreciate the opportunity to appear before the Subcommittee 
this morning to discuss the important issue of improving 
vehicle safety for children. I regret that Administrator Nason 
could not appear before you because of a prior commitment to 
testify at a House hearing this morning.
    I ask that my written statement be submitted for the 
record.
    While every highway-related death is a tragedy, the loss of 
a child is particularly devastating. Administrator Nason, the 
mother of two young daughters herself, has made protecting 
children one of her top priorities. Earlier this month, NHTSA 
hosted a public meeting to discuss ways to increase the use of 
Lower Anchorages and Tethers for Children, or a system known as 
LATCH. LATCH is a system of anchorages built into newer 
vehicles that is designed to make it easier to install child 
seats. This meeting came about as a result of a new survey 
conducted by NHTSA which found that 40 percent of parents with 
LATCH-equipped vehicles still rely on seatbelts to secure their 
child seats. The survey also found that many parents are 
unaware of either the existence or the importance of LATCH. As 
a result of this public meeting, NHTSA is now working with 
vehicle and car seat manufacturers, consumer advocates, and 
others to develop a national education campaign to better 
inform parents on proper child seat installation. Installing a 
child seat should not be a daunting task for parents, and NHTSA 
is committed to making LATCH better known and easier to use.
    Regarding back-over crashes, last November NHTSA released a 
comprehensive study on this problem. As a part of the study, 
NHTSA tested camera-based systems currently available, to 
evaluate their performance and effectiveness in mitigating 
back-over crashes. Our study found that, while rear-facing 
cameras helped drivers better see pedestrians in the back of 
the vehicle, the presence of fog, rain, or glare, can 
significantly reduce their effectiveness. We also found that 
cameras were not effective at night. And, finally, our research 
showed that, even if the camera can clearly discern the object, 
preventing the crash is still dependent on the driver observing 
the video display and reacting quickly enough. Although our 
studies show that cameras have limitations in preventing 
crashes, NHTSA believes this technology holds great promise. 
And, accordingly, we are continuing our research this year on 
examining the human-factors issues related to camera 
effectiveness.
    Regarding the entrapment hazard posed by power windows, the 
Senators may recall that in 2004 NHTSA finalized a regulation 
mandating all vehicles sold beginning October 1, 2008, have 
recessed window switches to prevent their inadvertent 
activation. Last year, NHTSA added to this rule, pursuant to a 
mandate in SAFETEA-LU, requiring that power-window switches 
have to be pulled up or out to work. We were pleased to 
complete this mandate nearly a year ahead of the deadline set 
by Congress. We believe that, once in effect, these new rules 
will significantly help reduce the likelihood of these 
incidents.
    Mr. Chairman, it is the worst fear of every parent to lose 
a child. The good news is that child safety in vehicles has 
come a long way. In 1975, the fatality rate for children 5 
years old and younger was 4.5 per 100,000 children. Today, the 
fatality rate for children under 5 is 2.27, a record low. 
However, moreover, current statistics show that children 9 
years of age and younger had the least amount of fatalities 
among any age group. These improvements in child safety are 
attributable to a combination of innovative safety features on 
the vehicle, widespread use of child safety seats, and enhanced 
drunk-driving enforcement. NHTSA is committed to making 
additional safety improvements to further protect children. Of 
all of the lifesaving work NHTSA does, I consider this our most 
important duty.
    Thank you for your consideration and for this Committee's 
ongoing effort to improve highway safety. I'd be glad to answer 
any questions that you may have.
    [The prepared statement of Mr. Medford follows:]

 Prepared Statement of Ronald Medford, Senior Associate Administrator 
   for Vehicle Safety, National Highway Traffic Safety Administration

    Mr. Chairman, my name is Ron Medford, and I am the Senior Associate 
Administrator for Vehicle Safety at the National Highway Traffic Safety 
Administration (NHTSA). I appreciate the opportunity to appear before 
this Subcommittee to discuss the important issue of improving vehicle 
safety for children. I regret that NHTSA Administrator Nicole R. Nason 
could not appear before you because of a prior commitment to testify at 
a House subcommittee hearing.
    The mission of NHTSA is to reduce fatalities and injuries on our 
Nation's roads. In 2005, the last year for which complete data are 
available, there were 43,443 highway-related fatalities and 2.7 million 
injuries. Vehicle crashes are the leading cause of death for the age 
group of 4 to 34.
    While every highway-related death is a tragedy, the loss of a child 
is particularly devastating.
    Administrator Nason, the mother of two young daughters herself, has 
made protecting children one of her top priorities. Earlier this month, 
Administrator Nason hosted a public meeting with industry leaders and 
consumer advocates to discuss ways to increase the use of Lower 
Anchorages and Tethers for Children, or the LATCH system. LATCH is a 
system of anchorages built into newer vehicles that is specifically 
designed to make it easier to properly install child seats. This 
meeting came about as a result of a new survey conducted by NHTSA which 
found that 40 percent of parents with LATCH-equipped vehicles still 
rely on seat belts to secure their child seat. The survey also found 
that many parents are unaware of either the existence or the importance 
of the LATCH system.
    As a result of this meeting, NHTSA is working with vehicle and car 
seat manufacturers, child seat installation instructors, and consumer 
advocates to develop a national education campaign to better inform 
parents on proper child seat installation. Installing a child safety 
seat should not be a daunting task for parents, and NHTSA is committed 
to making LATCH better known and easier to use.
    Additionally, NHTSA is currently working to revise its ease-of-use 
ratings for child seats. We believe this new rating system will serve 
as a strong incentive for child seat manufacturers to make proper 
installation of car seats easier for parents.
    Another area of concern that NHTSA is active in addressing is back-
over crashes. Last November, NHTSA released a comprehensive study on 
this problem. This study estimated that back-over crashes cause at 
least 183 fatalities and up to 7,419 injuries annually. Thankfully the 
majority of these injuries are relatively minor, meaning that the 
victims are treated in the emergency room and released.
    As part of this study, NHTSA tested several systems currently 
available to evaluate their performance and potential effectiveness in 
mitigating back-over crashes. Our tests found that the performance of 
ultrasonic and radar parking aids in detecting children behind the 
vehicle was typically poor.
    Our study also looked at camera-based systems and found that they 
provide drivers with the ability to see pedestrians in the majority of 
rear blind spot zones. However, we found that rain, fog or glare from 
the sun can significantly reduce the camera's ability to show drivers a 
clear view of an object in back of the vehicle. The cameras are also 
not effective at night. Finally, our research showed that even if the 
camera can clearly discern the object, preventing the crash is still 
dependent on the driver observing the video display and reacting 
quickly enough.
    Although our study showed that cameras have limitations in 
preventing back-over crashes, NHTSA believes this technology holds 
promise. Accordingly, we are continuing our research in this area.
    Regarding the entrapment hazard posed by power windows, the 
Subcommittee may recall that in April 2004, NHTSA finalized a rule 
mandating that all vehicles sold in MY 2008 have recessed window 
switches to prevent their inadvertent activation. Last year, NHTSA 
added to this rule pursuant to a mandate in SAFETEA-LU requiring that 
power window switches not only be recessed, but have to be pulled ``up 
or out'' to work. We were pleased to be able to meet this mandate 
nearly a year ahead of the deadline set by Congress. Although a child 
fatality due to a power window is an extremely rare occurrence 
(approximately one to two children a year on average) we believe that 
once in effect, these rules will significantly reduce the likelihood of 
these incidents.
    Mr. Chairman, it is the worst fear of every parent to lose a child. 
The good news is child safety has come a long way. A generation ago it 
was not uncommon for children of all ages to be sitting anywhere in the 
car, completely unrestrained. Through our educational efforts, and the 
passage of Anton's Law and other similar legislation, now 98 percent of 
children under 1 year old are buckled up.
    More important, these changes in law presaged a change in society 
toward child safety in vehicles. Apart from being illegal in all 50 
states, most parents now would never consider not buckling up their 
child. This focus on child safety by parents is paying dividends, as 
NHTSA data shows that children 9 years of age and younger have the 
least amount of fatalities among any age group.
    NHTSA is committed to making additional safety improvements to 
further protect children. Of all the lifesaving work NHTSA does, I 
consider this our most important duty.
    Thank you for your consideration, and for this Subcommittee's 
ongoing effort to improve highway safety. I would be pleased to answer 
any questions.

    Senator Pryor. Thank you, Mr. Medford.
    We've been joined by Senator Tom Carper, of Delaware. And 
he's decided not to give an opening statement, right?
    Senator Carper. Could I just make one really, really short 
statement?

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Mr. Chairman, thank you for holding the 
hearing and for letting me step in for a little while. I have 
three hearings going on at the same time, so I'm not going to 
burden you for long with my presence.
    I'm delighted to see my old colleague--not ``old''----
    [Laughter.]
    Senator Carper.--but my colleague of longstanding, Dave 
McCurdy. For those of you who follow baseball, I think today 
may be the first day of spring training.
    [Laughter.]
    Senator Carper. And Dave McCurdy and I used to play on the 
Congressional baseball team, and a couple of years, I remember, 
when I was nominated for Most Valuable Player by the 
Republicans--I'm a Democrat.
    [Laughter.]
    Senator Carper. Tom Ridge was the outfielder for the 
Republicans for a while. A couple of years, I think we've 
picked him as our Most Valuable Player. This guy can handle 
himself well behind the witness stand, and he is also pretty 
good with a baseball. Real good with a bat. But it's great to 
see you.
    And thank you all for being here and testifying with us 
this morning.
    Thank you, David. Welcome.
    Senator Pryor. Thank you, Senator. And thank you for 
joining us.
    Our next witness is Packy Campbell, former State 
Representative for the State of New Hampshire.

STATEMENT OF HON. W. PACKY CAMPBELL, FORMER REPRESENTATIVE FROM 
                         NEW HAMPSHIRE

    Mr. Campbell. Good morning. A little nervous this morning. 
It's my first time in front of the--what I call the ``real 
Congress.'' I've been in front of the Senate in New Hampshire a 
whole bunch of times in the panels, so----
    It's an honor to be here with the Members of this 
Committee, and it's an honor to be one of the advocates, but 
also a politician who realizes that sometimes it takes an act 
of Congress to save lives. And it's going to take an act of 
Congress to save more lives.
    My story, of losing my young son, and literally having my 
child die in my arms, is tragic. It's heart-wrenching. It can 
keep you awake nights. I'm not here to pull at your 
heartstrings, although this is an emotional issue for me and 
all of the family advocates. I'm here to tell you that this is 
a good commonsense measure. As a Republican in the New 
Hampshire House in the ``Live Free or Die'' State, I've never 
voted for a helmet bill or a mandatory seatbelt bill. What are 
we talking about? And sometimes, the safety advocates have to 
tap me and say, ``Remember, safety is a good thing.''
    I know safety is a good thing, and I know this is a good 
bill, because it's reasonable, it's cost-effective. You know, 
my story relates to a brake-shift interlock or a brake 
transmission, which they call BTSI, or ``Betsy'' is the word 
I'm supposed to learn. But no matter what the issue is, whether 
it's power windows or rear visibility standards, as a parent 
and as a compassionate Congress, as human beings, sometimes we 
need to regulate. This is one of those times.
    The industry and NHTSA has been excellent. I came down and 
met with NHTSA and had over 12 people in the room, with the 
help of Congressman Bass. We had a great meeting. Out of that 
meeting came real, productive measures. Those measures were the 
first step in the right direction of this thing. I realize 
there are things that happen in SAFETEA-LU. It was SAFETEA-LU 
that motivated me to come here, because, quite frankly, as a 
parent, I was angry, because I said, ``It's not enough.'' But 
then, as a legislator, I calmed down and said, ``It's a step in 
the right direction. We're moving the ball forward.'' This bill 
is good legislation. I hope that all the Committee members will 
join Senator Sununu and Senator Clinton and cosponsor this 
bill. I think it would be a great statement, politically, that 
we need to care about our children, and we need to protect our 
children.
    I obviously failed in reading my statement here. But it's 
just sometimes something you've got to speak from the heart. I 
hope that this Committee and this Senate will do an act of 
Congress to save other parents and to save lives. I know there 
are other measures that could have happened, or should have 
happened. The bottom line is, my son's death wasn't counted, it 
hasn't been counted, that--the rules that NHTSA can make up, 
they can't make with those statistics. Those statistics have 
not been gathered to a degree that allowed them to do 
rulemaking. Those statistics need to be gathered. This bill, 
unfortunately, needs to hammer that point home so that NHTSA, 
who is willing to do their job, who's trying to do their job, 
will have clear direction that this data needs to be tracked so 
that we have a reason--a justified reason--I mean, they do a 
cost-benefit analysis, as morbid as that is, with these safety 
features. Since we don't have the data, we can't do that 
analysis. That's why we need an act of Congress to say, ``These 
are important safety features, and we should enact them.''
    I thank you very much, and--I lost track of time, but I 
think my 5 minutes is up. And I appreciate it, Mr. Chairman.
    [The prepared statement of Mr. Campbell follows:]

  Prepared Statement of Hon. W. Packy Campbell, Former Representative 
                           from New Hampshire

    Thank you, Mr. Chairman and Members of the Consumer Affairs, 
Insurance, and Automotive Safety Subcommittee of the Senate Committee 
on Commerce, Science, and Transportation, for the opportunity to 
provide this testimony on the need for improved efforts to protect 
children from vehicle-related injury.
    My name is Packy Campbell. I live in the small town of Farmington, 
New Hampshire with my lovely wife Brenda, and our children Ryan, Sarah, 
Adam and our infant child Sean. Also in that town is the grave of my 
son Ian Joseph, who tragically died at our house on April 14, 2004 just 
shy of his second birthday.
    I am a politician by choice, an advocate by circumstance. I served 
two terms in the New Hampshire House of Representatives. It was during 
my first term in the House that my son Ian was killed in a non-traffic 
non-crash incident in our driveway. Ian was killed when his then 4 year 
old brother was able to knock my company's F-350 pickup truck out of 
park without either turning the vehicle on or touching the brakes, a 
feat believed to be impossible due to the fact that the vehicle was 
equipped with brake transmission shift interlock (BTSI). When 
purchasing that vehicle I intentionally sought to buy one with safety 
features that would keep myself, family and others safe.
    However, although equipped with some safety features, my 4 year old 
son Adam was able to put the truck key in the ignition and, without 
starting the vehicle or touching the brakes, shift the truck out of 
park and into either neutral or reverse. That nearly 8,000 pound truck 
then rolled in our driveway and crushed Adam's best buddy, our toddler 
son Ian, who died in my arms on the front porch of our home.
    I have become aware of that our family's tragic accident is not all 
that unusual. On April 12, 2005 Milan Richard Hedmark died in a 
startlingly similar situation. It was this revelation that motivated me 
on my current course of action to seek legislation, as I realize my 
responsibility now is to protect children and families from 
experiencing this type of tragedy.
    Our accident involved a vehicle equipped with brake shift 
interlock. What is brake shift interlock? It is a mechanical or 
electrical design in a vehicle steering column that prevents a car from 
coming out of park unless the brake petal is depressed. Virtually every 
car made has these features. However some cars are designed so that the 
safety feature only works in four out of five key positions.
    Since the accident occurred I have worked with NHTSA, with the 
automobile industry, and with advocacy groups like KIDS AND CARS, to 
make known the risks to children posed by cars that do not contain 
simple, cost effective safety measures proposed in the Act, and to 
mandate such features in all vehicles sold in the U.S. by 2010. In my 
discussions with NHTSA even some of their representatives were shocked 
to learn of what Mr. Keith Brewer at NHTSA called a ``sweet spot'' 
where a BTSI equipped car can be put into neutral without touching the 
brake.
    Through the combined efforts of those groups, and others, a 
voluntary agreement (NHTSA-2006-25669-2; ``Reducing the Risk of 
Inadvertent Automatic Transmission Shift Selector Movement and 
Unintended Vehicle Movement; a Commitment for Continued Action by 
Leading Automakers'') was reached to promote public consciousness of 
the fact that brake transmission shift interlock (BTSI) is not 
foolproof right now, by disclosing which vehicles do or do not have 
BTSI safety features to prevent inadvertent roll-away accidents, and to 
work to make sure that all vehicles sold in the U.S. by 2010 are fully 
protected against roll-away incidents such as the one that took the 
life of my son Ian, and hundreds of other children.
    When first presented with the agreement, I was hesitant to support 
it, as I thought that the Cameron Gulbransen 2005 bill should have been 
passed to mandate both disclosure and changes to vehicle design 
standards. I was convinced to support the voluntary agreement, however, 
by the promises of design changes by 2010 and immediate disclosure by 
the industry and NHTSA of vehicles that complied, and with a personal 
commitment to me by key members of NHTSA to produce a list of vehicles 
that DID NOT comply. At the time, I thought that doing something now to 
save some lives in 2010 was autos worth supporting the voluntary 
agreement. I wanted a list of non-compliant auto's so that it could be 
provided as part of the law enacted by the New Hampshire Legislature 
and signed by Governor Lynch to mandate the disclosure of all vehicles 
that did not have complete brake shift interlock features.
    With all due respect, in regards to the agreement I quote Ronald 
Reagan who said ``trust, but verify.'' If there is a commitment on the 
part of industry what is wrong with holding industry accountable for 
that commitment.
    On a more personal level, my 9 year old son said to me regarding 
this proposed law that ``people are more likely to break their promises 
than they are to break the rules.''
    When the list of compliant vehicles was released by NHTSA and 
industry in September, I contacted NHTSA for two reasons. The first was 
that the F-250 was on the list but did NOT comply with BTSI. Some 6 
weeks later, Ford amended their list to delete the F-250. This was 
presumably only done as a result of my contacting NHTSA about the 
problem with Ford's list. The second was that I wanted to see what I 
was promised, namely what I call the ``non-compliant list.'' The 
response I received was that there is no such list, and that I would 
need to figure it out on my own. I therefore joined Janette Fennell of 
KIDS AND CARS in writing to NHTSA on October 2, 2006 requesting that 
NHTSA publish such a list, just as it publishes the list of compliant 
cars.
    On February 16th, just 9 short days ago, NHTSA finally produced the 
list. Upon being advised of the newly created list this past weekend, 
it only took me a minute to confirm that the voluntary agreement is 
still insufficient. Specifically, the same F-250, and the F-350 that 
killed my son, are not on either list. Every vehicle manufactured and/
or sold in the U.S. is supposed to be on the list, and I found two that 
are not in just about a minute, approximately the time it took my 4 
year old son to run into daddy's truck only slightly ahead of my wife 
and I and get the vehicle to roll-over his baby brother. I will not be 
surprised to find that other vehicles are, for whatever reasons, 
omitted from the list; for example, I am told that the Chevy SSR and 
Saab 9.2 are on neither list.
    Regardless of why these errors, and perhaps others, were made, the 
point is that this voluntary system is just not an adequate way for 
this Nation to take reasonable steps to protect our children. When 
industry and the marketplace are unable to come to grips with a 
problem, it is sometimes necessary for the government to step in and 
mandate such reasonable steps to promote the public safety.
    These examples show that without an act of Congress industry and 
NHTSA will be unlikely to provide the type of information promised.
    Additionally, that agreement only deals with one of the issues 
addressed in the Gulbransen bill, namely the brake transmission shift 
interlock. It does not deal with auto reverse power windows, nor with 
rear visibility standards, both of which have caused death and injury, 
both of which are easily avoidable and equally deserving of action by 
Congress.
    As a parent who is a member of a group of parents who are forced to 
deal with the loss of their child, the principal is simple: safety 
features are not luxury items, nor should the be optional equipment. 
Further, the absence of safety features is not something that should be 
hidden from consumers. It is not the fault of parents that accidents, 
otherwise preventable, happen. Great parents suffer great tragedies. 
The only way to ensure that fatalities will not happen is to design 
them out. This proposed Act will design out, with reasonable affects to 
the cost structure on the industry, defect's that costs the lives of 
children.
    PLEASE UNDERSTAND THAT MY SON IAN WOULD BE ALIVE IF HE AND HIS 
BROTHER HAD JUMPED INTO THE OTHER VEHICLE IN MY DRIVEWAY AT THE TIME OF 
THE ACCIDENT. That vehicle, a 2002 GMC Envoy, was equipped with BTSI in 
all key positions, making the roll-away accident impossible for a 4-
year old to cause. The fact that I purchased both of those cars with 
the expectation that they would behave in the same way shows why we 
need Congress to act on this bill.
    Finally, the agreement does nothing to require industry or NHTSA to 
compile statistical data of non-traffic, non-crash situations involving 
bodily injury or death. It will take an act of Congress to change the 
reporting requirements of law enforcement across the company. NHTSA did 
a 2004 study of death certificates my sons death certificate was not 
reported in a way that it was calculated in that study. It will take an 
act of Congress to make relevant statistics a possibility.
    When my little son Ian died in the little town of Farmington in the 
little State of New Hampshire in April 2004, his death was not tracked, 
recorded or counted by any governmental agency in this country. His 
death, and hundreds of other deaths in such non-traffic non-crash 
situations, should not go un-noticed. They should be heard by this 
Congress, and NHTSA, and industry, as a call, or more appropriately a 
cry, to take reasonable steps to avoid such needless deaths and 
injuries in the future.
    NHTSA may suggest to this Congress that it is working on these 
issues through rulemaking. In fact, prior to offering the voluntary 
agreement NHTSA offered to put the issue in rulemaking, and asked me to 
petition for such a rule. I declined that request.
    Although NHTSA has the authority to make rules with the force of 
law when circumstances warrant, rulemaking requires NHTSA to perform a 
cost-benefit analysis on any proposal to require a safety feature. 
However, without any accurate data on non-traffic non-crash related 
deaths, such an analysis is impossible.
    More importantly, it is a morally reprehensible analysis to do in 
the first place. One child's death is enough when it can be so 
reasonably avoided by the common sense, reasonable and affordable 
safety measures proposed by this Act. Congressional action circumvents 
this morbid ``cost-benefit'' analysis. Congressional action is needed 
now.
    It is only by enacting this law that the Federal Government will 
begin to collect data on such incidents, and will force the industry to 
implement reasonable measures to avoid the deaths of hundreds of 
children in the future. It is my hope, and my prayer, that my little 
Ian's death does not go unnoticed by this Congress, but that instead 
you hear his cry, and the cry of his family and hundreds of family's 
across this great Nation, and enact the Cameron Gulbransen Kids and 
Cars Safety Act of 2007.
    I thank you for the opportunity to speak and submit testimony to 
you on behalf of my son Ian, his brothers and sister, my wife Brenda, 
and on behalf of the hundreds of other families who look to this 
Committee and this Congress to learn from our tragedy and do the best 
you can to prevent such needless deaths in the future.

    Senator Pryor. Thank you.
    Our next witness is Dr. Greg Gulbransen.
    Doctor?

 STATEMENT OF DR. GREG GULBRANSEN, PEDIATRICIAN, SYOSSET, NEW 
                              YORK

    Dr. Gulbransen. Mr. Chairman, good morning.
    I'm Dr. Greg Gulbransen. I'd like to start by saying thank 
you for taking on this challenge.
    I wish to thank you and Members of the Consumer Affairs, 
Insurance, and Automobile Safety Subcommittee for inviting me 
to appear before you today to testify on the important issue of 
child safety as it relates to the vehicles that we drive.
    I'm here today to speak to you as a dad, a pediatrician, a 
board member of KIDS AND CARS, and a concerned citizen in an 
attempt to make vehicles safer for the American family. My 
wife, Leslie, and I, along with hundreds of other families, are 
determined to prevent our tragedy from happening again and 
again to so many other families.
    On October 19, 2002, a preventable, but unthinkable, 
tragedy struck our family. It was 9:30 p.m., and I stepped out 
to move my SUV into the driveway. Inside my home were my--the 
babysitter, Leslie, my wife, and my two young sons, or so I 
thought. It was a habit of mine to back the SUV into the 
driveway in the evening, because in the morning the streets are 
congested with children playing and people walking their dogs. 
Cameron was not in the driveway when I got into my SUV. While 
driving in reverse, I remember looking over my shoulder and 
using the rearview and both side mirrors, and backing slowly 
into my parking space. I thought I was driving a safe vehicle 
and doing the right thing, until I suddenly felt the front 
wheel go over a bump. I had no idea what I had run over. I knew 
I couldn't have hit the curb, and it was too early for the 
newspaper. Out of concern, I jumped out, and there in the 
headlights was my 2-year-old son, Cameron, in his baby-blue 
pajamas, holding his blanket, face up, dying of massive, 
profuse head injuries. I knew immediately it was too late, but 
I did everything I could to save my dying son.
    I can't begin to describe the sickening shock and 
devastation. How could this have happened? I looked where I was 
driving, but yet I never saw him. I never had a chance of 
seeing Cameron, because he was too small--too small for the 
large blindspots that are built into the design of our 
vehicles. While SUVs, minivans, and pickup trucks have become 
more popular, they pose a greater danger for our children. 
These vehicles have huge blind zones that have led to tragedies 
for many families, because drivers simply cannot see who or 
what is behind them when they are driving. These technologies 
will continue--I'm sorry--these tragedies will continue, if 
something isn't done.
    I learned, later, that there are technologies, like cameras 
and sensor systems, that would have warned me that my son was 
behind my vehicle. As a pediatrician who advocates for 
children's safety, and as a father who has lost a child, I 
can't stress enough how important it is to get these lifesaving 
technologies into vehicles.
    While the Government is responding for collecting accident 
data and recognizing safety issues affecting our daily lives, 
at the present time the Government hasn't even set up a 
database to collect information about non-traffic injuries. 
Yes, my son was also not a statistic. No one ever even counted 
his death. It was an unevent.
    Without data collection, how can we expect the Government 
and the automobile industry to appreciate the need to make the 
necessary safety improvements in our vehicles? I find it 
curious that it's taken the efforts of a nonprofit agency, such 
as KIDS AND CARS, to bring this issue to the public attention. 
If not for their work--if not for their efforts to inform the 
public about these dangers, I'm certain we would not have--we 
would not be here today, trying to work together to solve this 
grave public health and safety issue.
    Yes, the ultimate responsibility for operating a vehicle 
lies with the driver. I feel that pain every single day. 
However, the automobile industry is responsible for designing 
safe vehicles, and the Government has both the duty and the 
obligation to protect children in and around motor vehicles by 
setting reasonable safety standards.
    The truth is that when drivers are backing their vehicles, 
they are forced to put blinders on that prevent them from 
seeing large areas behind their vehicle. Parents know the 
driver should not be required to bear the burden for this 
problem alone, especially when motor vehicles come equipped 
with large blind zones as standard equipment, blind zones that 
cannot be eliminated by mirrors and cannot be made safe by 
educational messages alone. Only technology that provides 
drivers with visibility behind the vehicle can shine a light 
into the blind zone and ensure that our children are protected.
    I'm not talking about futuristic, pie-in-the-sky 
developments that are years away. I'm talking about stuff that 
already exists, that's already being offered as either standard 
or optional equipment on many current production vehicle 
models. Until the Government acts to provide that technology in 
every vehicle, drivers will have little chance of preventing 
back-over crashes, and our children will remain at risk even 
near their own homes. That's why the Cameron Gulbransen Kids 
and Cars Safety Act of 2007 is so important.
    While my son's name is on the bill, it's not about him at 
all. It's about every single child that's ever been backed 
over, inadvertently left in a vehicle, or accidently trapped in 
a power window. This legislation honors all of them, and shows 
how much we are trying to make vehicles safer for the American 
family.
    For some reason, there's a little confusion. The press 
seems to think that all we want to do is advocate that cameras 
are on the rear of all these vehicles. It's not that. We want 
safety performance standards for rearward visibility.
    So, thank you for your time and giving me the honor to 
crusade here today for safety of children. I thank you for the 
past support for this legislation and your efforts to get it 
enacted last year before Congress adjourned. I hope that 
passage of this legislation will be of--a priority of the 
Subcommittee, and I want to help in any way I can. I think this 
is my fifth time down here, and I'll continue to keep coming 
down.
    I'm happy to answer any questions you have. I also have 
included attachments to the testimony to illustrate the 
enormous blind zones behind some vehicles, a fact sheet on the 
major provisions in the legislation, and information about the 
growing number of child deaths.
    Please remember the motto from KIDS AND CARS, ``Be sure you 
can see before you turn the key.''
    [The prepared statement of Dr. Gulbransen follows:]

 Prepared Statement of Dr. Greg Gulbransen, Pediatrician, Syosset, New 
                                  York

    Mr. Chairman, good morning. I am Dr. Greg Gulbransen and would like 
to start by saying thank you for taking on this challenge. I wish to 
thank you and the members of the Consumer Affairs, Insurance, and 
Automotive Safety Subcommittee for inviting me to appear before you 
today to testify on the important issue of child safety as it relates 
to the vehicles we drive. I am here today speaking to you as dad, a 
Pediatrician, a board member of KIDS AND CARS, and a concerned citizen 
in an attempt to make vehicles safer for the American family. My wife 
Leslie and I, along with hundreds of other families are determined to 
prevent our tragedy from happening again and again to so many other 
families.
    On October 19, 2002 a preventable but unthinkable tragedy struck 
our family. It was 9:30 p.m. and I stepped outside to move my SUV into 
the driveway. Inside my home were the babysitter, Leslie, and my two 
young sons; or so I thought. It was a habit of mine to back the SUV 
into the driveway in the evening because in the morning the streets 
were congested with children playing and people walking their dogs. 
Cameron was not in the driveway when I got into my SUV. While driving 
in reverse I remember looking over my shoulder and using the rear view 
and both side mirrors and backing slowly into my parking space. I 
thought I was driving a safe vehicle and was doing the right thing 
until I suddenly felt the front wheel go over a bump. I had no idea 
what I had run over. I knew I couldn't have hit the curb. Out of 
concern I jumped out and there in the headlights was my 2-year-old son, 
Cameron, in his baby blue pajamas holding his blanket, face up, 
bleeding profusely from a massive head injury. I knew immediately it 
was too late but I did everything I could to save my dying son.
    I can't begin to describe the sickening shock and devastation. How 
could this have happened? I looked where I was driving but yet I never 
saw him! I never had a chance of seeing Cameron because he was too 
small. Too small for the large blind zones that are built into the 
design of our vehicles.
    While SUVs, minivans and pickup trucks have become more popular 
they pose a greater danger for our children. These vehicles have huge 
blind zones that have led to tragedies for many families because 
drivers simply cannot see who or what is behind us when we drive. These 
tragedies will continue if something isn't done. I learned later that 
there are technologies, like cameras and sensor systems that would have 
warned me that my son was behind my vehicle. As a pediatrician who 
advocates for children's safety and as a father who has lost a child, I 
can't stress enough how important it is to get these life-saving 
technologies into all vehicles.
    While the government is responsible for collecting accident data 
and recognizing safety issues affecting our daily lives, at the present 
time the government hasn't even set up a database to collect 
information about non-traffic injuries. Without data collection how can 
we expect the government and the automobile industry to appreciate the 
need to make the necessary safety improvements in our vehicles? I find 
it curious that it has taken the efforts of a nonprofit agency, KIDS 
AND CARS, to bring this issue to public attention. If not for their 
efforts to inform the public about these dangers, I'm certain we would 
not be here today trying to work together to solve this grave public 
health and safety issue. Yes, the ultimate responsibility for operating 
a vehicle lies with the driver. I feel the pain of that every day. 
However, the automobile industry is responsible for designing safe 
vehicles, and the government has both the duty and the obligation to 
protect children in and around motor vehicles by setting reasonable 
standards for safety. The truth is that when drivers are backing their 
vehicles they are forced to put blinders on that prevent them from 
seeing large areas behind their vehicle. Parents and other drivers 
should not be required to bear the burden for this problem alone, 
especially when motor vehicles come equipped with large blind zones as 
standard equipment. Blind zones that cannot be eliminated by mirrors 
and cannot be made safe by educational messages alone. Only technology 
that provides drivers with visibility behind their vehicle can shine a 
light into the blind zone and ensure that our children are protected.
    I am not talking about futuristic, pie-in-the-sky developments that 
are years away, I am talking about existing technology that is already 
offered either as standard or optional equipment on many current 
production vehicle models. Until government acts to provide that 
technology in every vehicle, drivers will have little chance of 
preventing back-over crashes, and our children will remain at risk even 
near their own homes.
    That's why the Cameron Gulbransen Kids and Cars Safety Act of 2007 
is so important. While Cameron's name is on the bill, let's remember 
this isn't just about Cameron. This bill is about every single child 
that has been backed over, inadvertently left in a vehicle or 
accidentally trapped in a power window. This legislation honors all of 
them and shows how much we are trying to make vehicles safer for the 
American family.
    Thank you for your time and giving me the honor to crusade here 
today for the safety of children. I thank you for your past support for 
this legislation and your efforts to get it enacted last year before 
Congress adjourned. I hope that passage of the legislation will be a 
priority of the Subcommittee and I want to help in any way I can. This 
is my fifth trip to Capitol Hill to urge passage and I will come as 
often as you like to see this important bill enacted.
     I am happy to answer any question you have. I also have included 
attachments to my testimony that illustrate the enormous blind zones 
behind some vehicles, a fact sheet on the major provisions in the 
legislation and information about the growing number of child deaths 
and injuries.
    Please remember the motto from KIDS AND CARS when you get behind 
the wheel of your vehicle today, ``Be sure you can see before you turn 
the key.''
                                 ______
                                 
   The Cameron Gulbransen Kids and Cars Safety Act of 2007 Fact Sheet

    At least four young children are killed in a non-traffic automobile 
incident every week. The age of victims in these cases is usually less 
than 5-years-old. These tragedies are truly heart-wrenching--but also 
preventable. This bill addresses the leading causes of these needless 
deaths and injuries by directing the Secretary of Transportation to 
issue safety standards and take other action to reduce the incidence of 
child injury and death inside or outside of parked passenger motor 
vehicles.
The Need To Protect Children In and Around Vehicles
    Since 2001, over 1,000 children have died in non-traffic incidents 
and this statistic has been steadily rising. Preliminary data indicate 
219 documented fatalities in 2006. The government currently does not 
collect data about non-traffic incidents, so we know that the real 
fatality numbers are much higher. (data provided by Kids and Cars, 
www.KidsAndCars.org.)
    A 2002 Centers for Disease Control and Prevention (CDC) study (July 
2000-June 2001) reported that over 9,160 children are treated in 
hospital emergency rooms due to non-traffic incidents.
The Bill
    The Cameron Gulbransen KIDS AND CARS Safety Act of 2007 directs the 
Secretary of Transportation to issue safety standards to decrease the 
incidence of child injury and death. The Act:

  <bullet> Establishes reasonable rulemaking deadlines regarding child 
        safety, applicable to all passenger motor vehicles, in three 
        ways:

          -- Ensures that power windows and panels automatically 
        reverse direction when they detect an obstruction to prevent 
        children from being trapped, injured or killed.

          -- Requires a rearward visibility performance standard that 
        will provide drivers with a means of detecting the presence of 
        a person behind the vehicle in order to prevent backing 
        incidents involving death and injury, especially to small 
        children and disabled people.

          -- Requires the vehicle service brake to be depressed 
        whenever the vehicle is taken out of park in order to prevent 
        incidents resulting from children disengaging the gear shift 
        and causing vehicles to roll away.

  <bullet> Establishes a child safety information program, administered 
        by the Secretary of Transportation. This will involve 
        collecting non-traffic incident data, informing parents about 
        these hazards to children and ways to mitigate them, as well as 
        making this information available to the public through the 
        Internet and other means.

Support
    Senators John E. Sununu (R-NH) and Hillary Rodham Clinton (D-NY) 
are the prime senate sponsors; the House of Representatives companion 
bill is sponsored by Congresswoman Jan Schakowsky (D-IL) and 
Congressman Peter King (R-NY)
    Groups supporting the bill include: KIDS AND CARS, Consumers Union, 
Advocates for Highway and Auto Safety, the American Academy of 
Pediatrics, Public Citizen, Kids in Danger, Trauma Foundation, The Zoie 
Foundation, Adrianna's Rule Foundation, Veronica's Eyes Foundation, 
Craig's Crusade and more.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Pryor. Thank you.
    Ms. Joan Claybrook, Public Citizen.

      STATEMENT OF HON. JOAN CLAYBROOK, PRESIDENT, PUBLIC 
CITIZEN; FORMER ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY 
                         ADMINISTRATION

    Ms. Claybrook. Thank you very much, Mr. Chairman.
    First, I'd like to acknowledge the role of this Committee 
in passage of the SAFETEA-LU bill for which we are very 
appreciative. It's a wonderful piece of legislation, and it's 
made a huge difference already in safety.
    Second, I'd like to acknowledge the work that was done on 
the TREAD Act, although some of you weren't here then. This 
committee did pass the TREAD Act in 2000, and it also has made 
important improvements in the activities of the National 
Highway Traffic Safety Administration.
    Third, I'd just like to direct the Senators to some of the 
families that are in the first rows here who have come to 
Capitol Hill to lobby for the legislation, and to thank Senator 
Sununu for your cosponsorship of this important bill.
    Mr. Chairman, I have divided my statement into three parts: 
the importance of protecting children inside cars, the 
importance of protecting children outside of vehicles, and 
school bus safety. And because there's so much to say, I'm 
going to have to urge that you pay attention to the testimony 
as its whole, but I'm just going to mention a few items in it.
    First, I do want to support the enactment of the Cameron 
Gulbransen legislation. It's really an important piece of 
legislation, and it needs to be passed.
    But the question of what the Committee is going to do in 
terms of its decisions in the legislative process beyond that 
legislation, I think, need to be addressed in terms of the 
number of deaths to children in the different types of crashes 
that occur.
    And it's amazing, I just got this data yesterday from 
NHTSA--late yesterday--and so, I don't have it included in my 
testimony, but I do have--it's being distributed today--a sheet 
that pictures a car that describes the different crash sources/
modes, and where these deaths and injuries occur. The data are 
for 2005. In frontal-crash impacts--these are 0- to 8-year-old 
children who are--there are 241 deaths in frontal-impact 
crashes. There are 257 deaths of children in rollover crashes. 
There are 61 deaths in rear-impact crashes. There are 200 
deaths in side-impact crashes. There are 339 deaths of child 
pedestrians. And there are 226 deaths that would be prevented 
were the Gulbransen law to pass.
    So, there you have the importance of that bill spelled out 
by the statistics and the data. Incredibly, incredibly 
important. And it's no less important than front-, rear-, 
rollover, or side-impact crashes that occur.
    Now, the other interesting piece of information that I got 
from NHTSA late yesterday was the relationship between the 
deaths of children and the deaths of adults in those modes of 
crashes. And--in terms of percentages, because the numbers are 
quite different--but if you compare the 0- to 8-year-old 
children in these modes of crashes to adults age 13 and above, 
they're 33 percent for rollovers, where children are killed; 
and 34 percent for adults. Same thing. For frontal, you have 31 
percent for the 0- to 8-year-old, and 38 percent for adults, so 
it's very close. For the side, it's 26 percent and 22 percent--
26 for children, 22 for adults. And in the rear, there's a 
bigger difference, 8 percent and 3 percent.
    Now, what does that say to us, in terms of what's needed? 
Well, first--cars are not made for children. They're just not 
made for children. Motor vehicles are made for adults. And so, 
the items that are addressed in our testimonies jointly today 
are ones that say, ``These are the most important areas where 
there are simple remedies.'' Most of them are incredibly 
inexpensive, like the brake-shift interlock, which is 
voluntarily offered by the auto industry, but only 80 percent 
of the vehicles comply with it today, and less used to when 
this voluntary deal was first agreed to in the 1990s. It costs 
a couple of dollars, and it means that no kid can shift that 
gearshift out of park and into neutral, and let the car roll 
away, because they can't reach the brake. And so, the brake-
shift interlock requires you to put your foot on the brake 
before you can shift. And I will say that when I was 5 years 
old, I did that in my parents car, and, as a result, I almost 
died, because the car almost rolled over a cliff. And if some 
woman hadn't seen it happen and stopped it, I would be dead, at 
5 years old. So, this is a really important, but small, item.
    But if you look at the back-over, which is where the 
largest number of deaths are occurring, and which is really 
unnecessary, I want to say two things. One is that in 1980 I 
issued a conspicuity standard, a standard which measures what a 
person inside the vehicle can see all around, 360+. And that 
standard took 10 years to develop, and it was never 
implemented. NHTSA never implemented it. And, as a result, we 
have vehicles that are designed so that--and Consumer's Union 
has documented this--so you cannot see children for many, many 
feet, particularly if you're short. And many women who drive 
these SUVs are short. You cannot see your children. And even if 
you're taller, you can't. So, there's got to be something done. 
And what this bill has in it is a safety performance standard. 
It's not a requirement for any particular technology. It's a 
safety performance standard. So, I think that this bill is 
well-warranted.
    In terms of power windows, when I was at NHTSA in the 
1960s, we started working on power windows. They were just 
coming into vehicles and--in a widespread way. And no one knew 
what to do. Well, now we have the methods for raising and 
lowering the window changed. The auto reverse in Europe costs 
$10 to $12 a window. If you ask any parent would they spend $10 
to $12 per window to protect their kids from being strangled or 
their arms or hands being cut off, you wouldn't find a parent 
in this nation that wouldn't pay that amount of money. And when 
you think about the cost of fancy radios and all the rest of it 
that are put in cars that cost much more, then you know that 
these are cheap, very cheap, by comparison.
    And when the industry does something in mass production, 
the costs go way down. They always complain about it, and then 
they give you the optional equipment price, but when they put 
it in mass production, the price goes down.
    There are several other things that I mention in my 
testimony. I'll just briefly say that child restraints are only 
tested for frontal crashes, they're not tested for side, rear, 
or rollover crashes. They should be. The rear seatbacks often 
fall down on children, because they're not built in a strong 
enough way, and the standard for vehicle seats is 35 years old. 
And we tell people to put their kids in the back seat, and, 
when we do, the seat can go back and harm them. When NHTSA did 
crash tests for the rear-impact tests that they were going to 
raise to 50 miles an hour, almost every seat back fell 
backward. Now, who doesn't go 50 miles an hour down the 
highway, right? You may not crash at 50 miles an hour, but it 
could be at 40 in the rear. NHTSA did nothing to issue a new 
standard to require that seat backs don't fall back. And yet, 
we tell all people to put their kids in the back seat. If that 
seat back falls backward, what happens is, the front seat 
passenger goes zooming backward, because your belt doesn't hold 
you in a rearward crash, and you become a quadriplegic or 
paraplegic, and you crush your child. Terrible. And that data 
is generally not collected.
    So, I urge you to pass this bill. I urge you to look at 
these other issues. They're very minor costs, most of them. The 
seat-back cost couldn't be $15 or $20 to fix per car. And I 
urge you to consider all of these issues, because they're 
really critically important, and children deserve it.
    Thank you.
    [The prepared statement of Ms. Claybrook follows:]

 Prepared Statement of Hon. Joan Claybrook, President, Public Citizen; 
  Former Administrator, National Highway Traffic Safety Administration

    Thank you, Mr. Chairman and Members of the Consumer Affairs, 
Insurance, and Automotive Safety Subcommittee of the Senate Committee 
on Commerce, Science, and Transportation, for the opportunity to 
provide this testimony on the need for improved efforts to protect 
children from vehicle-related injury. I am Joan Claybrook, the 
president of Public Citizen, a national non-profit public interest 
organization with over 150,000 members nationwide. We represent the 
interests of consumers and ordinary citizens through lobbying, 
litigation, regulatory oversight, research, and public education.
    Child safety issues first gained the spotlight in the 1990s, with 
the discovery that auto manufacturers were installing cut-rate airbags 
that were killing children. I had alerted manufacturers in 1980 of 
research pointing to the need to consider designs and technologies such 
as top-mounted, vertically deploying airbags, dual inflation, technical 
folds, and tethers in order to reduce risks to children and small-
statured adults, but most automakers failed to follow through on this 
information. Although automakers had known for a dozen years that the 
child/airbag relationship was delicate, they neither warned the public 
against placing children in the front seats nor designed airbags to 
protect children. Instead, they exploited the discretion granted them 
by the National Highway Traffic Safety Administration's (NHTSA) broad 
performance standard and abused it. It took Congressional action to 
force NHTSA to require the automakers to accommodate children in airbag 
design. This story, unfortunately, is paradigmatic of the child safety 
issue.
    Motor vehicle crashes are the leading cause of death for children 
ages 3 to 14 in the United States. \1\ NHTSA reports that in 2005, 
1,946 children were killed and 234,000 children were injured in motor 
vehicle crashes. \2\ That means that each day an average of 5 children 
are dying in motor vehicle crashes while another 640 are injured. \3\ 
Moreover, children are also at serious risk in and around motor 
vehicles in non-traffic related incidents, and these data are 
completely missing from state and Federal safety databases. In the 
absence of government data collection, KIDS AND CARS, a national 
nonprofit safety organization, maintains a database of child fatalities 
from motor vehicle events other than crashes on the Nation's roadways. 
These non-traffic motor vehicle related events--which include children 
being backed over by vehicles, being inadvertently left in hot 
vehicles, being strangled by power windows, and setting cars in motion 
when left unattended in a vehicle--killed at least 226 children in 2005 
alone. \4\ (We suspect these numbers could be even higher, because 
NHTSA does not currently collect non-traffic death and injury data; 
KIDS AND CARS is the only source for these data.)
    What is even more tragic about these bleak statistics is that many 
of these deaths and serious injuries could have been prevented. When I 
refer to preventability, let me be clear that I am not blaming parents; 
instead, I am referring to the failures of industry to design motor 
vehicles for children and of our Federal Government to use the 
resources at its disposal to gather data and set standards to protect 
children from needless harm. I am sure that we will undoubtedly hear 
today about the need to educate parents, or that many of the deaths and 
injuries we will discuss today are attributable to parental neglect. I 
caution you to reject these arguments, for they are simply the child 
safety equivalent of the ``nut behind the wheel'' argument that 
industry raised for years in order to avoid accepting responsibility 
for its design failures. We know that children must be driven to 
school, the doctor, and so on; we know as well that parents do not have 
fifteen arms or eyes in the backs of their heads, and that children can 
get into enormous danger in a split second. Vehicles must be designed 
with some recognition of these simple facts of life, and NHTSA must 
ensure that they are. As NHTSA and manufacturers continue their pattern 
of neglect, then we must turn to Congress to make sure children are 
protected.
I. Child Safety Is Undermined by Unnecessary Information Gaps
    A core issue for child safety is how little information is 
available to guide policymakers and help the public hold NHTSA and the 
motor vehicle industry accountable. One problem is that information 
which NHTSA has at its disposal is not readily accessible to the 
public. For example, a researcher interested in learning the number of 
children killed in rear-impact crashes or side-impact crashes in a 
given year cannot find this information through the public interface 
for NHTSA's Fatality Analysis Reporting System (FARS). NHTSA can and 
will generate reports from that data, but only upon request.
    NHTSA's data gathering systems have focused on injuries and deaths 
from crashes on the Nation's roadways and have never tracked the deaths 
and injuries related to motor vehicles in non-traffic incidents. The 
invisibility of non-traffic incidents in NHTSA data has resulted in 
decades of neglect of several kinds of alarming yet preventable child 
deaths and injuries, such as back-overs in driveways and strangulations 
in power windows of parked vehicles. Thanks to the enterprising work of 
KIDS AND CARS, we know much more about the gravity of these risks to 
children. NHTSA is only now taking the initial steps to begin gathering 
this kind of data systematically, thanks to Congress's decision in 
2005's Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) to require NHTSA to do so.
    Meanwhile, the agency is undermining our ability to know about 
potential defects in child safety seats. Outraged by the revelation 
that NHTSA had known of the Ford-Firestone deaths but failed to act, 
Congress demanded in the Transportation Recall Enhancement, 
Accountability, and Documentation (TREAD) Act of 2000 that NHTSA create 
an early warning system--a database to alert the public of trends 
suggesting a potential safety defect. NHTSA has created that system, 
but it has inexplicably opted in its implementing rule to keep most of 
that data secret from the public. (In fact, when NHTSA created the 
database and starting gathering information from manufacturers in 2003, 
it kept all such data secret, pending the outcome of litigation 
challenging the agency's first rule to exempt the data from public 
disclosure. After NHTSA lost in court, it returned to the drawing board 
and proposed a rule that would keeps most of this data secret. 
Meanwhile, at present none of this data is yet available to the 
public.) \5\
    In addition to monitoring NHTSA's efforts to implement the data 
gathering requirements of SAFETEA-LU, I encourage Congress to hold the 
agency's feet to the fire on its decision to keep the TREAD Act's early 
warning data (including data on child safety) a dark secret. I also 
call on Congress to require the agency to close the information gap by 
compiling the latest safety data on children and other vulnerable 
populations (such as seniors and pregnant women) in readily available 
periodic reports.
II. Children Are Unnecessarily at Risk From Insufficient Motor Vehicle 
        Safety Standards
    It is no easy task to try to catalogue all the vehicle-related 
harms that children face. Of course, there are all the risks that are 
specific to children, such as unsafe booster seats, inadequate child 
restraints, and vehicle back-overs. There are also all the risks that 
adults face--frontal, rear, side-impact, and rollover crashes--which 
may be magnified for children. I want to focus on a few of the most 
urgent risks, and I believe it would be useful to group them in three 
categories: risks children face inside the vehicle, those they face 
outside the vehicle, and those they face when they are entrusted to 
school buses.
A. Protecting Children Inside the Vehicle
    Children face a range of harms while they are inside the vehicle--
as passengers in cars on the road, and as occupants (often active 
occupants) in cars that have been parked. I want to focus on a few core 
issues that are most in need of oversight and legislative action.
1. The Child Safety Gap in Motor Vehicle Safety Standards
    Federal motor vehicle safety standards protect all of us, including 
children, every day. The increase in the number of passenger vehicles 
and drivers since 1966 is substantial, yet both the number of deaths 
and the death rate have declined dramatically in the last 40 years. 
NHTSA's motor vehicle safety standards have played a large role in 
achieving these savings. Nonetheless, there are significant gaps in 
existing and developing safety standards: just as manufacturers fail to 
design vehicles to protect children, NHTSA is not doing enough to 
develop safety standards that will adequately address the particular 
needs of children.
    Side impact crashes. Perhaps the most important example is side-
impact crash protection. The current side-impact crash protection 
standard (FMVSS No. 214) does not address rear occupants. NHTSA 
proposed in 2004 to amend the side-impact standard to include demanding 
new tests for front seat occupants, essentially requiring the use of 
upper and lower interior side-impact air bags. The proposed rule's 
requirements for rear seat occupants, however, are far less demanding 
and can be met with foam padding instead of dynamic side-impact 
airbags, which offer greater protection. What does this inadequate 
proposal mean for children? Simple: parents are instructed to place 
children in the rear seats, precisely where the current and proposed 
side-impact standards fail to offer sufficient protection. \6\ 
Moreover, the proposed rule endangers children under 12 who are in the 
front seat of a vehicle, because side-impact airbags for front seat 
occupants that comply with the proposed rule still allow children to be 
ejected from the vehicle. In short, NHTSA's new proposal offers no 
protection for children whether they ride in the front or back seat. 
\7\ Meeting the needs of children in side-impact crashes should be a 
higher priority, given that side-impact collisions account for 42 
percent of vehicle-related child fatalities for rear-seated children 
ages 0-8. \8\
    Rollover crashes. The safety gap for children also means that weak 
standards will be doubly weak for children. A significant portion of 
vehicle-related child fatalities--around 30 percent of child deaths 
from motor vehicle crashes--is attributable to rollover crashes. \9\ 
Unfortunately, NHTSA has proposed a standard for roof strength in 
rollover crashes that will not adequately protect anyone, much less 
children. Among its problems: it maintains the static platen test, 
which fails to accurately replicate the damage and forces a vehicle is 
subjected to during a rollover crash, and its inadequacy will not 
mitigate the deaths and injuries specifically attributable to the 
cascading effects of a weak roof, which include the creation of 
ejection portals when the window glazing fails, belt failure, door 
retention failure, and injury from the violent intrusion of the roof 
itself. I look forward to this particular issue being addressed in more 
detail in the months to come, as this Committee conducts oversight of 
the Administration's implementation of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
which requires NHTSA to issue roof crush and ejection mitigation 
standards.
    Seat backs. Unmet needs for adult safety protection can put 
children at particular risk. One case in point is the need for stronger 
seat backs. In a rear-impact crash, the vehicle's front seats can 
collapse rearward. The result is not just back injury, paraplegia, and 
quadriplegia for the front-seat occupant: the rearward collapse of the 
back of the front seat injures any occupants behind it, in the rear 
seat. All too often, the rear seat occupants injured or killed in cases 
of seatback collapse are the vehicle owners' own children. NHTSA does 
currently have a seat strength standard, but it remains so pathetically 
inadequate that some believe vehicle seats are held to a weaker 
standard than lawn chairs. Manufacturers are well aware of the dangers 
of seat back failures in crashes, \10\ and NHTSA is likewise aware 
\11\--although it nonetheless aborted its proposal in 2000 to remedy 
the problem. \12\ Congress must insist that NHTSA make necessary 
updates to this important rule.
2. Child Restraints
    The revolution that was supposed to fill, or at least bridge, this 
safety gap for the youngest children was the widespread use of child 
restraints and booster seats. Child restraints have definitely had a 
positive effect on child safety, even when they are misused. 
Nonetheless, there is much more NHTSA can do to improve child safety by 
focusing its safety and consumer information programs on child 
restraints.
The Need for Safety Standards
    Under FMVSS 213, the only test child safety restraints must pass is 
a standard for 30 mile per hour frontal-impact crashes. Children are at 
risk in all crashes, not just frontal-impact crashes. For example, 
side-impact collisions account for 42 percent of child fatalities for 
rear-seated children ages 0-8, \13\ and on average 32 percent of 
children killed in motor vehicle crashes die in rollovers. \14\ Federal 
motor vehicle safety standards are designed to ensure that our motor 
vehicles meet a very basic level of safety and are capable of 
protecting occupants from common crashes and other safety concerns. Is 
it unreasonable to expect these standards to require basic protections 
for children, the most precious cargo our vehicles will ever carry, in 
common vehicle crashes?
    In 2000, Congress instructed NHTSA in section 14 of the TREAD Act 
to initiate a rulemaking on side-impact crash test standards for child 
restraints, which was supposed to be completed 2 years later. After 
considering the issuance of such a rule NHTSA decided that more 
research was necessary and then promptly abandoned the rulemaking it 
was explicitly required to complete. Congress never authorized NHTSA to 
abandon this rulemaking. Congress must ensure that NHTSA does not 
continue to stall on this important issue but instead pushes forward 
with research and the timely issuance of a much needed standard.
    In addition to failing to issue safety standards for child 
restraints in even the most basic of vehicle crashes, NHTSA also fails 
to guarantee that child restraints are safe and appropriate for the 
upper age/size range recommended to use them. FMVSS 213, the only 
standard applicable to child restraints, which includes booster seats 
used by older children, is severely limited because it tests safety 
seats only for children weighing up to 65 pounds, even though booster 
seats are recommended for children up to 80 pounds. \15\
    Finally, it is essential for NHTSA to issue standards for child 
restraints for the crash types discussed above, while including a full 
range of representative child test dummies, including the 10-year-old 
child test dummy for children up to 80 pounds which the agency has 
developed but not included in performance standards. Currently, the one 
standard test required for child restraints only requires child 
restraints to perform adequately in frontal crash tests at 30 miles per 
hour. This is dangerously inadequate. NHTSA must also test child safety 
seats in side-impact, rear-impact, and rollover crashes in order to 
guarantee that children are properly protected.
The Need for Built-In Restraints
    Properly installed child restraints can reduce the chance of a 
fatality in a vehicle crash by 71 percent for infants and by 54 percent 
for children 1-4 years old. \16\ A recent NHTSA study that evaluated 
the effectiveness of a new standardized installation method, however, 
found that many parents still improperly install child restraints in 
vehicles. \17\ Child car seats are the only consumer product mandated 
by law that requires a 32-hour training course to learn how to install 
correctly.
    In 2002, a new safety technology known as LATCH (Lower Anchors and 
Tethers for Children) became mandatory in new vehicles. NHTSA mandated 
these new child restraint attachment standards in order to end 
confusion about installation methods and to help parents safely install 
restraints for their children. In December 2006, however, NHTSA 
released a final report on the study it conducted to evaluate the LATCH 
system. The results show that the system is so confusing that many 
parents and caregivers are not properly using the system, and the need 
for education about the system is great. \18\
    To NHTSA's credit, the agency has acknowledged that there is a 
widespread problem with poor child restraint installation, and it has 
promised to work to eliminate this confusion so that all children can 
be properly restrained in vehicles. \19\ Working to educate people 
about proper installation methods, however, does not go far enough to 
address the many installation difficulties and confusion surrounding 
child restraint systems. Only with built-in child restraint systems can 
parents avoid the problem of mis-installation.
    Built-in child restraint systems, also known as integrated child 
restraints, when combined with 5-point harness systems are the most 
effective way to safely restrain children in motor vehicles. Currently, 
integrated child restraints can accommodate children other than infants 
over the age of one. Their mandatory installation in all new vehicles 
would eliminate widespread restraint mis-installation problems for 
forward-facing seats, ensuring that children over the age of one are 
properly restrained in motor vehicle crashes.
    Furthermore, integrated child restraints would ensure easy 
notification if a safety defect is discovered. Currently, child seat 
purchasers must register themselves for notice in case of a recall, in 
contrast to the automatic registration that takes place when a vehicle 
is purchased. Built-in restraints eliminate the need for self-
registration, which can reduce parents' likelihood of receiving timely 
recall notification.
    Finally, integrated restraints would instantly make it possible 
that child safety seats could be included in all the safety standards 
for which the vehicle is tested.
The Need for Consumer Information
    In the absence of any requirement for integrated child restraints, 
NHTSA should at a minimum provide consumers more information about the 
child restraints on the market. The New Car Assessment Program (NCAP), 
which NHTSA launched under my watch in 1978, provides consumers 
information about vehicle performance under conditions which are more 
stringent than those used for safety standards. NCAP has been quite 
successful in creating market incentives for manufacturers to improve 
safety. Additionally, NCAP's most important success has been in 
educating consumers about the safety of available vehicles, empowering 
consumers to make educated choices about the vehicles they choose to 
purchase for themselves and their families.
    Despite NCAP's importance to consumers and the program's success at 
motivating manufacturers to strive for higher safety ratings, NHTSA has 
failed to include child restraint systems in its NCAP testing. The only 
evaluation rating NHTSA conducts on child restraint systems for 
consumers is an ease-of-use rating. Although important for consumers, 
the ease-of-use rating should not be NHTSA's top rating priority for 
child restraints when the safety of these restraint systems is left 
unevaluated. NHTSA's failure to test child restraints through the NCAP 
program leaves parents and caregivers at a great loss and children at 
great risk. Parents and caregivers are denied information necessary to 
make safe and educated decisions about the restraint systems they 
choose, and a valuable opportunity is squandered to encourage 
manufacturers to build safer restraint systems. (Of course, with built-
in child restraints, the child systems would be tested every time the 
vehicle itself is put through its paces.) NHTSA should inform consumers 
about child restraint performance in frontal, side, rear, and rollover 
crashes.
    Europe and Japan administer programs similar to NCAP in order to 
inform consumers about the safety of available vehicles. \20\ In both 
of these programs, child restraints are tested, and consumers are 
provided with a safety rating system that informs them of the different 
products' safety performance levels. \21\ In Europe, child restraints 
are tested and rated in both frontal and side-impact crashes, and in 
Japan child restraints are tested and rated in frontal-impact tests. 
\22\ Although it would be ideal for these programs to test and rate 
child restraint performances in a greater variety of crash scenarios, 
these programs are still admirably providing people with an important 
and necessary service. If Europe and Japan can provide their citizens 
with this valuable safety information, the United States can do so as 
well.
3. Power Windows and Strangulation
    Child safety is not a static issue: as motor vehicle technology 
develops and evolves, potential safety hazards themselves evolve. Power 
windows are a case in point: as this technology has added convenience, 
it has also added risk. Power windows pose a serious threat to children 
who, time and again, are killed or injured when they are trapped in a 
power window as it rises.
    Congress moved forward to force NHTSA to address one factor of this 
risk. In the Safe, Accountable, Flexible and Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU), Congress required all 
power window switches in motor vehicles to have safer pull-up designs 
rather than the dangerous rocker or toggle switch designs. The risk 
from rocker and toggle switches was that children would unintentionally 
engage the window by pushing on the switch and then kill or injure 
themselves from the rising window.
    These new switches, however, will not completely eliminate the risk 
of a child being injured or killed by a power window. Even with safer 
designs for window switches, children are still at risk if someone 
begins to close a power window without realizing that the child's head 
or other body part is in the way of the rising window. A child has been 
killed by a power window every month for the last 3 months: one in 
Canada this month, one in New Mexico last month, and one in Detroit in 
December. The Detroit incident is particularly noteworthy because the 
vehicle involved was a Pontiac Vibe, which has the safer power window 
switches. (In fact, protecting children from being trapped in power 
windows could also protect adults in some cases--such as, for example, 
the Illinois paramedic who was injured when his arm was trapped in the 
window of a vehicle attempting to drive around an ambulance.) \23\
    One solution to prevent these tragic injuries and deaths is to 
require automatic reversal technology in power windows when the window 
meets an obstruction. Automatic reversal technology would ensure that 
power windows would reverse direction whenever they detect a trapped 
object. This simple, lifesaving technology is already widely available 
throughout Europe, and it is even included as a feature in many of the 
same vehicle models that do not include this feature in the United 
States.
    Currently pending in the Senate and the House of Representatives, 
the Cameron Gulbransen Kids and Cars Safety Act of 2007 would address 
this need with a requirement for a performance standard that could be 
met by auto-reverse technologies.
4. Brake-Transmission Shift Interlock
    Another danger children face in motor vehicles is the risk of 
shifting a parked vehicle into gear and causing it to roll away and 
crash. Since 1998, over 100 children have died in vehicle roll-away 
incidents, though this statistic is likely an undercount. \24\
    A proven way to prevent roll-away incidents is with Brake-
Transmission Shift Interlock (BTSI), a basic safety feature for 
automatic transmission vehicles that requires the brake pedal to be 
depressed before the driver can shift out of park. Since most children 
cannot reach the brake pedal, BTSI prevents them from putting the 
vehicle into gear, thus preventing the vehicle from rolling and 
crashing. NHTSA has recommended since 1980 that manufacturers include 
BTSI in all vehicles, yet to date only about 80 percent of new vehicles 
include this necessary safety feature. \25\ Additionally, many of the 
vehicles that do include BTSI do not include BTSI versions that work in 
all ignition key positions.
    Since the 1980s, auto manufacturers have opposed mandatory BTSI 
standards and have attempted to avoid them by proffering voluntary 
standards. Voluntary standards rarely work and are often just a 
tactical delay employed by manufacturers to avoid regulations. 
Automakers' repeated failure to include BTSI in all vehicles is another 
example that voluntary standards are unreliable, subject to 
manufacturer caprice, set without a public process, and not subject to 
compliance requirements.
    The Cameron Gulbransen Kids and Cars Safety Act of 2007 would 
require that BTSI be included in the vehicle safety standards for all 
light vehicles and in all ignition key positions.
B. Protecting Children Outside the Vehicle
    Children also face serious vehicle-related hazards outside the 
vehicle. We are familiar, of course, with back-over deaths, which occur 
when a parent is backing out a driveway and cannot see a child who has 
appeared in the path of the car. Children are also, like all of us, 
exposed to potential danger as pedestrians. Further action is needed to 
protect children from these risks.
1. Improving the Driver's Ability To See Children in the Path of the 
        Vehicle
    Drivers must be able to view the environment in which they are 
operating their vehicles. It is a simple premise, one that takes on a 
tragic dimension when children are hurt or killed simply because the 
driver could not see them.
    Among the dangers vehicles pose to child pedestrians are back-over 
incidents. Backovers occur when a motor vehicle backs up and hits or 
rolls over a child. These terrible tragedies occur because drivers 
can't see the children behind their vehicles. Many light trucks and 
SUVs have blind zones behind the vehicles that can be startlingly 
large: in fact, the latest Consumers Union analysis shows that the 
worst offender is the 2006 Jeep Commander Limited, which has a blind 
zone of 44 feet for a driver who is 5 feet 8 inches tall, or 69 feet 
for a driver 5 feet one inch tall. \26\ Dozens of children could fit in 
such a large blind zone and be hidden from the driver's view.
    Because of NHTSA's historical failure to assess these risks, we 
have relied on other sources to reveal the magnitude of the problem. 
KIDS AND CARS has found evidence pointing to 100 children killed in 
back-overs each year, and the Centers for Disease Control and 
Prevention report 7,500 children treated in hospital emergency rooms 
between 2001 and 2003 for back-overs. \27\ NHTSA has subsequently 
confirmed the gravity of this risk in a November 2006 report (which was 
mandated by SAFETEA-LU) on technology designed to prevent back-over 
incidents from occurring. NHTSA concluded that, every year, thousands 
of children are injured and at least 183 people die in back-overs. The 
study also found that camera-based detection systems were much more 
effective than sensor-based systems at helping drivers detect child 
pedestrians behind their vehicles. \28\
    Children are also at risk precisely where everyone assumes they 
must be most visible: in front of vehicles. Especially with the rise in 
popularity of large SUVs, drivers cannot see the area immediately in 
front of them, which puts small children in intersections and driveways 
at increased risk.
    Children are like the canary in the coal mine, their heightened 
risk alerting us to a problem that affects all of us: the need for 
standards to secure drivers' ability to see the environment in which 
vehicles are operated. When I was the administrator of NHTSA, I 
supervised the completion of a decade-long effort to develop a 
conspicuity standard. I issued this standard in 1980, but it was 
revoked before it could take effect. NHTSA has not relaunched the 
rulemaking in the 20 years since.
    The Cameron Gulbransen Kids and Cars Safety Act of 2007 would 
require a performance standard for rearward visibility to help end the 
tragedy of back-overs. In addition to a rearward visibility standard, 
however, Congress should require NHTSA to issue a general conspicuity 
standard. Clearly, the importance of driver visibility has been 
recognized for sometime, and the issuance of a new standard is long 
overdue.
2. Improving Protection for Child Pedestrians
    In 2005, 339 child pedestrians were killed, and an estimated 16,000 
child pedestrians were injured. \29\ In addition to visibility 
standards, NHTSA also needs to address the design of motor vehicles, 
which through proper engineering can minimize the injuries inflicted on 
pedestrians hit by a moving motor vehicle.
    In Japan and Europe, motor vehicles are routinely tested and rated 
for their performance in crashes with pedestrians. Vehicles receive 
stars based on their ability to inflict the least amount of possible 
injury on a pedestrian. These ratings, which are a part of Europe and 
Japan's New Car Assessment Programs (NCAP), help to encourage auto 
manufacturers to invest in design and technology innovations for 
pedestrian safety. Additionally, the European Union has also issued a 
pedestrian safety directive, in which European, Japanese, and Korean 
(but not, notably, U.S.) auto manufacturers have agreed to voluntarily 
improve pedestrian protections in their vehicles.
    Although a voluntary agreement is inadequate to address the 
importance of pedestrian safety (and European safety groups, 
accordingly, are advocating mandatory pedestrian safety standards), the 
European Union is still taking greater steps to address the importance 
of pedestrian safety than the United States. Pedestrian protection is 
not rocket science: numerous technologies already exist which auto 
manufacturers could incorporate into new vehicles, such as sensor 
systems that detect pedestrians and automatically reduce vehicle speeds 
and vehicle hoods that give way, thereby reducing impact forces, when 
they collide with pedestrians. I challenge Congress to follow the lead 
of the rest of the world by taking a far more aggressive stand against 
the dangers vehicles pose to pedestrians. Congress should instruct 
NHTSA to issue safety standards to protect all pedestrians, including 
children.
C. Protecting Children on School Buses
    We have NHTSA safety standards to thank for the nationwide 
implementation of safety features that school buses have enjoyed for so 
long it is difficult to remember a time without them. Among the 
important safety features are the stop sign arm that extends out when 
the bus is loading or unloading children and improvements to fuel 
tanks. The statistics bear out these benefits: according to NHTSA, 
between the years of 1990 to 2000, an estimated 26,000 school buses 
crashed each year, with only 10 children dying and 9,500 children being 
injured each year. \30\
    The leading safety feature on school buses for several decades has 
been compartmentalization: the design of the seats as compartments that 
contain children in a crash. Historically, compartmentalization has 
served as an effective safety measure in frontal school bus crashes; 
however, in other crash modes, children have been left unprotected and 
unrestrained. For compartmentalization, seats are positioned close 
together so that in frontal crashes children impact into deformable 
seatbacks that absorb the impact force. In other crash modes, such as 
side-impacts and rollovers, compartmentalization is ineffective and 
children can be thrown around the bus and hit their heads on unpadded 
structures. In crashes of this nature, specially designed restraints 
can be effectively used to protect children, but no Federal standard 
exists to require restraints in school buses.
    Currently, states have been left to themselves to develop laws for 
school buses, with no guidance from the Federal Government. The only 
Federal standards regulating school bus crashworthiness require 
occupant protection only in frontal crashes, and even for frontal 
crashes the standards do not require dynamic testing with child 
dummies.
    In the absence of Federal guidance, the states are embarking upon 
their own policy plans, with the result that we are on the brink of 
seeing a confusing mish-mash of different laws in all of the states, 
rather than one uniform law that provides comprehensive safety for all 
child passengers. At this point there are five states with school bus 
seat belt laws, including Florida, where most safety advocates fear 
that the law will cause more harm than good. Restraints cannot simply 
be retrofitted into existing bus designs.
    State policymakers have requested guidance from NHTSA on developing 
these laws, but NHTSA has declined to offer any assistance, claiming 
that 3 years (minimum) of research and development are necessary before 
any recommendations can be made. The Federal Government's failure to 
address this issue is unacceptable.
    The only way to ensure that children are safe in school buses is to 
pass comprehensive Federal standards that will protect children in all 
crash modes and require appropriately designed restraint systems in all 
school buses. With states left to themselves to develop these 
regulations on a state by state basis, the country will be left with an 
inconsistent hodgepodge of school bus restraint systems, which would 
hinder and confuse school bus safety developments.
III. Congress Must Improve NHTSA's Capacity To Protect Children
    I want to conclude by reiterating the very important role NHTSA has 
played and should be playing in improving safety for children, and for 
us all, in and around motor vehicles. I have advocated for motor 
vehicle safety improvements for 40 years, from the very birth of NHTSA 
to today. We cannot ever forget how far we have come from the time that 
people were routinely impaled by steering columns and air bags were an 
achievable but nonetheless neglected safety technology. After 40 years 
of being caught in a tug of war between industry interests and its 
statutory mission, NHTSA still has much to do to protect the public, 
especially children. Unfortunately, this important agency has been 
pulled away from its mission and stuck in a morass of analyses, 
reviews, and indifference for far too long.
    If Congress expects that this hearing, or the Cameron Gulbransen 
Kids and Cars Safety Act of 2007, will result in a renewed dedication 
to child safety, then it will have to take additional steps to improve 
NHTSA's capacity to meet these compelling needs. Throughout my 
testimony, I have already identified many specific steps that are 
needed to address particular issues for children. What I want to 
address now is the bigger picture: what Congress can do to ensure that 
any of the specific remedies discussed so far will actually result in 
improved protections for children.
    Most important, of course, is that NHTSA needs funds for testing 
and analysis of child dummies and the development of performance tests 
for needed safety standards. Moreover, as we have found repeatedly over 
the years, NHTSA also needs specific mandates and clear deadlines in 
order to make issuance of new or improved standards a real priority. I 
would like to conclude by discussing a factor that Congress will need 
to address but which often goes unmentioned: the need to shield the 
agency from the political interventions of the Office of Information 
and Regulatory Affairs (OIRA) in the White House Office of Management 
and Budget.
    Although Congress delegates authority to act directly to the 
Department of Transportation, which acts through NHTSA to meets its 
safety obligations, the White House has for over 20 years asserted the 
right to interfere with that delegation and impose its political 
priorities in the rulemaking process. Through Exec. Order No. 12,866, 
the successor to Exec. Order No. 12,291, the White House arrogates to 
itself the power to weaken or eliminate proposed motor vehicle safety 
standards, power it executes by requiring the agency to submit its 
draft regulations to OIRA.
    OIRA has long stood in the way of improved motor vehicle safety. 
For example, OIRA ordered NHTSA to weaken its proposed rule for tire 
pressure monitoring systems--the telltales that alert drivers whenever 
their tires are dangerously underinflated. Although Congress required 
NHTSA to mandate a TPMS that alerts drivers whenever a tire is under-
inflated, OIRA intervened to force the agency to produce a weak rule 
that would fail to alert drivers whenever all four tires were 
underinflated or if two tires diagonal from each other were under-
inflated. OIRA's interference has resulted in unnecessary harm to the 
Nation's motoring public and litigation that is still being waged to 
force the agency to do what Congress told it to do.
    I fear that, even if the Cameron Gulbransen Kids and Cars Safety 
Act of 2007 were passed, and even if Congress were to require NHTSA to 
address the other issues I have identified, children will still be in 
unnecessary danger because of the political machinations of OIRA. The 
White House signaled its hostility to any further improvements in 
safety standards by nominating Susan Dudley, an anti-regulatory 
extremist from the industry-funded Mercatus Center, to head OIRA. 
Dudley has been no friend to motor vehicle safety; in fact, she opposed 
advanced air bag standards, based incredibly on the argument that if 
consumers truly valued air bag protections they would have already 
compelled recalcitrant auto makers to install them. \31\ Dudley's 
history of regulatory comments and other public pronouncements has led 
me and others in the public interest community to conclude that she 
would, as OIRA administrator, demand the impossible of agencies, 
standing in their way until they prove a case for regulating that 
Dudley will ensure cannot be proven.
    Although the Senate wisely declined to allow Dudley's nomination to 
leave committee in the 109th Congress, the White House decided to 
renominate her in the 110th--and to put her in office through the 
backdoor, while her nomination is officially pending, as an appointed 
``senior advisor.'' The Bush Administration then moved to give her even 
more power by releasing, on January 18, Exec. Order No. 13,422 and the 
Final Bulletin on Good Guidance Practices. These proclamations, 
combined, give OIRA the power to review not just regulations but also 
``guidance,'' an amorphous category of agency information that 
apparently includes any ``pronouncement about the conditions under 
which [an agency] believes a particular substance or product is 
unsafe.'' \32\ The new order and bulletin give Dudley a powerful new ax 
she can use to chop this Congress off at the knees. \33\ Whatever this 
Congress decides to do for the important issues of the day--global 
warming, fuel economy, and, yes, child safety--Dudley will be able to 
undo.
Conclusion
    Members of the Subcommittee, I thank you for this opportunity today 
to testify on these critical needs of children for improved motor 
vehicle safety. I am eager to address your questions.
ENDNOTES
    \1\ National Highway and Traffic Safety Administration, 2005 
Traffic Safety Facts: Children available at http://www-
nrd.nhtsa.dot.gov/pdf/nrd-30/NCSA/TSF2005/2005TSF/810_623/810623.htm.
    \2\ Id.
    \3\ Id.
    \4\ See KIDS AND CARS, National Data Base of Non-Traffic Incidents, 
available at http://www.kidsandcars.org/ .
    \5\ Public Citizen's comments on the latest rulemaking to keep the 
data secret outline the legislative, rulemaking, and litigation history 
of this disastrous plan. See http://www.citizen.org/documents/
EarlyWarningCBIComments.pdf.
    \6\ Consider other deficiencies regarding back seats: we lack 
reminder telltales alerting drivers when backseat passengers are 
unbelted, and we have no reminder systems to alert parents that a child 
has been left in the backseat of a parked vehicle, where the child 
could overheat and die.
    \7\ Meanwhile, although it is beyond the scope of child safety 
issues, it is also worth noting that the 2004 proposal came out before 
Congress required, in 2005's SAFETEA-LU, that NHTSA upgrade the side-
impact standard for occupants in all seating positions. The proposed 
rule clearly does not meet that test.
    \8\ Children's Hospital of Philadelphia, Researchers Release New 
Findings on Protecting Children in Side Impact Crashes, Press Release, 
Sept. 13, 2005.
    \9\ From 1993 to 1998, 31.8 percent of children who died in motor 
vehicle crashes died in rollovers. See F.P. Rivera, P. Cummings & C. 
Mock, Injuries and Death to Children in Rollover Motor Vehicle Crashes 
in the United States, 9 Injury Prevention 76 (2003).
    \10\ Internal GM documents obtained by CBS News reveal that General 
Motors (GM) knew of the dangers of weak seats in 1966. See CBS, 
``Collapsing Car Seats,'' Nov. 19, 2002. Also, in a recent court case, 
a former Chrysler manager responsible for minivan safety issues 
testified that his investigation team determined that Chrysler seat 
backs needed to be redesigned. Chrysler, however, did not redesign the 
seats and disbanded the investigation team. Experts at the trial also 
testified that minivan seats collapsed in nearly every rear-impact 
crash test that Chrysler conducted. In the case, the jury ultimately 
awarded $105.5 million to the parents of an infant who died when the 
seat back collapsed and a family friend was thrown backward into the 
child. See R. Robin McDonald, $105 Mil. Verdict Returned Over Minivan 
Seats, the legal intelligencer, Dec. 2, 2004.
    \11\ NHTSA has long acknowledged the need to improve Federal 
seating system requirements. Over 30 years ago, NHTSA proposed a 
rulemaking that would address seating system safety and consolidate 
FMVSS No. 202 ``head restraints'' and No. 207 ``seating systems.'' Most 
recently, in a 2000 Notice of Proposed Rulemaking (NPRM), NHTSA stated 
that in crash tests the agency conducted ``the values of head and neck 
injury criteria . . . were much higher than acceptable thresholds. 
Direct contact of the head of the dummy with the interior of the 
vehicle compartment, which occurred when the front seat rotated 
backward excessively due to the high impact, contributed to these high 
values.'' 65 Fed. Reg. 67,702. Additionally, fuel integrity crash tests 
revealed significant seat back failures that caused the front seat 
occupants to become projectiles into the rear seat. However, to this 
day, the agency has not updated Federal safety standards to adequately 
protect occupants from seat back failure.
    \12\ NHTSA spokesman Rae Tyson stated that ``the seatback 
rulemaking was terminated for the simple reason that we believe it may 
be wiser to approach the seat as part of an integrated unit rather than 
treat it as a separate part.'' Jeff Plungis, $106 Million Judgment 
Against Chrysler and New Safety Studies Intensify the Debate Over 
Federal Standards, detroit news, Dec. 19. 2004. This is what NHTSA 
proposed to do in 1974. It appears that the agency has dragged its feet 
hardly an inch in three decades.
    \13\ See Children's Hospital of Philadelphia, supra note 8.
    \14\ See Rivera et al., supra note 9.
    \15\ For more information about children in this vulnerable 
category, see Public Citizen, The Forgotten Child: The Failure of Motor 
Vehicle Manufacturers to Protect 4- to 8-Year-Olds in Crashes (April 
2002).
    \16\ National Highway and Traffic Safety Administration, 2005 
Traffic Safety Facts: Children available at <http://www-
nrd.nhtsa.dot.gov/pdf/nrd-30/NCSA/TSF2005/2005TSF/810_623/810623.htm>.
    \17\ Lawrence E. Decina, Kathy H. Lococo, and Charlene T. Doyle, 
Child Restraint Use Survey: LATCH Use and Misuse, National Highway 
Traffic Safety Administration, December 2006.
    \18\ National Highway Traffic Safety Administration, LATCH Child 
Safety Seat System Confusing Says NHTSA Study, News Release, December 
12, 2006.
    \19\ Nation's Top Highway Safety Official Calls on Manufacturers, 
Retailers and Consumer Groups to Make Child Safety Seats Easier to 
Install, NHSTA news release.
    \20\ Vehicle Safety Opportunities Exist to Enhance NHTSA's New Car 
Assessment Program, Government Accountability Office, April 2005.
    \21\ Japan NCAP: http://www.nasva.go.jp/mamoru/english/2006/child/
howto.html; European NCAP: http://www.euroncap.com/content/
safety_ratings/ratings.php?id1=6.
    \22\ Id.
    \23\ See EMS Network, Woman Assaults Paramedic With Car--Illinois, 
Dec. 5, 2006, available at <http://www.emsnetwork.org/artman/publish/
article_24279.shtml>.
    \24\ Automakers Agree to Add Break-to-Shift Interlocks The Safety 
Record September/October 2006, Volume 3 issue 5.
    \25\ Id.
    \26\ See Attachment 1.
    \27\ See id.
    \28\ NHTSA's report is not, despite this positive conclusion, the 
last word on back-over issues. See Attachment 3 for safety groups' 
response to NHTSA's inexplicable conclusions that back-over avoidance 
technologies, such as cameras, are somehow other than cost-effective.
    \29\ NHTSA Traffic Safety Fact Sheet 2005 Child Safety.
    \30\ School Bus Restraint Study National Highway Traffic Safety 
Administration, 2000 PowerPoint presentation.
    \31\ See Public Citizen & OMB Watch, The Cost Is Too High: How 
Susan Dudley Threatens Public Protections (Sept. 2006), available at 
<http://www.citizen.org/documents/dudleyreport.pdf>.
    \32\ OMB, Final Bulletin on Good Guidance Practices, available at 
<http://www.whitehouse.gov/omb/memoranda/fy2007/m07-07.pdf>, at 10.
    \33\ More information is included in Attachment 2.
          Attachment 1--Consumers Union Release on Blind Zones
Consumer Reports Releases New Vehicle Blind Zone Data, Listing 2006 
        Jeep Commander Limited as Worst Overall

        CR cautions: the area behind your vehicle can be a danger zone 
        for youngsters.

    YONKERS, NY--Consumer Reports' latest examination of vehicle blind 
zones--the area behind a car or truck that's hidden from the driver's 
view--shows that the 2006 Jeep Commander Limited ranks as the worst 
vehicle overall.
    Consumer Reports measured the blind zone behind the Commander at 44 
feet for a driver who is five feet, eight inches tall and a stunning 69 
feet for a shorter driver (five feet, one inch tall) with all three 
rows of seats raised. The Commander's blind zone is considerably larger 
than that for other mid-sized and large sport-utility vehicles (SUVs).
    Until now, the vehicle with the worst blind zone in Consumer 
Reports' tests was the 2002 Chevrolet Avalanche 1500, a pickup truck, 
which had a blind zone of 29 feet for a five-foot, eight-inch driver 
and 51 feet for a five-foot, one-inch driver. But the redesigned, 2007 
Chevrolet Avalanche LT has no blind zone when equipped with the 
optional rearview camera. Without the camera, the vehicle had a 31-foot 
blind zone for a five-foot, eight-inch driver and 50 feet for a short 
driver. The Commander also offers an optional rearview camera, which 
CR's test vehicle lacked. This camera can significantly reduce or 
eliminate the blind zone.
    To help consumers understand how large some blind zones are, 
Consumer Reports has been measuring the blind zones on vehicles that it 
tests and rates since 2003. CR's database now covers about 200 vehicles 
from model years 2002 through 2007. To measure the blind zones, a 28-
inch traffic cone was positioned behind the vehicle at the point where 
the driver could just see the top. This cone simulates the height of a 
small child.
    ``Consumer Reports findings illustrate that the danger of vehicle 
blind zones correlates with the use of large SUVs, minivans and pickups 
trucks as common family vehicles. Consumers must be cognizant of this 
danger--and the value of rearview cameras--when going out to purchase a 
new vehicle,'' said Don Mays, Senior Director for Product Safety and 
Consumer Science at Consumer Reports.
    KIDS AND CARS, the safety group, estimates that more than 100 
children were killed by vehicles whose drivers simply could not see 
them in the blind zone behind the vehicle. According to the Centers for 
Disease Control and Prevention in Atlanta, nearly 7,500 children were 
treated in United States emergency rooms between 2001 and 2003 for 
back-over injuries. Many of these incidents could have been prevented 
if drivers had a way to see or detect what is behind them while backing 
up. Every vehicle has blind zones. Side and rearview mirrors are 
insufficient to combat them. Consumer Reports tests show that, in 
general, the longer and higher the vehicle, the bigger the blind zone 
is likely to be.
    There are no Federal Government requirements for back-up warning 
sensors or rearview cameras on any passenger vehicle sold in the United 
States.
    ``Unfortunately, the few vehicles that now come with this 
technology are higher-end models, and most devices are available as an 
extra-cost option--often requiring the purchase of other equipment like 
an expensive navigation system,'' said Sally Greenberg, Senior Product 
Safety Counsel for Consumers Union in Washington, D.C. ``We believe 
that back-up technologies, such as rearview cameras are essential, and 
should be a requirement by Federal law. Their cost is small compared to 
the cost of a child's life. And once this technology becomes standard 
equipment in vehicles, systems will become more economical for 
manufacturers to produce.''
    ``Without these devices, parents and families will continue to 
suffer the terrible tragedy of accidentally backing over a child,'' 
Greenberg said. ``That is why it is critical that Congress pass the 
Cameron Gulbransen Kids and Cars Safety Act of 2005--to require a 
rearward visibility standard that will provide drivers with a means of 
detecting a child behind the vehicle.''
    Consumers who wish to improve the safety of their current vehicle 
can add an aftermarket rearview camera. Consumer Reports tests have 
shown that most work well. Such cameras typically cost several hundred 
dollars and are best installed by a professional.
    To learn more about the vehicle blind zones, and see measurements 
for models tested by Consumer Reports, visit www.ConsumerReports.org.
    Consumer Reports is one of the most trusted sources for information 
and advice on consumer products and services. It conducts the most 
comprehensive auto-test program of any U.S. publication or website; the 
magazine's auto experts have decades of experience in driving, testing, 
and reporting on cars. To subscribe to Consumer Reports, call 1-800-
234-1645. Information and articles from the magazine can be accessed 
online at www.ConsumerReports.org.

          Consumer Reports Tested Best & Worst Rear Blind Zones
------------------------------------------------------------------------
                 Driver
 Vehicle Class   Height         Best                Worst        Average
------------------------------------------------------------------------
Small Sedans       5 8"  2006 Subaru         2003 Suzuki Aerio        12
                          Impreza 2.5i (6)    GS (23)
                   5 1"  2006 Subaru         2003 Suzuki Aerio        24
                          Impreza 2.5i (11)   GS (49)
------------------------------------------------------------------------
Mid-sized          5 8"  2006 Hyundai        2005 Cadillac STS        13
 Sedans                   Sonata GLS (9 )     ( 21)
                                             2004 Ford Taurus
                                              SES (21)
                                             2005 Mitsubishi
                                              Galant GTS (21)
                   5 1"  2004 Acura TSX      2006 Mercury Milan       22
                          (12)                (35)
------------------------------------------------------------------------
Large Sedans       5 8"  2003 Lexus LS430    2004 Audi A8L (20)       12
                          (9)
                   5 1"  2003 Lexus LS430    2006 Cadillac DTS        22
                          (16)                (30)
------------------------------------------------------------------------
Wagons &           5 8"  2004 Chevrolet      2005 Chevrolet           10
 Hatchbacks               Aveo LS (5)         Malibu LS Maxx
                                              (17)
                   5 1"  2004 Chevrolet      2005 Chevrolet           16
                          Aveo LS (10)        Malibu LS Maxx
                                              (23)
------------------------------------------------------------------------
Small SUVs--       5 8"  2006 Subaru         2003 Honda Element       13
 Four Door                Forester 2.5X (9)   EX (18)
                                             2006 Toyota RAV4
                                              Base (18)
                   5 1"  2006 Subaru         2003 Honda Element       21
                          Forester 2.5X       EX (35)
                          (12)
------------------------------------------------------------------------
Midsized SUVs      5 8"  2004 Volkswagen     2006 Jeep                18
                          Touareg (11)        Commander Ltd.
                                              (44)
                   5 1"  2005 Nissan         2006 Jeep                29
                          Pathfinder LE       Commander Ltd.
                          (18)                (69)
------------------------------------------------------------------------
Large SUVs         5 8"  2002 Toyota         2004 Dodge Durango       17
                          Sequoia Ltd. (14)   Ltd. (19)
                   5 1"  2004 Dodge Durango  2007 Chevrolet           27
                          Ltd. (24)           Tahoe (38)
                         2004 Nissan Armada
                          LE (24)
------------------------------------------------------------------------
Minivans           5 8"  2005 Dodge Grand    2005 Saturn Relay        15
                          Caravan SXT (12)    FWD (19)
                   5 1"  2004 Ford Freestar  2005 Toyota Sienna       26
                          SEL (16)            XLE (28)
------------------------------------------------------------------------
Pickups            5 8"  2005 Nissan         2004 Ford F-150          23
                          Frontier LE (16)    XLT (34)
                   5 1"  2005 Dodge Dakota   2007 Chevrolet           35
                          SLT (24)            Avalanche (50)
------------------------------------------------------------------------
Coupes             5 8"  2003 Hyundai        2005 Chevrolet           15
                          Tiburon GT (10)     Cobalt SS (23)
                   5 1"  2004 Mazda RX-8     2005 Chevrolet           23
                          (19)                Cobalt SS (32)
                         2006 Honda Civic
                          Si (19)
------------------------------------------------------------------------
In this chart Consumer Reports identifies the length, in feet, of the
  blind zone for each listed vehicle. The distance noted is how far
  behind the vehicle a 28-inch traffic cone had to be before the person,
  sitting in the driver's seat, could see the cone's top by looking
  through the rear window. Distances are provided for vehicles that are
  currently sold with no major changes from the vehicle CR tested. This
  chart does not include tests performed on vehicles using rear view
  camera systems, either standard or optional.

     Attachment 2--Information on New Executive Order and Guidance 
 Bulletin--Latest White House Power Grab Puts Public at Risk--Problems 
  of the Jan. 2007 Executive Order and Bulletin on Guidance (January 
                                 2007)
    The White House released a double whammy attack on the public 
interest on Jan. 18, 2007: (1) a new executive order increasing burdens 
on the regulatory process, and (2) a final bulletin creating new 
burdens on agencies ability to inform the public. Together, this double 
whammy is an enormous challenge to the ability of the Federal 
Government to protect and inform the public.
Market Failure . . . and New Excuses for Failing the Public
    The White House already demanded, under Exec. Order No. 12,866 
(1993), that agencies state the reason for a new regulation in an 
economic impact assessment. The new Bush executive order now changes 
the language, putting the spotlight on ``market failure'' as the chief 
rationale--and adding that the purpose of the justification is ``to 
enable assessment of whether any new regulation is warranted.''

------------------------------------------------------------------------
       Exec. Order No. 12,866                    Revised Text
------------------------------------------------------------------------
Each agency shall identify
                                     Each agency shall identify in

the problem that it intends to       the specific market failure (such
 address (including, where            as externalities, market power,
 applicable, the failures of          lack of information) or other
 private markets or public            specific problem that it intends
 institutions that warrant new        to address (including, where
 agency action)                       applicable, the failures of public
                                      institutions) that warrant new
                                      agency action,

as well as assess the significance   as well as assess the significance
 of that problem.                     of that problem,

                                     to enable assessment of whether any
                                      new regulation is warranted.
------------------------------------------------------------------------

    Market failure is an economics term describing situations in which 
private markets, left to themselves, fail to bring about results that 
the public needs. This order, however, will be enforced by Susan 
Dudley, the radical extremist that the White House is setting up for a 
recess appointment to become the administrator of the Office of 
Information and Regulatory Affairs (OIRA) in the White House Office of 
Management and Budget. Based on an evaluation of Dudley's record in a 
report released last year, Public Citizen has concluded that, in her 
hands, the market failure provision will become a barrier to the 
protections that the public needs.
Deputy Dudleys in Every Agency
    Although Congress delegates power directly to the agencies 
themselves, thereby diffusing authority throughout the Executive Branch 
and preventing any single office from becoming all-powerful, the White 
House has claimed yet more power to control agencies and distort 
regulatory policy with political goals. The new executive order 
commands every agency to designate a Presidential appointee to serve as 
the ``Regulatory Policy Officer.'' Agencies will not be allowed to add 
new regulatory initiatives to their annual plans without the approval 
of the new officer.
Putting Industry Costs Above the Public Interest
    The new order requires agencies to develop annual plans for 
upcoming rulemakings that identify ``the combined aggregate costs and 
benefits of all regulations planned for that calendar year to assist 
with the identification of priorities.'' This new requirement will make 
cost/benefit analysis the central factor in setting priorities for 
needed protections of the public interest. These cost/benefit analyses 
are notoriously biased against regulation, especially long-term goals 
such as preventing global warming or cancers that manifest years after 
exposure to toxic substances.
From Guidance to Darkness
    The executive order and the new bulletin on guidance work together 
to create a new bureaucratic bottleneck that would slow down agencies' 
ability to give the public information it needs.
        Guidance
          agency policy other than a rulemaking which sets forth:

      <bullet> a policy on a statutory issue
      <bullet> a policy on a regulatory issue
      <bullet> a policy on a technical issue
      <bullet> an interpretation of a statutory issue
      <bullet> an interpretation of a regulatory issue

        Significant Guidance
          guidance which:

      <bullet>  leads to an annual effect of $100 million or more or 
        materially and adversely affects the economy

      <bullet> creates inconsistencies with another agency's activities

      <bullet>  materially alters budgetary impact of grants, 
        entitlements, etc.

      <bullet> raises novel legal or policy issues

      <bullet> implicates the President's priorities

    The bulletin requires significant guidance to be approved by a 
senior-level agency official, and the executive order adds another 
layer of review by the White House itself. By requiring White House 
approval of important guidance, the White House will insert its 
political agenda and pro-business bias into every level of agency 
policy, so that our Federal Government will handcuff itself instead of 
the companies that violate the law and put the public in danger.
    The bulletin also requires the agencies to create a webpage listing 
all significant guidance and creating a public challenge process, for 
industry to demand changes to the policy statements, interpretations, 
and so on that it opposes.
So Much for the New Congress
    The upshot of this whole executive order is that the White House is 
already working to undermine not just agencies but also the new 
Congress' ability to protect the public. Whatever gains might come to 
consumers and other public interest sectors in the 110th Congress are 
already vulnerable to being rendered meaningless by the powers the 
White House is giving itself.
Attachment 3--Safety Groups' Response to NHTSA Backover Report--Review 
  and Response of Safety Groups to NHTSA'S Vehicle Backover Avoidance 
 Technology Study, Report to Congress--Agency's Conclusions Contradict 
                              Study Facts
    The National Highway Traffic Safety Administration (NHTSA) Study, 
Vehicle Backover Avoidance Technology Study, Report to Congress (Nov. 
2006), reaches a number of negative conclusions about the state of 
back-over detection technology, even though the Study itself contains 
many positive factual findings--findings that support both the need to 
adopt this technology and the readiness of the technology for use in 
motor vehicles. This review and response evaluates the major 
conclusions reached by NHTSA and shows why those conclusions are not 
backed up by the facts in the Study.
Scope of the Safety Problem

    The Study admits that estimates of almost 200 people killed and 
thousands injured each year in back-over crashes is too low, NHTSA does 
not yet collect data on this issue.

    The Study uses available sources of data to estimate that each year 
at least 183 people are killed and between 6,700 and 7,400 are injured, 
at least 1,000 seriously enough to need hospitalization, in back-over 
crashes. The Study estimate is based on samples taken in a single year 
and on older data (1998) that does not capture the full effect of the 
sales of larger vehicles over the past decade. The Study acknowledges 
that in light of current data limitations the reported deaths and 
injuries are only a rough estimate. Yet, NHTSA dismisses the data 
collected by KIDS AND CARS which has documented news reports of back-
over incidents indicating that the annual death toll of children 
continues to rise.
    Due to limitations of available data on back-over crashes, NHTSA 
asserts that it ``is unable to conclude . . . that there is an 
increasing trend in back-over crashes.'' This does not mean, however, 
that back-over crashes are not on the rise. NHTSA does not have annual 
data on back-over and other non-traffic deaths and injuries, and only 
began to consider how to collect such data in response to a mandate 
from Congress in SAFETEA-LU (2005). The Study admits that ``there are 
no accurate trend data specifically for the non-traffic incidents'' in 
Federal databases, and also acknowledges that ``the extent and nature 
of back-over crashes are difficult to determine because many crashes 
are not reported in currently available crash databases.'' Without 
comparative data, collected over a number of years, no conclusive 
determination can be made about whether there is an increasing trend in 
back-over crashes.

    The Study confirms that young children are at greatest risk. Yet, 
NHTSA has not developed plans to use technology currently available in 
many high-end vehicle makes and models to protect these children.

    The Study confirms the KIDS AND CARS data showing that children 
under 5 years old, especially toddlers up to age 2, are the highest 
risk group. Despite information dating back to 1971 that children are 
at risk in back-over crashes, NHTSA relies on general education 
messages that are not part of an overall strategy to prevent back-over 
crashes. Moreover, NHTSA has not included this issue as part of its 
crash avoidance program or its advanced vehicle safety technology 
(AVST) initiative.

    The Study also confirms that many, if not most, back-over crashes 
involve parents or neighbors, people who are highly motivated to avoid 
injuring their children. Yet, NHTSA mistakenly concludes that 
technology is not currently an appropriate remedy.

    The Study points out that people in their 20s and 30s have a 
greater exposure as drivers in back-over crashes because they are 
parents of young children and are involved in more backing situations 
when young children are present. The Study also cites data from Utah 
indicating that 48 percent of back-over incidents involve a family 
member and another 24 percent involve a neighbor. These drivers can be 
expected to be highly motivated to avoid such incidents, probably have 
greater awareness of nearby children and many may already heed some or 
all of the existing educational messages intended for their benefit. 
Such drivers are also highly motivated to use back-over prevention 
technology properly.
Feasibility of Backover Prevention Technology

    The Study finds existing back-over prevention technology can detect 
children and other objects in the rear blind zone. Yet, as child deaths 
continue to mount NHTSA dithers and concludes much more research is 
needed.

    The Study found that camera systems provide drivers with a clear 
image of most of the rear blind zone behind their vehicle and that 
these systems ``have the potential of providing a good field of view of 
the objects including pedestrians behind the vehicles.'' Also ``[t]he 
rearview camera systems examined had the ability to display pedestrians 
or obstacles behind the vehicle clearly in daylight and indoor lighted 
conditions.'' The Study found these facts even though it reviewed only 
a limited number of so-called ``parking aids'' and did not evaluate 
technology specifically designed for use as a back-over prevention 
system.
    Even though the Study finds that rearview camera systems allow 
drivers to see pedestrians in ``the majority of the rear blind zone 
areas[,]'' NHTSA concludes that more research is necessary because 
current sensor and video/camera systems do not always provide a view of 
obstacles in the entire rear blind zone. However, drivers without any 
back-over avoidance technology have absolutely no warning that 
pedestrians are in the rear blind zone. Backover prevention technology 
would at least provide drivers with an opportunity to avoid backing 
collisions.
    NHTSA is actively engaged in developing and promoting other, 
similar radar- and sensor-based crash avoidance technologies, such as 
advanced cruise control which is already in the market, lane departure 
warning systems which are now being field tested and used in some 
commercial vehicles, as well as intersection collision warning systems. 
Despite this active effort to use the same type of technology to 
provide driver warnings in other crash modes, NHTSA is highly negative 
about the use of back-over prevention systems despite the fact that a 
version of that technology is already standard equipment in many 
vehicle lines and is already being used by drivers for that purpose.
Detection Technology Testing

    The Study finds that existing rear visibility technology provides 
drivers with a view of rear blind zones that prevents back-over crashes 
even when children move into the vehicle path. Yet, NHTSA surprisingly 
concludes that these technologies are not effective.

    The Study cites research to show that some rear object detection 
systems were successful in detecting and preventing impact with rear 
objects most of the time. Sixty five percent of drivers avoided 
unexpected obstacles that appeared suddenly during backing when relying 
on a combination of existing technologies. Another study showed ``Rear 
video cameras [are] effective in 23 percent of rear backing maneuvers 
when [an] ``unexpected'' obstacle is placed 2-3 feet behind the 
vehicle.'' Thus, nearly one-fourth and possibly as many as two-thirds 
of incidents, including those in which a child runs immediately behind 
the vehicle while it is backing, may be prevented by existing back-over 
prevention technology. This would represent a vast safety improvement 
and could save as many as 46 (23 percent) or 123 (65 percent) lives 
annually based on NHTSA's rough estimate of 183 deaths each year (an 
estimate that may understate the problem).
    The Study documents that in 2006 there were already 36 vehicle 
makes and 100 model lines offering some form of back-over ``parking 
aid'' technology as standard equipment. The use and installation of 
such technology is clearly feasible as back-over detection technology. 
Many drivers are already using ``parking aids'' for this purpose. The 
widespread proliferation and use of these systems to improve rearview 
visibility appears to have a high level of driver acceptance. The Study 
cites survey results of drivers who own ``parking aid'' equipped 
vehicles. The majority of drivers found the systems to be helpful in 
parking, at least 85 percent felt the systems are effective or very 
effective in giving warnings, and 80 percent thought that the system 
would lower their risk of being in a backing crash. Overall, it appears 
these drivers know how to properly use the technology.
    The Study also mentions that the effectiveness of back-over 
prevention systems, especially cameras, could be diminished as a result 
of practical problems caused by weather conditions such as snow, rain, 
fog and glare from the sun. However, this is largely a red herring. 
Based on a review of cases in NHTSA's databases the Study finds that 
``[t]he weather did not appear to be a major factor in these back-
overs, as the weather was classified as `normal' in the majority of 
crashes. . . .''
    The Study also combines two research and testing issues. The first 
is whether the technology itself can perform the function required, 
that is, provide the driver with visual notice of obstacles in the rear 
blind zone. Statements in the Study support a conclusion that current 
camera-based or combination video-sensor systems do provide drivers 
with a view of obstacles in the rear blind zone. As the Study admits, 
the existing technology is capable of detecting objects in the blind 
zone behind the vehicle and warning the driver.
    The second issue is whether the technology will be properly used by 
drivers, i.e., the human factors issue common to all technological 
applications. While both issues are related to the overall 
effectiveness of the system, the human factors issue goes beyond the 
evaluation of whether the technology itself can perform the task 
required. Human factors evaluation is highly dependent on the 
complexity of the system, clear user instructions, the amount of time 
permitted to become familiar with the system, and repeated use. In this 
respect, use of a back-over avoidance system is analogous to use of the 
required vehicle rearview mirror system, including the need to properly 
arrange and pay frequent attention to the inside as well as both the 
driver and passenger outside rearview mirrors. The same type of 
attention and appropriate response is required for back-over prevention 
technology.
Rearward Visibility Standard:

    The Study documents the need for a rearview visibility performance 
standard. Yet, NHTSA defers and delays while children are at risk.

    Large rear blind zones exist that threaten everyone--children, 
seniors, the disabled, and all pedestrians--despite a Federal safety 
standard for rearview mirrors, intended to reduce the number of deaths 
and injuries that occur when the driver does not have a clear view to 
the rear of the vehicle. The Study acknowledges that ``[a]lmost all 
vehicles have rear blind zones that could obscure the driver's 
visibility of small children.'' This confirms research conducted by 
Consumers Union showing the size of the average blind zone behind 
different types of vehicles. The Study also documents that current 
back-over technologies are, to varying degrees, effective in providing 
drivers with a view of the rear blind zone. Still, NHTSA presents no 
plans to conduct rulemaking on a rearward visibility performance 
standard to limit the size of the vehicle blind zone and enhance the 
ability of drivers to see behind their vehicle. Furthermore, there is 
no stated timeline for agency action to develop specifications for the 
performance of the technology to prevent back-over crashes and no 
intention to make the specifications mandatory.
Backover Crash Education:

    The Study finds that current back-over awareness and educational 
efforts are not scientifically sound countermeasures that have proven 
effective. NHTSA concludes that such educational efforts have value but 
available technology does not.

    The Study finds that current back-over prevention programs ``have 
been designed based on specific back-over incidents rather than on a 
data-driven, research-based back-over strategy.'' Despite the 
disconnect in logic, NHTSA promotes these types of education and 
awareness efforts even though the agency states that none of the 
programs have an evaluation component to establish their effectiveness 
as a countermeasure. NHTSA concludes that such efforts may make drivers 
sensitive to the problem and provide common sense safety tips. At the 
same time, NHTSA disapproves of requiring the use of available 
technology that has shown positive results in tests and already is in 
wide use, as part of a comprehensive approach to back-over prevention.
    The educational programs reviewed in the Study, as well as in 
NHTSA's ``Safety Tips for Parents'' found on their website in 
Preventing Backovers in America's Driveways, call for checking the area 
around the vehicle before backing the vehicle. The Study, however, 
relies on research testing of rearview back-over prevention technology 
that uses ``surprise'' or ``unexpected'' obstacles that are introduced 
after backing has begun or near the end of a backing maneuver. Merely 
education and awareness programs that rely on checking around the 
vehicle before backing begins cannot address such dynamic situations. 
Backover prevention technology systems that detect people and objects 
in the vehicle blind zone are needed to allow drivers to continuously 
check behind their vehicle during backing.
    The educational messages also caution parents to ``know where your 
children are and have them stay in your full view and well away from 
your vehicle'' and to listen for children who may have dashed behind 
your vehicle suddenly'' while you are backing up (``Safety Tips for 
Parents'').
    First, parents are highly motivated to protect their children and 
may be already aware of these educational safety tips. Second, some of 
these safety tips may actually divert the driver's attention from the 
driving task during backing by constantly trying to keep children in 
full view with conventional mirrors or turning your head. Third, 
reliance on your sense of hearing (auditory cues) to detect children 
who have moved into the vehicle path during backing is not only 
unreliable but can be masked by other interfering sounds. This safety 
tip ignores the fact that children often assume that they can be seen 
and may make no sound to attract attention. Although these safety tips 
may be good advice for drivers with no other means of detecting 
children and objects in the vehicle blind zone when backing, they are 
an inadequate substitute when far more direct and effective detection 
and warning technology systems are available.
    Education and awareness are not an adequate substitute for 
lifesaving technology to prevent back-over deaths and injuries. 
Legislation is necessary to direct NHTSA to advance a comprehensive 
strategy that couples reasonable information with back-over detection 
technology to assist drivers.
Cost-Effectiveness Analysis:

    The Study states that, at present, meaningful estimates of safety 
benefits and cost-effectiveness cannot be calculated. In contradiction 
NHTSA offers up an unsupported conclusion that back-over systems will 
have low effectiveness and do not appear to be particularly cost-
effective.

    The Study clearly asserts that data on which to base accurate 
benefit/cost assessments of back-over detection technology is not 
available. Therefore, no conclusions can be drawn. Nevertheless, the 
Study attempts to analyze the cost-effectiveness of existing ``parking 
aids'' as a surrogate for back-over prevention systems. The analysis, 
however, is based on a series of assumptions that are not supported by 
data or evidence, including assumptions about incremental system cost, 
the cost of system repairs due to damage, crash speed distribution and 
human reaction using the system. No data was collected or presented to 
support any of these assumptions.
    The Study also failed to include any estimate of savings from 
reduced damages and costs avoided as a result of rear-end collisions 
prevented by the ``parking aids.'' The failure to include any such 
savings was based on the unsupported reasoning that ``parking aids only 
mitigate the cost of the smaller number of minor backing crashes which 
tend to have smaller total costs.'' However, no data was collected from 
drivers using ``parking aids'' to determine the accuracy of this 
conclusion.
    Finally, this analysis also assumes that there are no safety 
benefits, that is, potential deaths and injuries that would be 
prevented, because the agency believes that ``parking aids'' are not 
intended to function as back-over prevention systems and, therefore, 
would not provide such benefits. In actuality, reports indicate that 
drivers with ``parking aid'' systems are in fact using the systems for 
back-over prevention purposes as well as to avoid damages from low-
speed backing crashes. Thus, NHTSA uses its analysis of ``parking 
aids'' to eliminate the inclusion of safety benefits and to conclude 
that none of the currently installed rear object detection systems are 
cost-effective.
    As a result, the Study casts a pall over the cost-effectiveness of 
back-over detection systems even though it readily admits that without 
studying a true back-over crash detection technology system 
``meaningful estimates of death and injury benefits and cost 
effectiveness cannot be calculated.''

    Senator Pryor. Thank you.
    David McCurdy?

  STATEMENT OF HON. DAVE McCURDY, PRESIDENT/CEO, ALLIANCE OF 
           AUTOMOBILE MANUFACTURERS; ACCOMPANIED BY 
        ROBERT STRASSBURGER, VICE PRESIDENT, SAFETY AND 
                         HARMONIZATION

    Mr. McCurdy. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Sununu, and other Senators--Senator Carper--thanks for the 
comments, earlier.
    I am President and CEO of the Alliance of Automobile 
Manufacturers. The Alliance represents the BMW group, 
DaimlerChrysler, Ford Motor Company, General Motors, 
Mitsubishi, Porsche, Toyota, and Volkswagen, close to 85 
percent of the manufacturers. Now, I will tell you, unlike some 
of my colleagues here, I've only been in this job 3 weeks. So--
--
    [Laughter.]
    Mr. McCurdy. But I come to--so, this is somewhat of a 
baptism--but I come to the industry from the tech community, 
having been the CEO of the Electronic Industries Alliance and 
then previously served with my colleagues. But I first want to 
commend, actually, the advocates and the parents who are 
pushing this. And we all, I think, have heartfelt sympathy and 
concern, and can't imagine the horrific images and memories 
that they have to deal with on a daily basis. My wife, by the 
way, is a child psychiatrist, and I would tell you, children 
are a top priority for us, as well.
    Mr. Chairman, in your office you have a little plaque that 
says, ``Arkansas comes first.'' Well, Mr. Chairman, for 
automakers, ``Safety comes first.'' And it's seen as a public 
health challenge. Our industry invests more in research and 
development than any other industry, including pharmaceuticals 
and computers. And I encourage the Chairman and the Ranking 
Member, plus staff--and, as a matter of fact, I extended an 
invitation to Representative Campbell this morning, to visit 
one of the test and safety facilities. I did it yesterday, flew 
to Detroit to a 4,000-acre facility with 5,000 employees there 
dedicated to testing and safety. I saw crash tests. They didn't 
set them up for me. They have two a day. There's a regular 
ongoing process. Got to test drive for--to see electronic 
stability control, antilock brake systems. I saw demo on backup 
technology. I looked at this almost--incredible army of test 
dummies that they now have, each of them costing well over 100-
and-some-odd-thousand dollars per piece, saw the deployment of 
side airbags, some of these new technologies. And so, I would 
encourage you to actually visit. We could arrange that.
    Despite some of the common perception and--I think the 
recent record proves that safety developments often happen 
faster through market-based initiatives rather than just 
legislative mandates. Our companies' intense competitiveness 
has already accelerated safety feature introductions to speeds 
faster than would be developed through regulation. And I want 
to point to one thing that Senator Sununu, as an engineer, 
knows: data, data, data. And I think it's really critical. And 
actually, the parts of the bill, the Gulbransen bill, we 
support wholeheartedly, and that is collection of much of this 
information and data, because I don't think you can get enough.
    Recent technologies, like side airbags and stability 
control, have been introduced ahead of Federal legislation or a 
legislative mandate. As I stated, safety is our highest 
priority. Ours is a high-tech industry, using cutting-edge 
safety technology to put people first. In 2005, automakers 
invested $40 billion in research and development, roughly 
$2,400 for every car and light truck sold in the United States 
that year. The challenge is that the development costs may 
total up to a billion dollars for a new product--I'm not 
talking about some of these--but it may take 3 to 5 years to 
bring a product to market. Automakers lead legislative and 
regulatory initiatives with the invention, development, and 
implementation of advanced technologies focused upon safety 
improvements, including dual-stage frontal airbags. History of 
airbags--let me tell you, I saw the introduction, and see the 
difference between a dual-stage; de-powering of airbags, which 
were serious reasons for injuries in the past; side-impact 
airbags; safety-belt pre-tensioners--didn't know exactly what 
that was--saw it in action yesterday in a crash test; load-
limiting retractors; side-curtain airbags; advanced lighting; 
adaptive speed control; lane-departure warnings; brake-assist 
systems; and much more. And those were not--and most of these 
are voluntary, implemented by the manufacturers. These items 
were not mandated. Antilock brakes, stability control, side 
airbags for head and chest protection, side curtains, pre-crash 
occupant positioning, which is a very important thing--pre-
crash occupant positioning, especially with children--lane-
departure warnings, radar use for collision avoidance. 
Seatbelts and restraint systems, by the way, as you see the 
statistics, 43,434 people killed in the United States, 
fatalities in automobiles, a huge portion of those, because the 
occupant was unrestrained, didn't use seatbelts.
    We've supported the 10-year Air Bag and Seatbelt Safety 
Campaign. We've seen progress in the States. We believe there 
should be more. The Alliance is also actively participating in 
blue-ribbon panels, and working in conjunction with NHTSA. The 
LATCH provision that Mr. Medford mentioned, helped standardize 
the way children restraints attach to vehicles, is an important 
step from that. I actually saw demonstrations on that, as a 
matter of fact, yesterday.
    Last summer, alliance members joined others in developing 
and implementing brake-transmission shift interlock systems, in 
response to some of the concerns of this Committee, that work 
in all key positions. There is real progress there, and we will 
continue to make progress.
    In the end, Mr. Chairman, I would just say that market-
driven innovation, combined with comprehensive and current 
data, are necessary to make insightful and sound public-policy 
decisions. And with regard to the bill, the thing, I think, 
that's important--and the Senator mentioned it in his opening 
statement--that they're not trying to prejudge the rulemaking 
by picking the technology. That was a very important statement, 
and one that opens up, I think an, opportunity for 
manufacturers to work with this Committee and the authors of 
this bill to--and NHTSA--to make sure that we achieve an 
objective that I think we share.
    Mr. Chairman, I could go into detail, but, perhaps in 
questions, with regard to S. 1948 that was introduced 
yesterday, I think the Committee would be interested to know 
the manufacturers' position with regard to that bill, and I'll 
be glad to go into it in detail, but my time has run out, so I 
will stop at that point.
    [The prepared statement of Mr. McCurdy follows:]

Prepared Statement of Hon. Dave McCurdy, President/CEO, The Alliance of 
  Automobile Manufacturers; accompanied by Robert Strassburger, Vice 
                  President, Safety and Harmonization
    Thank you Mr. Chairman. My name is Dave McCurdy and I am President 
and CEO of the Alliance of Automobile Manufacturers. Within Alliance 
membership, safety is our highest priority. Ours is a high-tech 
industry that uses cutting-edge safety technology to put people first. 
In fact, automakers invest more in research and development than any 
other industry, including pharmaceuticals and computers, according to 
the National Science Foundation. In 2005 alone, automakers invested $40 
billion, roughly $2,400 for every car and light truck sold in the U.S. 
that year. The Alliance of Automobile Manufacturers (Alliance) is a 
trade association of nine car and light truck manufacturers including 
BMW Group, DaimlerChrysler, Ford Motor Company, General Motors, Mazda, 
Mitsubishi Motors, Porsche, Toyota and Volkswagen.
Industry, Consumers and Motor Vehicle Safety
    Automakers lead legislative and regulatory initiatives with the 
invention, development and implementation of advanced technologies 
focused upon safety improvements. Consider for example the installation 
of: dual stage frontal air bags, side-impact air bags, safety belt 
pretensioners, load limiting retractors, side curtain air bags (for 
side-impact and some with roll over capacity), advanced lighting, 
adaptive speed control, lane departure warnings, brake assist systems, 
adjustable torso belts for small passengers, child security door locks, 
automatic door locks, electronic stability control systems, battery 
isolation in severe collisions, automatic post collision notification 
to emergency responders, engineered structures for car to truck 
collisions and other crash modes. All of these technologies are 
voluntarily installed by manufacturers on their own initiative.
    The automobile industry engineers, manufacturers, and markets the 
most complex consumer product that is offered for sale in the global 
economy. It is a product of great utility, essential to the day-to-day 
flow of people, goods and services in developed and developing 
economies and a key contributor to economic growth. Motor vehicle 
manufacturers' institutional successes are contingent upon the desire 
of individual consumers to purchase the products our manufacturers 
offer for sale. In making their independent purchase decisions, 
consumers balance many considerations, style, color, fuel economy, 
performance, reputation, safety, technology content, interior noise 
levels, accommodation for passengers, cargo, pets and all those things 
we transport frequently or rarely.
    The industry is brutally competitive with little margin for error. 
A new product program may consume as much as $1B in development, take 3 
to 5 years to bring a product to market and in a strong economy, may 
sometimes actually have a chance to earn a positive return on 
investment. Globally and here in the U.S., manufacturing capacity 
significantly exceeds market demand. This condition makes for great 
consumer choice, value and competative/lower product prices. We have 
seen the effects of global and local excess capacity in our market here 
in the U.S. reflected by real lower prices for vehicles that are 
increasing equipped with more performance and technology content. Much 
of that additional performance and technology content is safety 
related. Consumers expect more safety performance and technology 
content and manufacturers respond to those customer needs and demands.
    Before addressing specific performance conditions and technology 
installations, it is important to understand the industry's approach to 
motor vehicle safety. There are several principles to which the 
industry adheres and it's important to explain these precepts.
    First, we consider motor vehicle safety to be a public health 
challenge. Collisions result in a human toll and in direct economic 
loss. This is why we work to improve safety. In every respect, it is in 
the interest of the industry and society to reduce these losses.
    Second, as with any public health challenge, it is essential to 
base policy and improvement initiatives on good scientific 
understandings of the priorities, cause and pathology of specific 
concerns. It is also important to use good science in identifying and 
prioritizing specific opportunities for improvement. To do so, good 
solid data about the human victim and injury morphology, the 
environment in which collision events occur (roadways), and the vehicle 
are necessary. Therefore, we support the collection and analysis of 
collision data and the prioritization of collision problems by measures 
of harm (numbers of fatalities, serious injuries, total economic cost, 
lost days of productivity, etc.). Ideally, with a good understanding of 
collision related injury patterns, problem areas can be identified, 
prioritized and addressed in sequential order to ensure the maximum 
safety return and to facilitate continued improvement.
    Third, there are many public institutions with an interest in 
improving motor vehicle safety; think of this effort as injury control. 
Auto makers have an interest in injury control as do many public 
institutions and classes of individuals: drivers, other roadway users, 
law enforcement agencies, municipal and state governments responsible 
for roadway safety, medical practitioners, first responders, 
legislative bodies, government regulators, and various nongovernmental 
organizations. All of these institutions and groups are partners in 
injury control and our common interests are to improve motor vehicle 
safety.
    Fourth, safety resources should be expended so as to maximize the 
safety return and injury reduction consequent to the expenditures.
Alliance Members Are Aggressively Pursuing Safety Advancements, 
        Collectively and Individually
    Advancing motor vehicle safety remains a significant public health 
challenge--one that automakers are addressing daily, both individually 
and collectively. Alliance members make huge investments in safer 
vehicle design and technology. Most of the new, significant safety 
features currently available on motor vehicles--antilock brakes, 
stability control, side airbags for head and chest protection, side 
curtains, pre-crash occupant positioning, lane departure warnings, 
radar use for collision avoidance--in the U.S. were implemented 
voluntarily by manufacturers, not as a result of any regulatory 
mandate. While the industry is engaged in high-tech research and 
implementation of new safety technologies, it continues to add safety 
features voluntarily, even such mundane features as right-hand side 
mirrors for passenger cars, obstacle detection devices for sliding 
doors and automatic liftgates, automatic lights on with wiper use, etc. 
Those who claim that vehicle safety will not be advanced in the absence 
of regulatory requirements are living in the past and are not paying 
attention to today's marketplace.
    The Alliance also has engaged in collective activities, not only of 
its member companies, but also with other vehicle manufacturers and 
interested safety partners. A number of these initiatives are intended 
to enhance child safety directly or indirectly. However, it is 
important to state here: Auto manufacturers, as well as all other 
safety advocates, implore parents and caregivers to NEVER leave 
children unattended either in or around automobiles and NEVER leave the 
key in the ignition.
Vehicle Safety for Children--Traffic Related
    According to Federal Government statistics, in 2005 there were a 
total of 43,443 traffic fatalities in the United States. The 14 and 
younger age group accounted for 4 percent (1,946) of these traffic 
fatalities. The majority of young children riding in motor vehicles in 
the United States are restrained by some type of child safety seat or 
seat belt, with 98 percent of infants and 89 percent of children ages 1 
to 3 so restrained in 2006. Children between the ages of 4 and 7 are 
also restrained at somewhat lower rates than younger children, with 78 
percent of these children restrained by a safety seat or seat belt in 
2006. Most children now ride in the rear seat of vehicles. In 2006, 93 
percent of infants, 94 percent of children ages 1 to 3, and 91 percent 
of children ages 4 to 7 rode in the rear seat. National fatality data 
show, however, that of the more than 400 tweens--children 8 to 12 years 
old--killed in crashes each year, nearly 50 percent are unrestrained 
and one-third were riding in the front seat. In 2004, a Partners for 
Child Passenger Safety (PCPS) study found that 35 percent of 9 to 12 
year-olds were riding in the front seat, compared to only 7 percent of 
4 to 8 year-olds. Research shows that children are 40 percent more 
likely to be injured in a front seat than if they had been seated in 
back. Finally, child restraint use continues to be lower when the 
driver was unbelted than for belted drivers. National fatality data 
show when adult drivers are not restrained 91 percent of 8 to 15 year-
old fatals are unrestrained. However, when adult drivers are 
restrained, 48 percent of 8 to 15 year-old fatals are restrained.
    Research has shown that lap/shoulder belts, when used, reduce the 
risk of fatal injury to front seat occupants (age 5 and older) of 
passenger cars by 45 percent. For light-truck occupants, safety belts 
reduce the overall risk of fatal injury by 60 percent. But in light 
truck rollover crashes, seat belts reduce the risk of being killed by 
80 percent. Research on the effectiveness of child safety seats has 
found them to reduce fatal injury by 71 percent for infants (less than 
1 year old) and by 54 percent for toddlers (1-4 years old) in passenger 
cars. For infants and toddlers in light trucks, the corresponding 
reductions are 58 percent and 59 percent, respectively.
    Alliance members' support of the Air Bag and Seat Belt Safety 
Campaign conducted over the last decade has worked to get children in 
back seats properly restrained in a restraint appropriate for their age 
and size. Moreover, the Campaign has been very successful in increasing 
seat belt usage--20 percentage points in the last 10 years. Further 
still, the Campaign has been successful in securing the adoption of 
primary enforcement seat belt laws. States with primary enforcement 
laws have average safety belt usage rates approximately 11 percentage 
points higher than states having secondary enforcement laws. NHTSA 
estimates that a single percentage point increase in safety belt use 
nationwide would result in an estimated 280 lives saved per year. In 
1996, 11 states had primary enforcement laws covering 38 percent of the 
population. As of 2006, 25 states and the District of Columbia have 
primary enforcement laws covering 65 percent of the population. When an 
adult restraint is used, it is far more likely that children riding 
with that adult are restrained as well.
    Alliance members were also active participants in two Blue Ribbon 
Panels on child passenger safety. The Automotive Coalition for Traffic 
Safety (ACTS), at the request of the U.S. Department of Transportation, 
served as the facilitator for both Panels. The first endeavor was the 
Blue Ribbon Panel on Child Restraint and Vehicle Compatibility. This 
panel was announced in February 1995 and recommendations were released 
that May. One key recommendation resulted in the new LATCH (Lower 
Anchors and Tethers for CHildren) system created to help standardize 
the way child restraints are attached to vehicles without using a seat 
belt. All child restraints and most new vehicles manufactured on or 
after September 1, 2002 were required by NHTSA to include hardware 
components designed to simplify child seat installation and to reduce 
the incidence of misuse and incorrect installation of child safety 
seats. A study released by NHTSA in December 2006 concluded that LATCH, 
``appear(s) to be helping to reduce insecure installation of child 
safety seats.'' The study further concluded that people who have 
experience with LATCH appear to prefer its use over the conventional 
method using the vehicle seat belt. Finally, the study concluded that 
the primary reason that people do not use LATCH is that they don't know 
about it or because LATCH was not available in some center-rear seats. 
The Alliance has committed to work with NHTSA to resolve these and 
other questions about LATCH.
    The second panel, the Blue Ribbon Panel on Protecting Our Older 
Child Passengers was announced in November 1998. Panel members focused 
recommendations on getting 4 to 16 year-olds into the correct restraint 
systems and seating positions for their age and size.
    Please see http://www.actsinc.org/blueribbon.cfm for more 
information about both of these Panels.
    To address the large number of tweens who are needlessly at risk 
when riding in motor vehicles because they are not always wearing seat 
belts and many sit in front seats, the Alliance turned to ACTS. 
According to research released by ACTS, parents have more influence on 
tween behavior than many people realize. Tweens are well aware of 
safety messages, including the benefits of buckling up and dangers 
associated with sitting in front of a deploying air bag. However, 
safety awareness alone has limited influence on how tweens ride in 
vehicles because other factors may be more important to them. Even 
though tweens are becoming more independent, they still need parental 
guidance to ensure their safety in cars.
    Surveys showed when parents take control, tweens tend to sit in the 
back. Two-thirds of tweens sit in a back seat when parents make the 
decision, compared to only half of tweens who independently decide 
where to sit. When tweens in two pilot sites were asked what might 
encourage them to sit in a back seat, most said being told by a parent 
or the vehicle's driver. This was especially true for those tweens who 
were less likely to buckle up. To reach out to tweens, their parents 
and others who influence their behavior--to increase the number of 
tweens who are properly restrained in back seats--ACTS established a 
new interactive website, http://www.tweensafety.org.
    In 2005, a total of 414, or 21 percent, of the fatalities among 
children age 14 and younger occurred in crashes involving alcohol. 
Another 48 children age 14 and younger who were killed in traffic 
crashes in 2005 were pedestrians or pedalcyclists who were struck by 
drinking drivers (BAC of 0.01 g/dL or higher). The Alliance's support 
of MADD's Campaign to Eliminate Drunk Driving--described below--is 
aimed at ending drunk driving in the United States and the associated 
fatalities and injuries including those involving children.
Vehicle Safety for Children--NonTraffic Related
    Turning to the issues that were before this Committee in the 109th 
Congress as presented in S. 1948, ``The Cameron Gulbransen Kids and 
Cars Safety Act of 2005,'' the Alliance supports the establishment of a 
data collection system for non-traffic, non-crash events involving 
motor vehicles. Good solid data about the human victim, injury 
morphology, the environment in which events occur, and the vehicle are 
a necessary first step to identifying possible interventions that might 
be effective. However, before determining whether action by this 
Committee on this point is needed, please consider that Congress has 
already acted on this issue with the provisions of Sections 2012 and 
10305 of Pub. L. 109-59 (119 Stat. 1539 and 1941 (2005)) that was 
enacted as part of the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU).
    Similarly, the Alliance supports the establishment of a consumer 
information program to provide information about hazards to children in 
non-traffic, non-crash incident situations. However, implementation of 
such a provision(s) could and should be timelier that the 18 months 
proposed in S. 1978. The Alliance believes 90 days following enactment 
may be possible. Such a directive could, for example, complement SAFE 
KIDS Worldwide's ``Spot the Tot'' program designed to prevent injury to 
children in non-crash events. The program is a nationwide expansion of 
the successful program of the same name created by SAFE KIDS Utah. It 
is designed to raise parents' awareness of the risk of vehicle back-
overs in driveways and parking lots by providing a few simple tips for 
adults and kids to make sure the area around the vehicle is safe before 
driving away.
    With regard to the mandated rulemakings on vehicle technology, we 
offer the following.
    The 109th Congress specifically addressed power window switches in 
motor vehicles. Power window safety has been addressed by Congress 
previously. Section 10308 of SAFETEA-LU directed:

        ``The Secretary [of Transportation] shall upgrade Federal Motor 
        Vehicle Safety Standard 118 to require that power windows in 
        motor vehicles not in excess of 10,000 pounds have switches 
        that raise the window only when the switch is pulled up or out. 
        The Secretary shall issue a final rule implementing this 
        section by April 1, 2007.''

    In April 2006, NHTSA implemented the changes to FMVSS No. 118 that 
were required by SAFETEA-LU. See 71 Fed. Reg. 18673, April 12, 2006. 
(``The agency is amending . . . the standard to require that any 
actuation device for closing a power-operated window must operate by 
pulling away from the surface in the vehicle on which the device is 
mounted [i.e., ``pull-to-close'' switches]. This provision implements 
the mandate of section 10308 of SAFETEA-LU.'')
    NHTSA's April 2006 final rule also responded to petitions for 
reconsideration received in response to the agency's September 2004 
power window final rule. Whether the installation of automatic reversal 
systems for power windows and panels should be mandated was evaluated 
by NHTSA in response to separate petitions for rulemaking submitted to 
the agency seeking such a mandate. NHTSA denied these petitions to 
include an automatic reversal requirement under FMVSS No. 118 in part 
because the petitioners did not provid any new data regarding the 
incidence of fatalities and injuries for inadvertent or intentional 
actuation of power window switches. NHTSA concluded that their most 
recent amendments to the standard ``. . . will prevent the types of 
power-window incidents that have been documented.'' The agency further 
rejected some hypothetical scenarios offered by petitioners by stating, 
``. . . there is not any documentation that any such cases have 
actually occurred. Even so, the risk of unintentional switch operation 
. . . is already addressed by the safer switch requirement of the final 
rule . . . we do not believe that the speculative arguments in the 
Advocates, et al., petition about magnitude of risk justify their 
request for the agency to require automatic reversal systems, absent 
data demonstrating a safety problem. It is not feasible to eliminate 
all potentially conceivable risks through regulation.'' (emphasis 
added).
    Regarding rearward visibility, again Congress has addressed the 
issue of back-over incidents by requiring several studies on the 
magnitude of the problem and the potential effectiveness of different 
technologies to address the problem. A report on one such study was 
released by NHTSA in November 2006. That study concluded that back-over 
crashes involving all vehicle types, ``are estimated to cause at least 
183 fatalities annually . . . [and] between 6,700 and 7,419 injuries 
per year . . .'' The report also described the results of tests 
conducted by NHTSA involving several systems currently available as 
original equipment on vehicles and aftermarket products to evaluate 
their performance and potential effectiveness. The report concluded 
that, ``the performance of sensor-based (ultrasonic and radar) parking 
aids in detecting child pedestrians behind the vehicle was typically 
poor, sporadic and limited in range.'' The testing by NHTSA did find 
that camera based systems, ``may have the greatest potential to provide 
drivers with reliable assistance in identifying people in the path of 
the vehicle when backing.'' However, NHTSA cautions, ``readers of this 
report about relying on the results of our testing or other published 
test results to promote such systems as an effective means to address 
the back-over crash risk.'' The agency cited numerous reasons for this 
caution, including the need to better understand the environmental 
factors (e.g., rain, fog, or other inclement weather, or sun glare) 
that limit the effectiveness of cameras and the limits of driver 
performance using such systems. The report observed that: ``Even if 
cameras allow the driver to identify an object in the back of a 
vehicle, the driver must look at the display and have the capability to 
identify an object or person in the path when backing up, and to react 
and brake quickly enough to prevent the incident. The speed being 
traveled, the level of driver attention and reaction time all play 
significant roles in estimating the systems' effectiveness.'' 
Therefore, the Alliance believes that a mandate to require technology 
that may or may not be effective in addressing a problem whose exact 
nature is not objectively known would be premature.
    Finally a mandate to require brake transmission shift interlocks 
(BTSI) to work in all ignition key positions is simply not needed. A 
BTSI requires the operator of the vehicle to be positioned in the 
driver's seat and to depress the service brake pedal in order to shift 
the automatic transmission control out of the ``Park'' position. 
Virtually all automatic transmission-equipped cars and light trucks 
have a BTSI, but not all of them work in all ignition key positions. In 
August 2006, Alliance members, and others, completed development of and 
immediately began implementing an initiative to further reduce the 
incidents of shift selector movement in vehicles equipped with 
automatic transmissions in circumstances where an unsupervised and 
unattended child has gained access to both a vehicle and its ignition 
keys by requiring that the vehicle's service brake be depressed, in all 
key positions, before the transmission can be shifted out of ``Park''. 
Approximately 80 percent of 2006 model year cars and light trucks are 
already equipped with an all-key-position BTSI and all new vehicles 
will have it no later than September 1, 2010. More information about 
this agreement can be found at http://www.nhtsa.dot.gov under 
``Agreement on Brake Transmission Shift Interlock'' or by entering 
docket number ``25669'' in the search box found at http://dms.dot.gov/
search/searchFormSimple.cfm.
    Other Alliance initiatives are providing real-world safety benefits 
to the public, including children. These are described below.
    In December 2003, auto manufacturers committed to a plan developed 
by an international group of safety experts for enhancing the crash 
compatibility of passenger cars and light trucks. The plan established 
new performance criteria for further enhancing occupant protection in 
front and side crashes between cars and light trucks. It also defined 
research programs to investigate future test procedures and performance 
criteria. The Insurance Institute for Highway Safety (IIHS) facilitated 
the development of this plan with the sponsorship of the Alliance.
    By September 2009, 100 percent of each participating manufacturer's 
applicable vehicles will be designed to these criteria. However, 
participating auto manufacturers began implementing the front-to-front 
and front-to-side performance criteria immediately upon industry's 
agreement. Manufacturers' recent progress in implementing this 
commitment is described below.

     Approximate Percentage of Production Designed in Accordance w/
                          Performance Criteria
------------------------------------------------------------------------
                                               Production    Production
                 Crash Mode                     Year 2005     Year 2006
------------------------------------------------------------------------
Front-to-Front Criteria                               62%           75%
Front-to-Side Criteria                                33%           53%
------------------------------------------------------------------------

    The frontal component of the commitment established criteria to 
further reduce the potential for vehicle override and under-ride in 
serious front-to-front crashes between cars and light trucks by 
requiring sufficient overlap between the primary energy-absorbing 
structures (PEAS) of the two vehicle types. This may be achieved by 
``geometric matching'' or alignment of these structures or by providing 
additional structure in light trucks (called secondary energy absorbing 
structures (SEAS)) for this purpose. In November 2005, new test 
procedures were added by safety experts to measure the performance of 
the SEAS. An updated version of the December 2003 compatibility 
commitment, reflecting this change, was submitted to NHTSA on May 10, 
2006.
    In 2006, IIHS completed an analysis of the safety benefits of the 
front-to-front compatibility agreement.
    In front-to-front crashes involving light trucks into passenger 
cars, IIHS found that the passenger car driver was 16 percent less 
likely to be killed if struck by a sport utility vehicle (SUV) with a 
front-end design that met the compatibility performance criteria. 
Similarly, the passenger car driver was 20 percent less likely to be 
killed if struck by a pickup truck with a front-end design that met the 
compatibility performance criteria. The overall reduction in passenger 
car driver deaths in front-to-front crashes involving both SUVs and 
pickup trucks was 19 percent.
    In front-to-side crashes involving light trucks into passenger 
cars, IIHS found that the passenger car driver was 30 percent less 
likely to be killed if struck by a sport utility vehicle (SUV) with a 
front-end design that met the front-to-front compatibility performance 
criteria. The passenger car driver was 10 percent less likely to be 
killed if struck by a pickup truck with a front-end design that met the 
front-to-front compatibility performance criteria. The overall 
reduction in passenger car driver deaths in front-to-side crashes 
involving both SUVs and pickup trucks was 19 percent.
    The front-to-side crash component of the commitment established 
performance criteria that further enhances head protection for people 
riding in passenger vehicles that are struck in the side. Manufacturers 
have voluntarily agreed to engineer their vehicles using two test 
options: (1) the Federal Government's (NHTSA) optional side-into-pole 
test (see FMVSS 201), or (2) the Insurance Institute for Highway Safety 
(IIHS) test for consumer information, using a moving deformable barrier 
with front-end geometry to simulate an SUV or pickup. Use of the NHTSA 
pole test option will sunset in 2009, and all manufacturers will then 
have to use the IIHS test.
    In 2006 the IIHS updated its estimate of the real-world benefits of 
side airbags in reducing struck vehicle driver fatalities. The results 
show that side airbags that protect people's heads are reducing driver 
deaths in cars struck on the driver side by an estimated 37 percent. 
Airbags that protect the chest and abdomen but not the head are 
reducing deaths by 26 percent. The results also show an estimated 52 
percent reduction in fatality rates for drivers of SUVs equipped with 
side airbags with head protection. These real-world findings 
corroborate the good crash test performance of these devices in crashes 
simulating an SUV striking the driver side of a vehicle and suggest 
that the manufacturer's voluntary front-side commitment will lead to 
significant reductions in struck vehicle driver fatality rates.
    To learn more about the Crash Compatibility initiative, please see 
http://www.autoalliance.org/safety/ or visit http://dms.dot.gov/search/
searchFormSimple.cfm and enter docket number ``14623'' in the search 
box.
    Another voluntary initiative led to the establishment of test 
procedures and performance criteria to assure that in the event an 
occupant is out-of-position at the time of deployment of a side air 
bag, the risk of serious injury is limited to 5 percent. In response to 
concerns about potential injury risk to out-of-position (OOP) women and 
children from deploying side airbags, the Alliance, the Association of 
International Automobile Manufacturers (AIAM), the Automotive Occupant 
Restraints Council (AORC), and IIHS used a joint working group to 
develop test procedures with injury criteria and limits to ensure that 
the risk of injury to OOP occupants from deploying side airbags would 
be very limited. The initiative produced recommended procedures for 
evaluating occupant injury risk from deploying side air bags that were 
finalized in August 2000 and updated in September 2003. Currently, 90 
percent of Alliance member company side airbags have been designed in 
accordance with the recommended procedures. More importantly, the field 
performance of side air bags remains positive. For more information, 
please visit http://twg.iihs.org/ or visit http://dms.dot.gov/search/
searchFormSimple.cfm and enter docket number ``5098'' in the search 
box.
    In July 2006, Canada's Minister of Transport, Infrastructure and 
Communities (The Honourable Lawrence Cannon) announced the signing of 
three memoranda of understanding (MOUs) with vehicle manufacturers. 
Each of the agreements will advance the safety by:

  <bullet> updating the side-impact protection requirements to better 
        protect children who sit next to an air bag;

  <bullet> improving compatibility between vehicles of different sizes 
        to reduce the severity of occupant injury in side and frontal 
        collisions; and

  <bullet> promoting the use of new technologies in the design and 
        manufacture of vehicles to ensure optimal seatbelt fit for 
        front seat passengers.

    Each of these MOUs are based on voluntary agreements first 
initiated and developed by the Alliance. In announcing these 
agreements, Transport Canada stated that, ``The department continues to 
modernize its system of regulatory governance by making smarter 
regulations through innovative consultation mechanisms and processes, 
harmonized initiatives and voluntary agreements with the transportation 
industry.''
    These efforts to develop voluntary standards to enhance motor 
vehicle safety, when combined with an industry commitment to design 
vehicles in accordance with them, is a model for responsible industry 
action. These programs are proven to be a very effective way to bring 
significant safety improvements into the fleet faster than has been 
historically possible through regulation. The voluntary standards 
process also has the flexibility to produce rapid modifications should 
the need arise.
    The Alliance has also developed a set of principles to address the 
safety aspects of driver interactions--often called ``driver 
distraction''--with new in-vehicle telematics systems. The Alliance's 
Driver Focus--Telematics Guidelines relate to the design, use, and 
installation of invehicle information and communications systems. The 
Guidelines contain 24 principles to enhance the safety of driver 
interaction with telematics systems. Each principle includes 
verification procedures and performance criteria for the safe operation 
of advanced in-vehicle information and communications systems intended 
for use by the driver while the vehicle is in motion. The Guidelines 
were first issued in draft form in 2002 and continue to be updated as 
research, field data, and technology become available. Alliance members 
are voluntarily using the Guidelines to minimize driver distraction and 
collaborate with NHTSA on efforts to further enhance efficiency using 
in-car systems. Transport Canada is also in negotiations with 
automakers to establish a Memorandum of Understanding (MOU) which would 
set out the general terms and conditions with regard to limiting driver 
distraction from in-vehicle telematics devices pursuant to the Alliance 
Guidelines. Finally, the United Nations Inland Transport Committee has 
accepted these Guidelines and has presented them to its World Forum for 
the Harmonization of Vehicle Regulations (WP.29), the internationally-
recognized governmental body that helps set the future direction of 
global motor vehicle safety activities. For more information, please 
visit http://www.autoalliance.org/safety/.
    Alliance members are also individually pursuing initiatives to 
enhance motor vehicle safety. One such initiative that has received 
widespread support is the installation of vehicle-based technologies to 
encourage safety belt usage. Preliminary research on one system 
deployed in the United States by one Alliance member found a 
statistically significant 5 percentage point increase in safety belt 
use for drivers of vehicles equipped with that system compared with 
drivers of unequipped vehicles. NHTSA estimates that a single 
percentage point increase in safety belt use nationwide would result in 
an estimated 280 lives saved per year. Beginning in model year 2004, 
all members of the Alliance began deploying various vehicle-based 
technologies to increase safety belt use. Eighty-five percent of model 
year 2006 cars and light trucks were equipped with safety belt reminder 
systems.
Significant Progress Has Been Made to Reduce Fatalities and Injuries 
        From Motor Vehicle Crashes, but Challenges Remain
    Over the past 25 years, significant progress has been made in 
reducing the traffic fatality rate. In 1981, the number of fatalities 
per 100 million vehicle miles traveled stood at 3.17. By 2005, this 
rate had been driven down by 54 percent to 1.45 fatalities per 100 
million vehicle miles traveled. The level of competitiveness among 
automakers has helped to accelerate the introduction of safety features 
in the absence of regulation, aiding in the progress made. In fact, all 
of the most recent technologies like side airbags and stability control 
have been introduced ahead of Federal regulation or legislative 
mandate.
    Safety is an area in which manufacturers compete and seek 
competitive advantage. Manufacturers leverage their safety performance 
and equipment in efforts to distinguish their products from 
competitors. Manufacturers continue to make innovative safety features 
available to consumers across their entire product line. For example, 
side airbags with head protection were available on 84 percent of model 
year cars and light trucks. Two-thirds of these air bags were side 
curtains and one-quarter were rollover-activated devices. Another 
example: electronic stability control was available on 63 percent of 
model year 2006 cars and light trucks. These two breakthrough 
technologies, as well as the others mentioned and the growing use of 
electronics and radar to take advantage of the time prior to a crash to 
either eliminate it or reduce its severity through automatic braking, 
demonstrate the commitment of manufacturers to improving safety.
    Despite the progress made, however, data show that 43,443 people 
lost their lives on U.S. highways in 2005 and almost 2.7 million were 
injured. Tragically, 55 percent of vehicle occupants killed in crashes 
were not restrained by safety belts or child safety seats. Alcohol was 
a factor in 39 percent of all fatalities. This is unacceptable. As a 
Nation, we simply must do better.
    As the General Accounting Office reaffirmed, vehicle factors 
contribute less often to crashes and their subsequent injuries than do 
human or roadway environmental factors. \1\ We will never fully realize 
the potential benefits of vehicle safety technologies until all vehicle 
occupants are properly restrained and all impaired drivers are off the 
road.
---------------------------------------------------------------------------
    \1\ ``Highway Safety--Research Continues on a Variety of Factors 
That Contribute to Motor Vehicle Crashes.'' U.S. General Accounting 
Office, GAO-03-436, March 2003.
---------------------------------------------------------------------------
Increased Safety Belt Usage and Preventing Impaired Driving Are Needed 
        Today To Prevent Needless Fatalities and Injuries
    The single most effective way to reduce traffic fatalities and 
serious injuries in the short-term is to increase the proper use of 
safety belts and child safety seats. Alliance members have a long and 
proud record of working to increase safety belt usage. Over the past 
two decades, efforts, nearly totally funded by automakers, have lead to 
a 44 percentage point increase in safety belt usage; from 37 percent in 
1986 to 81 percent in 2006, resulting in an estimated 12,000 additional 
lives saved annually.
    However, we are still working to make that number higher, and with 
good reason. Safety experts say an additional 3,000 lives a year could 
be saved if the safety belt usage rate increased to 92 percent. Belt 
use in 5 states and one jurisdiction (CA, HI, MI, OR, WA, and PR) 
currently exceed 92 percent confirming that high belt usage is 
possible. The proper use of safety belts and child safety seats is the 
single most effective way to reduce traffic fatalities and serious 
injuries.
    The significant increase in belt use over the years is largely due 
to high visibility enforcement mobilizations. Last May, the most 
successful mobilization ever was conducted with more than 10,000 law 
enforcement agencies providing stepped up enforcement and close to $31 
million in state and national paid advertising to augment the 
enforcement effort. Funding for the enforcement ads, both national and 
state, comes from funds earmarked by Congress for this purpose. These 
mobilizations have consistently achieved dramatic increases in safety 
belt use. We believe that it is important for Congress to continue to 
provide funding for these law enforcement mobilizations and the paid 
ads informing the public about them.
    Primary enforcement safety belt use laws are significantly 
correlated with higher safety belt usage levels. States with primary 
enforcement laws have average safety belt usage rates approximately 11 
percentage points higher than states having secondary enforcement laws. 
Currently, only 25 states and the District of Columbia have primary 
safety belt laws. Efforts to enact primary enforcement laws are now 
being enhanced by the Section 406 incentive grants Congress provided in 
SAFETEA-LU for states passing primary enforcement laws or achieving 
high belt use rates. Primary enforcement bills have been introduced in 
at least a dozen states this year and the Alliance is actively working 
to secure their enactment.
    Impaired driving is also a significant highway safety problem. 
While substantial progress in reducing impaired driving has been made 
in the last quarter century, more must be done to prevent these 
needless tragedies. Just one-half of 1 percent of the trips taken 
annually in the United States by personal motor vehicles are made by 
alcohol-impaired drivers. Yet, these trips result in nearly 40 percent 
of all motor vehicle fatalities occurring in the United States each 
year.
    In November 2006, the Alliance joined with the U.S. Department of 
Transportation, the Insurance Institute for Highway Safety (IIHS), the 
Governors Highway Safety Association, The Century Council, the 
Distilled Spirits Council of the United States (DISCUS), and the 
International Association of Chiefs of Police, to support MADD's 
Campaign to Eliminate Drunk Driving. There is no single solution that 
will eliminate drunk driving. Drunk driving remains a behavioral 
challenge, a law enforcement challenge and a challenge requiring 
innovative new approaches, including exploring new technologies. 
Recognizing this, the Campaign has initiated a bold new 4-point plan 
intended to end drunk driving in the United States. The plan is leading 
the Nation toward the goal of eliminating drunk driving through:

        1. Intensive high-visibility law enforcement, including twice-
        yearly crackdowns and frequent enforcement efforts that include 
        sobriety checkpoints and saturation patrols in all 50 states.

        2. Full implementation of current alcohol ignition interlock 
        technologies, including efforts to require alcohol ignition 
        interlock devices for all convicted drunk drivers. A key part 
        of this effort is working with judges, prosecutors and state 
        driver's license officials to stop repeat offenders.

        3. Exploration of advanced vehicle technologies through the 
        establishment of a Blue Ribbon Panel of international safety 
        experts to assess the feasibility of, the potential benefits 
        of, and the public policy challenges associated with a range of 
        advanced technologies that might help prevent drunk driving. 
        These technologies must be moderately priced, absolutely 
        reliable, and unobtrusive to the sober driver. This element of 
        the Campaign is being led by the Alliance.

        4. Mobilization of grassroots support, led by MADD and its 400+ 
        affiliates, to make the elimination of drunk driving a reality. 
        MADD is uniting drunk driving victims, families, community 
        leaders, and policymakers in the fight to eliminate drunk 
        driving.

Comprehensive and Current Data Are Necessary To Make Insightful and 
        Sound Public Policy Decisions
    Sound science provides the foundation on which we build true 
progress. Data collection is critical to assessing a promising idea's 
expected real-world benefits. Our extensive research starts with 
knowledge of human behavior and how people act--and react--in autos.
    The Alliance sponsors a significant amount of safety research that 
is shared with the safety community. The Alliance is sponsoring a 
program to collect-real world crash data on the performance of de-
powered and advanced air bags at three sites around the U.S. (Dade 
County, Florida; Dallas County, Texas; and Chilton, Coosa, St. Clair, 
Talledega, and Shelby Counties in Alabama). This program adds valuable 
information about air bag performance to the extensive crash data 
already being collected by NHTSA through NASS. The Alliance project 
observes all the NASS data collection protocols so that the Alliance 
funded cases can be compared with, and evaluated consistently with, 
other cases in the NASS dataset. For more information, please visit 
http://groups.iihs.org/brp/.
    In December 2006, NHTSA issued a technical report, titled An 
Evaluation of the 1998-1999 Redesign of Frontal Air Bags. The Alliance 
estimates that approximately 25 percent of the crash investigations 
considered as part of this evaluation were cases investigated by the 
Alliance. The report finds that, compared to first-generation air bags, 
redesigned air bags reduced fatalities to infants and children by 83 
percent and to out-of-position drivers by 70 percent in low-to-25 
moderate speed crashes. Yet they entirely preserved the overall life-
saving benefits of first-generation air bags for belted drivers and for 
passengers age 13 and up.
    Consistent with need for more real-world data, some Alliance 
members have voluntarily installed Event Data Recorders (EDRs) that 
provide improved data to assist safety researchers, auto engineers, 
government researchers and trauma doctors in their work. EDRs can 
improve our collective understanding of crash events and lead to 
improvements in vehicle safety systems. Recording certain data elements 
in the moments just prior to and during a crash can contribute to the 
breadth and reliability of the crash data already gathered by state and 
Federal governments and widely used by public and private entities to 
study and improve transportation safety. NHTSA and NTSB have noted the 
important safety benefits of EDRs and NHTSA has recently issued a 
regulation federally mandating performance and disclosure requirements 
for voluntarily installed EDRs. NHTSA's regulation, acknowledging the 
importance of consistent EDR requirements and encouraging the continued 
voluntary installation of EDRs by automakers, preempts conflicting 
state and local requirements and any requirement that would affect EDR 
performance, design, or operation, including ``On/Off Switches''.
    Mandated EDR ``On/Off Switches,'' which were considered and 
dismissed by NHTSA as technically unfeasible, have, nonetheless, been 
proposed in a recent House bill. As certain parties fail to 
acknowledge, the EDR's in today's vehicles are typically integrated 
into the air bag control module. They are not stand-alone devices that 
can be deactivated without disabling the airbag system. Disabling the 
EDR would also be prohibited by Federal law. Federal motor vehicle 
safety standards (FMVSS) No. 208 requires that ``[a]n occupant 
protection system that deploys in the event of a crash shall have a 
monitoring system with a readiness indicator.'' (49 CFR Part 208, 
S4.5.2). These monitoring systems are integrated with EDR functions. 
And, it would also violate Federal law to install a switch that would 
disable the airbag system. \2\
---------------------------------------------------------------------------
    \2\ Section 30122 of Title 49, United States Code, forbids a 
manufacturer, dealer, or motor vehicle repair business from ``making 
inoperative'' anything that is installed in a motor vehicle to comply 
with a Federal motor vehicle safety standard.
---------------------------------------------------------------------------
The Potential Benefits of Vehicle Safety Technologies Can Not Be Fully 
        Realized Until Vehicle Occupants Are Properly Restrained and 
        Impaired Drivers Are Off the Road
    Motor vehicle safety is a shared responsibility among government, 
consumers and vehicle manufacturers. Auto manufacturers are more 
committed than ever to developing advanced safety technologies to 
reduce fatalities and injuries resulting from motor vehicle crashes. 
But as a nation, we will never fully realize the potential benefits of 
vehicle safety technologies until occupants are properly restrained and 
impaired drivers are off the road.

    Senator Pryor. Thank you.
    I want to thank all the panelists for your opening 
statements.
    And I have two very quick motions. First is that all the 
written testimony and exhibits offered by the witnesses be made 
part of the record.
    Is there any objection?
    [No response.]
    Senator Pryor. If not, so ordered.
    Senator Pryor. And, second, that Senator Stevens, from 
Alaska, will be added as an original cosponsor to the Clinton-
Sununu bill that we've been talking about today.
    Is there any objection to that?
    [No response.]
    Senator Pryor. If not, then so ordered.
    We've been joined by Senator Klobuchar, of Minnesota, who, 
by the way, thinks that we're all wimpy here in Washington when 
our kids don't have school when there's 3 inches of snow on the 
ground.
    [Laughter.]
    Senator Klobuchar. That would be correct.
    [Laughter.]
    Senator Pryor. But, Senator, we normally allow Senators to 
make an opening statement of a couple of minutes. If you'd like 
to, feel free.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you, Mr. Chairman. And I'm 
very pleased to be on this subcommittee. My background involves 
work as a prosecutor, and I've dealt with public safety issues 
before, and I wanted to be on this committee for that reason.
    I thank you also for holding this important hearing. I 
know, from my own experience with car safety for kids--my 
daughter is now 11, but I had many difficult situations with 
car seats. I thought I'd have them installed right, and then I 
would turn and she would be halfway over in the car seat. And I 
think it just shows--and I had tried my best and pulled those 
seatbelts as tight as I could, and then trained and done 
everything--that clearly there is more work to be done. I also 
remember going on vacation and trying to get, when she was a 
little older, one of those booster seats from a car rental 
place, and they only had ones for little kids, and we had to go 
to Target and buy one. I have found it to be a confusing area, 
and I think it's something that is ripe for making sure that we 
do everything that we can to protect kids in cars, because I 
appreciated the work that's been done with education efforts 
with seatbelts, Mr. McCurdy, but the issue for these kids is, 
they're just relying on adults to take care of them, and 
manufacturers to take care of them, and they don't have as much 
say in what's happening.
    And I've read the statistics about how a child dies in this 
country almost every other year from a non-traffic accident. 
They're backed over, strangled by--or every other day--they're 
backed over, strangled by a power window, killed when a car is 
accidentally shifted into gear. And the CDC has found that more 
than 9,000 children were treated in a single year in hospital 
emergency rooms for non-traffic-related issues with cars. And, 
most of the time, a parent or other family member is involved, 
and clearly they didn't intend to do this, but we need to put 
every safety measure we have in place, so this doesn't happen.
    Senator Clinton and Senator Sununu's bill calls upon the 
Secretary of Transportation to craft and implement some of 
those tools to create new rules that regulate rearward 
visibility, power-window performance, and shifting from park to 
drive. And I fully support this bill and look forward to asking 
some questions.
    Thank you.
    Senator Pryor. Thank you, Senator.
    Mr. Medford, let me start the questions by asking you one. 
In 2000, under the TREAD Act, Congress directed NHTSA to 
initiate a rulemaking to consider whether to require more 
comprehensive safety tests for child restraints in side-impact 
and rear-impact crashes. But, ultimately, the agency concluded 
that there were too many uncertainties to issue a proposed 
rule. What uncertainties are out there?
    Mr. Medford. Thank you, Senator. The uncertainties that 
were considered at the time that rule was issued in an ANPR, 
advanced notice of proposed rulemaking, in 2002, as the agency 
began to look at it, and got comments from the public, there 
was no performance standard. Remember, child seats are actually 
tested on a simulator or a sled, not in a vehicle, per se. So, 
there are some challenges in developing a test for a sled, 
which generally uses a frontal crash simulation. So, there was 
test method development that hadn't been worked out. Then there 
were no side-impact dummies that could actually measure the 
injuries sustained to children effectively. And then, there was 
a lack of injury criteria for those dummies. So, the agency--it 
was the time before I was there--but the agency withdrew that 
and continued to do research. And just in the past few months 
we've continued to do research, and--as have most other parts 
of the world--looking at an effective standard for side-impact 
for children. And we think we're close, and expect, this year, 
to have a test method and at least one 3-year-old dummy that we 
can use to begin to consider rulemaking in this area. But it 
has been a technical challenge, and that was why it was 
withdrawn at the time.
    Senator Pryor. So, in other words, it sounds like you're in 
the process of coming up with a new test that you feel would 
provide you the data that would be helpful.
    Mr. Medford. Yes, sir. We don't have the final test 
results, and we haven't finished the research, but we will 
finish it this year and make a decision this year.
    Senator Pryor. Great. At this point, I'm going to turn it 
over to my colleague Senator Sununu, because it's his bill that 
we're talking about today. And then we'll turn it over to 
Senator Klobuchar.
    Senator Sununu. Thank you very much.
    Mr. McCurdy, you spoke a little bit, generally, about 
improvements that have been made in safety over the last 10-15 
years, and Ms. Claybrook used the phrase--and I think we 
understood what she meant when she used it--that cars aren't 
designed for kids. In other words, we're adults, we buy the 
cars, we drive the cars, we're concerned about safety, 
generally speaking, but, historically, all the design criteria 
haven't focused on 5-year-olds--or 10-year-olds, for that 
matter. But the LATCH system was mentioned in some of the 
earlier testimonies. That's obviously focused on children. 
Could you expand a little bit on systems that either have been 
implemented, or that you believe the industry is close to 
implementing, that are focused on child safety?
    Mr. McCurdy. Well, thank you, Senator. As we mentioned, the 
BTSI voluntary work that this alliance led and--in conjunction 
on the brake-transmissions interlock, I think is an important 
step. I saw, yesterday, as a matter of fact--and, again, that's 
why I want to encourage you all to take advantage of this--you 
know, side airbags that, when you look at some of the test 
results--and I watched a number--not only the live ones, but 
some previous ones--a lot of the injuries would not have been 
protected--or prevented from existing technologies, because 
young--adults average, you know, the size of--that they 
replicate with dummies, and children often become flying 
objects within vehicles if it's a rollover or something. That's 
why both the head protection airbags development, I think, is 
critical. The LATCH system a children were young, there wasn't 
such thing, but--you know, it may be a little cumbersome, quite 
frankly, and I think they're working to try to find out how to 
make that more usable. But it is a serious restraint.
    We're actually working--and I think the manufacturers are 
coordinating--with the car seat manufacturers, that are 
separate from the auto manufacturers. And I think that's an 
area that probably needs to have some focus to see if there 
are--is some compatibility there, and some standards, and so 
that they can work together to ensure that they are secured 
there.
    The dual-stage airbags and the de-powering of airbags for 
young children, I think, was particularly designed to protect 
them, because we saw, in the first iteration of airbags, that--
such explosive force--that small adults and children were often 
injured severely and fatally because of that. They actually had 
to go back and get some real changes, I believe, so that they 
could go through a process of de-powering. So, again, the 
unintended consequences of a well-intended, you know, 
objective, but we actually had to go back through the 
rulemaking process and change that in order to see that it was 
amended and workable to actually save lives. So, there are a 
number of those kinds of developments. Again, I--this is my 
third week, so I probably don't have the complete compendium, 
but I can--I will gladly find more specifics and provide those 
to you and to the Committee.
    Senator Sununu. Thank you.
    Mr. Medford, you spoke little bit about the testing or 
review of some of the camera systems that are available now on 
many vehicles, some as standards equipment on cars that are 
sold today, some as optional equipment. But as I think you're 
well aware, the legislation doesn't require cameras, it doesn't 
require any specific piece of equipment. It simply calls for 
NHTSA to establish a rulemaking to create a visibility standard 
so that we have good definition of how big a blind spot is, or 
should be, or how much visibility we have on the rear of the 
vehicle.
    Have you tested other systems, devices, or technology for 
improving visibility around a car? What types of approaches 
have you looked at to date?
    Mr. Medford. Yes, Senator, we have tested, and included in 
the report in November, the available technology that we are 
aware of. And, at that time, it was sensor technology, which 
was both ultrasonics and radar-based systems that were often 
included in vehicles today, more-expensive vehicles, for 
parking aids, as you're backing slowly into a parking spot. It 
would--it's really intended by the manufacturers to provide an 
aid for you in backing into those spots. We looked and examined 
those, and, quite frankly, found there are many dead zones, and 
we don't believe they're reliable for this purpose, and 
wouldn't recommend them for protecting children, identifying 
them, because of the blind spots.
    We also looked at a couple of different mirror systems, one 
actually used by Toyota, in the rear pillar portion, which is a 
mirror system that allows you to look from your rearview mirror 
to the pillar mirror, and then, that provides some view of the 
back area, some of the blind spot--and found that the images 
were so distorted that they were not helpful for people. We 
also looked at an after-market mirror that would actually be 
placed on the rear window, and you'd look--you'd actually turn 
your head and look through that, and also found that to be 
distorted.
    And when we looked at the camera systems, we did find these 
are systems with good cameras that basically reveal almost the 
entire area behind the vehicle. And so, they have that 
capability of providing good views behind the vehicle. What we 
did also say in that report, as you probably know, sir, was 
that until we understand how effectively people will actually 
use those systems--because it--an average backing speed is 
about 3 miles an hour, and, as you go in reverse, there's a 
little bit of a delay, and the camera comes on, you look--if 
you look quickly in there, and you recognize there's something 
there, and you detect it, you should stop, and you put on your 
brake, everything works perfectly--when you're backing at 3 
miles an hour, within a little over 2 seconds you've actually 
traveled almost 10 feet. So, these systems are relying 
completely on human behavior, as they currently exist. And 
what--we're not saying, at the moment, that that's not good. 
What we're saying is, we'd like to understand how effective 
human behavior is with the systems that exist. And we're 
studying that this year in our laboratories.
    Senator Sununu. What about the collection of non-traffic 
data? I mean----
    Mr. Medford. Right. We're----
    Senator Sununu.--obviously, to any person who has 
experienced, or knows someone who has experienced one of these 
accidents, I'm sure it comes as a surprise that we haven't 
collected good information on non-traffic injuries or 
fatalities. What are we doing to improve that now? And----
    Mr. Medford. We----
    Senator Sununu.--what should we be doing?
    Mr. Medford. We are aggressively expanding our data 
systems. There was a requirement in SAFETEA-LU that the agency 
develop a surveillance system and publish, every 2 years, data, 
to the Congress and to the public, about non-traffic injuries. 
We have a series of pilot studies going on now to make sure 
that--we're actually trying to identify systems that are going 
to be effective in identifying these non-traffic injuries. 
NHTSA's data systems that were originally put in play really 
were never intended for--to collect data on these systems. The 
census data that we do for fatal crashes--the FARS, Fatal 
Accident Reporting System--has a census of every death that 
occurs in a vehicle. Some of that data actually captures non-
traffic injuries, and we're trying to do all we can to ensure 
that we're capturing those cases. We're also expanding our 
state data systems to include police action reports that 
include non-traffic injuries, which were typically excluded 
from our collection system, to see how valuable they are. We've 
entered into a program with the Consumer Products Safety 
Commission that has an all-trauma data system, which collects 
from--daily--from hospital emergency rooms around the country, 
all incidents that are treated, regardless of whether or not 
they involve vehicles or any other consumer products, to see 
what value they have. We've initiated a special crash 
investigation initiative on back-over crashes, where we do 
detailed investigations to try to understand exactly how the--
what the circumstances are for the back-over crashes, something 
we're very concerned about. So, those are the initiatives. And 
we'll have--be revealing the results of those pilot studies 
this year, as the analysis gets completed.
    Senator Sununu. Thank you. I have one final question, and I 
appreciate Chairman Pryor being very lenient with my time. 
Collection of data, I think, is absolutely essential, and I 
think that's one of several areas where, I think, there's very 
strong consensus on the value of the provisions in this bill. 
One of the things that we require to be collected, and, even 
more importantly, disclosed, are vehicles that do and do not 
have the brake-shift interlock safety feature that we've 
discussed here.
    Representative Campbell, after your son's death, I'm 
curious to know, How were you able to determine whether your 
car had this or, in this case, didn't have this feature? Was 
the information available? And what did you do to finally get 
the answer to your questions?
    Mr. Campbell. The information was not available. And when 
my accident--my tragedy happened, I had no idea that this was 
possible. And, no, the information wasn't available. I then 
contacted NHTSA, honestly, about--almost a year after my son's 
death, because I thought either my car was broken or I was a 
bad parent, because I let my child die. And I realized that 
great parents suffer great tragedies, and that I'm not a bad 
parent, that the only way to prevent these types of accidents 
is to design them out. Because whether it was me or some of the 
unfortunate families that are here today, statistically, if you 
don't design out these very hidden--very hidden safety 
problems, we will not start saving lives.
    I went down to Washington, contacted your office, and your 
staff. I had a great meeting with NHTSA. I remember it really 
well because it was--December 8th was my birthday--and there 
were about 12 people from NHTSA there. And that's when I began 
to understand that this was actually a design feature, that 80 
percent of the cars didn't have it. You know, we talked a 
little bit about the voluntary agreement. I--you know, and the 
data in that says that they'll give me a list of vehicles that 
will have it. We actually didn't get a list of vehicles that 
didn't have it until just recently. And it took writing a 
letter and putting it on the docket to say, ``Hey, we need this 
information.''
    I went so far as to pass a bill in New Hampshire and say, 
``Hey, we need to disclose--the automobile dealers need to tell 
people that BTSI doesn't work in every key position,'' because 
I haven't met a person who hasn't said to me, ``In a million 
years, I never thought that would happen.'' Even the people at 
NHTSA said, I quote, the term ``sweet spot,'' from Keith 
Brewer--I don't know his job there--but he--one of the first 
people I met with at NHTSA--and was surprised that his 2001 
Ford didn't work in every key position. And that's when I 
realized that this is a big, big problem, and a big, big 
tragedy that--look, I'm not mad at the industry, I'm not mad at 
NHTSA. I'm trying to be forgiving and understanding. I wouldn't 
want to tell people, ``Here's some of the dangerous things 
about my product,'' when I'm selling it. But we have an 
obligation, as Congress, as leaders, to say, ``I'm sorry. You 
must tell consumers.'' There was no disclosure in the owner's 
manual, there was no information from dealers.
    When Michael Harrington asked the big three, ``Hey, can I 
have this list?'' they said, ``No.'' That was back in November 
of 2005. When I got a list, it was, ``Yes, we have that in all 
our cars.'' Untrue statement. You have it in four out of five 
key positions. So, when I ask you, ``Does your car have BTSI?'' 
and you say, ``Oh, yes, it does,'' I expect that means it has 
it in every key position, not four out of five. And we were 
left with a situation where it was--and I--this is in my 
written testimony, and I hope you'll read it--but it's 
important to restate it--my children beat me out the door by 
about a minute. My excited little 4-year-old and his younger 
brother, 2 years old, ran out and got in the car, and they were 
able to roll it in a matter of seconds. If they had gotten in 
the other vehicle in my driveway, a 2002 Envoy that had BTSI in 
every key position, which was the normal car that we normally 
use for our family, my son would be alive, because that type of 
accident was impossible in a car that had BTSI in every key 
position. Because they got in my Ford F-350, four-door, that 
accident was designed in to happen on purpose. And I could go 
into what I've discovered and why it happened, but I hope 
that's--all that stuff will come to light when we have this 
process, this process of getting legislation. You will see, 
there is no alternative.
    I appreciate the voluntary agreement, but it wasn't until 
this Committee hearing that we got the follow-up information of 
what happened. I appreciate the industry, and I quote, ``a 
shared responsibility of manufacturers, consumers, and 
government.'' This is a big step. But when we get into all the 
nitty-gritty of that issue, you'll find that it correlates the 
same way of not enough disclosure, not enough people 
understanding what a blind zone is, or people not realizing 
their windows don't go back down. They think that they do. I 
mean, this is a--this is a problem.
    So, I thank this Committee, and I thank everyone who's 
supporting this bill.
    Senator Sununu. Thank you very much.
    Senator Pryor. Senator Klobuchar?
    Senator Klobuchar. Thank you.
    And thank you, Mr. Campbell, for being here, and sharing 
this, and trying to take your grief to help other parents and 
other families.
    I had some questions, for you, Administrator Medford, and 
they relate to the back-over avoidance and the recent NHTSA 
study that found that it wasn't cost-effective. And then you 
said, just now, that the cameras might work, but that we're not 
sure if people would use it practically. Many consumer groups 
have conducted their own studies that have challenged the 
results of that initial NHTSA study, and I just wondered how 
you responded to those challenges.
    Mr. Medford. I just got, this morning, a copy from 
Consumer's Union, one of the responses to their studies so, I 
must apologize, I haven't read the responses. But we don't know 
whether the systems are cost-effective or not. We've not made a 
determination. What we have said is, this is how much they 
cost. We think they provide a very good field of view in back 
of the vehicle. We're positive about that. We just don't know 
how effectively consumers will use them, in terms of doing the 
steps that they must do, in the limited time that they have, at 
the speed for which they back, to actually prevent the tragedy. 
We are very serious and very interested in solving this 
problem. We grieve terribly at the deaths of these children. We 
share that concern.
    Senator Klobuchar. All right, thank you.
    Mr. McCurdy. Senator?
    Senator Klobuchar. Mr. McCurdy?
    Mr. McCurdy. Senator, could I respond? Yes, if--thank you. 
Yesterday, I met with Dr. Green, who has been conducting some 
of these human-factor studies on back-ups with these different 
systems, including video. And I would implore and ask that, 
perhaps in later hearings or independently, we can get a copy 
of some of those tests and actually show you the video of 
individuals who were put in those situations, to test their 
reaction time to obstacles or objects that appeared in the 
back. And I will also tell you, kind of personally and 
anecdotally, I happen to have three different vehicles, I have 
three different types of sensors right now. One is a camera, 
one is a more sophisticated kind of combination of radar, and 
one is the traditional sound-based. None of them work 
perfectly, and each have flaws. My wife told me--she would kick 
me, but, after 35 years, I guess I can get by on this one--she 
has the car that has the camera in the back--or that has the 
rear view--and it was new, and so she started focusing, kind 
of, on that, in the back-up mode, was at the grocery store and 
was pulling back, but was so focused on the camera, forgot to 
look to the right, and another car was coming from an angle--
you know, typically you're supposed to look both directions, 
and--but got so focused on the camera, forgot that, and backed 
into the side of that car. So, there's----
    Senator Klobuchar. But why would they be putting them in 
models, then, though, if they're----
    Mr. McCurdy. No, because----
    Senator Klobuchar.--perceived to be ineffective--I'm just--
--
    Mr. McCurdy. No, they're not--they are effective for 
certain things. They're not effective for every conceivable 
situation. And what--the technology, I think, that NHTSA and 
others are going to have to look at is, there are other blind 
spots, there are other areas, there are 360s. Some of these 
incidents would not have been prevented by having a backup 
camera. And if they're front wheels, you have other kinds of 
potential risks. But, you know, I tell you, from the industry 
standpoint, because--actually, safety sells. If you look at the 
J.D. Power listing, nine of the ten top criteria are safety 
features that people want. I think surround-sound kind of snuck 
in there somewhere, but the rest of them were all safety 
features. But, again, they're not a panacea. That's why we do 
say it's shared responsibility. We accept responsibility. It's 
shared. But you also have to have the educational awareness 
and, again, information, and probably some training. I'm a 
passionate advocate of technology, but, I will tell you 
technology does not solve all problems.
    Senator Klobuchar. You know, and I understand, now, that 
the manufacturers have agreed with--Mr. Campbell's tragedy 
here--that they will agree, voluntarily, to equip all the new 
vehicles with the all-key-position BTSI, which is great. But 
what I'm wondering about is, with this agreement in place, what 
objection would there be to have a mandatory rule?
    Mr. McCurdy. I've already told the Senator that if the goal 
posts are not moved, that we will--I think we have a lot of 
room to work together on this bill. I come as an honest broker. 
I am new to this position. But I would tell you, in the----
    Senator Klobuchar. I'm new to mine, too.
    Mr. McCurdy. Pardon?
    Senator Klobuchar. I'm new to mine, too.
    Mr. McCurdy. Yes. And--but having worked on both sides of 
this daises, or these dais, on Capitol Hill, I would tell you 
that, to the extent that--where there are reasonable and 
actionable items, we're going to work with them, and we think 
there areas that we can continue to support----
    Senator Klobuchar. OK.
    Mr. McCurdy.--and will actively support.
    Senator Klobuchar. Good.
    Mr. McCurdy. It's not a perfect bill, but, again, we will 
work to try to see that this goes through the process.
    Senator Klobuchar. OK. And thank you.
    Administrator Medford, the issue I was raising earlier, in 
my opening comments about the car seats, and you talked about 
the fact that the LATCH system is designed to make it easier to 
properly install seats. But I think something like 40 percent 
of parents are still using seatbelts instead of the LATCH 
system. You've also said before that NHTSA is working with 
vehicle and car seat manufacturers, child-seat installation 
instructors, and consumer advocates to develop a better 
education campaign. I wondered if you've explored the idea of 
an actual built-in child-restraint system or other steps that 
we can take beyond education to make sure that kids are 
properly restrained when riding in cars?
    Mr. Medford. We have. As a part of that February 8th 
meeting that I mentioned in my testimony, Senator, we also are 
looking at changing the LATCH regulation to see if there are 
ways to make it easier and actually changing the ease-of-use 
ratings that we're currently giving to car seat manufacturers. 
We have a system where we actually give star ratings, or 
grades, to car seat manufacturers about how easy it is to 
install their seats. We're going to revise that system this 
year. We think we're giving too high of grades for current 
seats. So, we're taking a number of steps to make it easier.
    I think, in 1995, we had a survey that showed that 89 
percent of the car seats that were installed in cars were 
incorrectly installed. Today, we're--we've reduced that number 
to about 39 percent, but there's still a lot of work to be 
done. Car seats are, by far, the most important piece of safety 
device for children in a vehicle, but it has to be properly 
installed, and they have to be in the right seat. But if those 
two things are done, they provide tremendous safety benefit to 
kids.
    Ms. Claybrook. Can I comment on that?
    Senator Klobuchar. Ms. Claybrook?
    Ms. Claybrook. First of all, integrated seats are those 
that would actually be built into the vehicle, and----
    Senator Klobuchar. You mean, so I wouldn't have to do all 
the----
    Ms. Claybrook. So, you wouldn't have----
    Senator Klobuchar.--seatbelt?
    Ms. Claybrook.--to buy an extra seat, so you wouldn't have 
to worry about which LATCH you had in, or seatbelt you were 
using, so that when the car is tested for adult crash tests, it 
would also be tested--you could put a child dummy in the child 
seat and test it at the same time, so it would reduce the cost 
of testing. If there was a defect recall, you'd have the name 
of the owner of the vehicle, you do not often have the name of 
the owner of the child restraint, because it is sold 
separately. And so, you would have a seat that fits, that's 
tested with that vehicle, and the parents can know and rely on 
that. And there are systems that have been designed that are 
built in, so that when you buy that car, you have it. And if 
you don't have children, but you still carry children because 
you're an aunt or an uncle or a grandparent, you have that 
seat, as well, so you don't have to go buy a separate seat 
yourself. And there have been systems that have been designed 
for 1- to 10-year-olds. And Volvo has done some, Chrysler did 
at some point. So the industry has not really addressed this 
issue--although it's been talking about it since the 1970s--
because it hasn't been required to do so. It's a perfect 
example of how cars are not built for children.
    Senator Klobuchar. One last question before--Mr. McCurdy, 
you want to respond to that?
    Mr. McCurdy. The information I have received on that--we 
actually asked those questions yesterday when we were looking 
at the car seats, and, I will tell you, that LATCH system is 
hard--was not an easy one to hook up. And, again, I think 
that's where we have to work with the car seat manufacturers. 
I'm not trying to dispute Ms. Claybrook's claim, but reports 
that I've actually heard is that parents have not been pleased 
with some of those built-in systems, that they are not as 
convenient and not as uniformly accepted. So, again, consumers 
ultimately make the decision which vehicle, which--and I don't 
think government is in a position to design those features in. 
And I think we need to have the data and work with those 
manufacturers to understand that.
    Senator Klobuchar. OK. I'll be honest. I just can't 
believe, in this day and age that there isn't some easier way 
to design this system. And I don't believe that, you know, 
anyone wants to hurt children. I just think that we need to 
make this more of a priority, because this is, again, based on 
my own experience, and we all bring our own experiences to the 
Senate, but it seemed to me that there must be an easier way to 
make these seats so that they're in the cars, yourself instead 
of having to pull all these belts and trying to do it yourself, 
and then you're not strong enough, and then they fall over on 
the side.
    Thank you.
    Senator Pryor. Thank you.
    Let me follow-up, if I may. Ms. Claybrook, when I asked my 
first question earlier to Mr. Medford about the TREAD Act and 
the comprehensive safety test with child restraints, et cetera, 
you communicated that they were working on something. I'd like 
to hear your comments. I should have asked for your comments, 
as well.
    Ms. Claybrook. I appreciate that, Mr. Chairman.
    First of all, the TREAD Act said, in 2000, that, within 2 
years, they had to issue a child-safety standard that protected 
children in side-impact crashes. And in 2002, before that 
deadline occurred, the agency issued a notice, which said that 
they just couldn't do it. They were going to issue an advance 
notice, and then they were going to work on it. But they never 
really had a all-points call for help on this, they didn't have 
a public hearing on it, they had a notice, but that's it. They 
didn't inform the Committee. And it's now been 7 years since 
that--almost 7 years since that law was passed, and it's just, 
to me, an example of how this issue is not a priority.
    Now, there is a safety standard for side-impact protection 
that Dr. Runge issued in a proposed form in 2004, for adults, 
that because of the way that it's written--at least the 
proposal was written--would require side-head airbags for 
adults. But in that side-impact standard, it doesn't have them 
in the rear seat, which is where we have children, including 
older children, 12-year-old children, for example; and in the 
front seat design for the side-head airbags, it says that 
children under 12 would submarine and could be ejected from the 
vehicle, the way they've got the proposed rule written. So, 
there are two side-impact issues here, and I think that the 
agency definitely ought to put a priority on them. I don't know 
how much money they've spent. I haven't had a chance to analyze 
their budget for this and whether they've put as much money as 
they should have into it.
    But clearly, the integrated seat is really, to me, the 
answer to this issue, because a lot of parents don't realize 
that, in a side-impact crash--it's one of the worst crashes you 
can have for a child, because the child is thrown sideways in a 
side-impact crash. They have very small bones in their 
backbone, and so, they are very often likely to be quadriplegic 
and paraplegic as a result, and, if they're put in seatbelts, 
which some children at those ages are, then they're really in 
deep trouble.
    So, I'm not telling Mr. McCurdy how to design his 
integrated seats. That's the genius of the auto industry. And I 
defer to the genius of the auto industry. But what happens is 
that when you have a standard that is required in performance 
terms, the industry stops lobbying against it, and they start 
settling down and letting the engineers do their work. That's 
the real issue here. And on the voluntary standards, by the 
way, on the brake interlock, I don't understand why it 
shouldn't just be required, because a voluntary standard means 
the public is excluded from any participation in the rulemaking 
process, there's no enforcement, the agency has no 
responsibility to do anything, and the companies can change 
their mind. And they've changed their minds all sorts of times, 
and the whole issue of a voluntary standard is, ``Don't 
regulate--don't require us to do it now. We'll take care of 
it.'' And then, if they don't do it later, well, there's no 
legislation pending at that moment, so nothing happens. And no 
one knows they've stopped complying. I'll submit to the 
Committee a list of when the industry has promised to do 
something voluntarily, which is an avoidance-maneuver device, 
as opposed to a real sincere interest in putting them in.
    [The information referred to follows:]

               Automakers: Safety Just Another ``Option''
The Industry's False Promises to Voluntarily Improve Vehicle 
        Compatibility and Side Impact Safety
Voluntary ``Standards'' Are Not Standards
    Voluntary safety ``standards'' do not work, and the historical path 
of automakers' voluntary efforts is paved with broken promises. In 
fact, Congress rejected them almost three decades ago when it passed 
the National Traffic and Motor Vehicle Safety Act in 1966. As the 
Senate Committee Report stated:

        The promotion of motor vehicle safety through voluntary 
        standards has largely failed. The unconditional imposition of 
        mandatory standards at the earliest practicable date is the 
        only course commensurate with the highway death and injury 
        toll. \1\
---------------------------------------------------------------------------
    \1\ Committee Report on S. 3005, The Traffic Safety Act of 1966, 
June 23, 1966, at 271, 273, 274.

    Not only were the 1966 Congressional legislators right, but 
voluntary ``standards'' violate core principles of democratic 
---------------------------------------------------------------------------
accountability and transparency:

  <bullet> Involve no mechanisms for accountability: If the voluntary 
        proposal proves dangerously deficient, automakers shirk 
        liability because there is no recourse for injured consumers, 
        nor for the government to initiate a defect investigation or 
        compel the industry to perform a recall;

  <bullet> Involve closed, secret processes and meetings: The public, 
        which is at risk, is shut out of the development of the 
        proposal, which instead is designed in secret by industry 
        working groups who are not subject to oversight, compliance 
        with statutory requirements, responsibility for explaining the 
        basis for their decisions, or judicial review of their 
        decisions;

  <bullet> Lack transparency: The public has no means to secure an 
        independent evaluation of the quality of the industry's 
        voluntary tests or standards. The public receives no 
        verification that a particular vehicle actually complies with 
        the industry's voluntary tests, as they do with government 
        standards that are subject to public compliance testing and 
        enforcement, and there is no vehicle sticker at the point-of-
        sale to indicate that a standard is met;

  <bullet> Lack a baseline for safety: High-income purchasers, who can 
        afford safety extras may be protected, but low-income 
        purchasers remain vulnerable to cost-based decisions by 
        manufacturers; and

  <bullet> Produce weak and non-binding results: Proposals are 
        invariably weak because they represent the lowest common 
        denominator among companies looking out for their own costs and 
        product plans, and there is no obligation to install technology 
        in compliance with the group standard, meaning that companies 
        can change their minds at will and decide to withdraw any 
        protection offered by the voluntary ``standard.''

History of Broken Promises
    When it comes to voluntary agreements, automakers have reneged or 
retreated on promises for decades. From General Motors' promises in 
1970 to voluntarily put air bags in all its vehicles by the mid-1970s 
(GM installed just 10,000 in model year 1974 and 1975 vehicles, and 
then discontinued the program), to Ford, DaimlerChrysler and GM's 
recent recanting of their widely publicized 2001 promises to 
voluntarily improve the fuel economy of their light trucks by 25 
percent (withdrawn after the threat of Congressional action on fuel 
economy receded), ``voluntary'' is often just another name for the 
manufacturers' tactical maneuvers and delay.
    The industry's approach to interior vehicle head protection 
illustrates how, for automakers, safety is optional. In 1970s, General 
Motors began to improve head protection in its vehicles with such 
technologies as air gap head protection padding installed in critical 
interior roof areas. However, by the 1980s GM had discontinued 
designing in such protections in most of its vehicles, preferring to 
focus on more marketable performance characteristics, such as 
horsepower and acceleration.
    In 2003, as part of a supposed effort to improve vehicle 
compatibility, automakers announced a voluntary plan to test and 
install side air bags in most new vehicles. The plan, however, does not 
make any specific commitment to redesigning vehicles to improve side-
impact safety. Moreover, there is no requirement that all vehicles 
become compliant with the plan, and no outside body will verify vehicle 
compliance. In fact, even the safety tests developed for the side air 
bags are voluntary and unbinding. The plan--developed in closed, secret 
deliberations--involves no procedural or judicial oversight, provides 
no mechanisms for accountability, and offers no baseline for safety.
    Just the year before, General Motors, in cost-cutting measures, 
made side-air bags--as well as anti-lock breaks--optional equipment in 
a number of models where they had been standard. \2\
---------------------------------------------------------------------------
    \2\ Incantalupo, Tom. ``A Drive For Safer Autos Advocates Press For 
Action As U.S. Weighs Costs, Benefits.'' Newsday Long Island, NY) May 
14, 2003.
---------------------------------------------------------------------------
Industry's Refusal To Improve Safety of ``Cash Cows''
    Why should the industry be trusted on safety when auto 
manufacturers have unblinkly faced the carnage inflicted on other 
motorists from light trucks' high bumpers and menacing front grilles, 
building ever-more heavy and terrible SUVs over time and continuing to 
market them militaristically, such as with ads calling the Lincoln 
Navigator an ``urban assault vehicle.'' In fact, General Motors' new 
Hummer is a direct adaptation of a military vehicle. The chief designer 
of the upcoming 2006 Toyota Tundra brags that his aggressive design 
reflects ``the power of the fist.'' \3\
---------------------------------------------------------------------------
    \3\ Rechtin, Mark. ``Toyota Concept Truck hints at next Tundra.'' 
Automotive News January 4, 2004. <http://
www.autonews.cominews.cms?newsId=7421&bt=fistT1>.
---------------------------------------------------------------------------
    In 1998, the auto industry promised the NHTSA Administrator Dr. 
Ricardo Martinez that it would make modifications to achieve safer 
designs, mainly by adjusting vehicle suspension, but the industry 
refused to provide any details of their plans. Consequently, the 
promise rang hollow as vehicles continued to be designed large and 
aggressive, and the resulting highway carnage continued.
    In December 2003, auto manufacturers announced a voluntary 
initiative to address incompatibility and aggressivity. The plan, which 
would be phased in on most vehicles by September 2009, would phase in 
side air bags and lower bumpers of SUVs or add a barrier to prevent 
them from riding over cars.
    Yet the Alliance makes no specific commitments to redesign vehicles 
to protect consumers, despite the fact that it has known for decades 
that pickup trucks act as battering rams in crashes, and that that the 
height and stiffness of SUVs makes them major killers on the highway. 
Moreover, there is no requirement that all vehicles become compliant 
with the plan, and no outside body will verify vehicle compliance.
    A voluntary ``standards'' program is a particularly inapt solution 
where, as here, thousands of lives are at stake, the manufacturers have 
long been on notice of the serious safety hazards in these vehicles, 
and the externalities of their marketing-driven decisions to produce 
ever-more aggressive and deadly vehicles are imposing needless 
suffering and costs on all of us.

    Ms. Claybrook. I'm not saying, in this case, they're not 
sincerely interested. I'm not saying you haven't done a great 
job, Mr. McCurdy, in designing these systems. I applaud you for 
that. Thank you. But let's just make sure that everyone knows 
that they're in every vehicle. That's all. We just want to make 
sure they're in every vehicle.
    So, I--the other point that I'd--if I could take one or 
more minutes----
    Senator Pryor. Sure.
    Ms. Claybrook.--on the child restraints, which is that the 
NCAP, the New Car Assessment Program, which tests cars at 
approximately 5 miles an hour above the standard, the only NCAP 
program, New Car Assessment Program, for child restraints is 
whether the restraints fit. They don't test it at a higher 
speed than the standard. So, they don't have a front, rear, 
rollover, side, or any kind of vehicle test under the New Car 
Assessment Program. Now, there's a hearing next week at NHTSA 
which--at which this will be raised, but I just wanted the 
Committee to realize that, again and again, the children are 
treated as second-class citizens in both the NHTSA rulemaking 
and in the auto industry decisionmaking.
    Senator Pryor. Thank you.
    Mr. Medford, let me also say, after the hearing, I'll look 
closer at that report that we've been talking about regarding 
the rear-facing cameras. We actually have a vehicle that has 
one, and one of the things I believe you said earlier is, the 
effectiveness at night is in question. I find that to be 
opposite, because when you put the car in reverse, the reverse 
lights, which are white, come up, and they illuminate the back 
side. But, again, I'll look at your findings there. And you 
also mentioned that a lot of this depends on the user, the 
consumer, the person who's driving. And that's exactly right. 
But you could make the same argument about rearview mirrors. If 
they don't use those properly, and if they don't, you know, pay 
close enough attention, there's no point in having a rearview 
mirror. So, I'll look at that, and we'll follow up with that 
separately.
    Dr. Gulbransen----
    Dr. Gulbransen. Yes.
    Senator Pryor.--I'm sorry I butchered your name earlier. I 
really----
    Dr. Gulbransen. No, I----
    Senator Pryor.--did not intend to do that. Let me ask, just 
on a personal note, Was--the tragedy that you faced--was that 
on private property?
    Dr. Gulbransen. Yes, it was. I lived in a townhouse at the 
time, and it was in the driveway.
    Senator Pryor. And do you know if that was reported in----
    Dr. Gulbransen. Well, I filled out a police report, but it 
didn't become a statistic----
    Senator Pryor. It did not.
    Dr. Gulbransen.--from what I was told.
    Senator Pryor. That was my question.
    Dr. Gulbransen. That's what I----
    Senator Pryor. Did not become----
    Dr. Gulbransen.--was told.
    Senator Pryor.--a statistic.
    Dr. Gulbransen. Right.
    Senator Pryor. OK. And so, when we were talking about 
statistics earlier----
    Dr. Gulbransen. Wasn't in there.
    Senator Pryor.--you would agree that we need a better----
    Dr. Gulbransen. Right.
    Senator Pryor.--statistical collection----
    Dr. Gulbransen. In order to make changes, you have to learn 
from information. You've got to collect the information.
    I just wanted to make one comment. I know I'm just a----
    Senator Pryor. Sure.
    Dr. Gulbransen.--study of one, or ``an'' of one, and I'm 
just, you know, sort of a grassroots general pediatrician. And 
I wouldn't want to be in the position of Mr. McCurdy, of going 
back to the automobile industry, or Mr. Medford, who's got to 
design these studies, which are very difficult to design, I can 
imagine. As a pediatrician who reads a lot of research, a lot 
of stuff is very flawed when you're reading it, and I can only 
imagine how difficult this is going to be for him to design the 
stuff. But just sort of like in a grassroots level, having been 
an operator of a vehicle for many years without a camera, and 
then with a camera, I can tell you, it definitely makes a 
difference. It's not going to save everybody, but it's 
definitely going to make a difference. It's remarkable how now 
I don't want to drive a vehicle without a camera, because I use 
it as, you know, an additional device. Yes, you've got to look 
everywhere, plus now the camera. But it's really helpful. I'm 
actually afraid to go in reverse if the car doesn't have a 
camera. And in my practice, I think the patients are afraid to 
tell me they don't have cameras. They park down the block or 
something. But most of them will come in now, and they say, 
``You know, I got a camera. Now I wouldn't go''--the comment is 
always the same, ``I can't drive without one.'' And it's not 
perfect, but certainly it's going to be helpful. I mean, I used 
to be a kindergarten teacher, believe it or not, and there are 
actually--I'd call your--to your attention to this one handout 
here. Sixty-two children behind this one vehicle. It's a well-
known, very popular American-made SUV. And there's actually 
three classrooms worth of children behind that vehicle that 
can't be seen by somebody who's driving in reverse. So, you 
know, that's--it's just scary.
    So, I can only tell you, from someone who actually lived 
through the trauma, drove without a camera, drove with a 
camera, it definitely makes a difference. I can only imagine, 
if I had to, sort of, look forward, that the best technology 
would probably envision--probably involve audio and visual at 
the same time, because some people don't hear as well, some 
people don't--or may not look--they may not look, because 
they're looking somewhere else. So, it's going to have to be a 
combination. But that's only my speculation.
    Senator Pryor. Thank you.
    Mr. McCurdy, let me follow up with a question earlier, and 
that is about the Alliance of Automobile Manufacturers' 
voluntary agreement on the brake-transmission shift interlock. 
That's a voluntary agreement that your companies have entered 
into. Was there anything that prompted that?
    Mr. McCurdy. Well, I--I'll have to ask the staff, because 
it was before my time. It may have been awareness on this 
particular incident. I don't recall. If I could ask Rob?
    Senator Pryor. Sure.
    Mr. McCurdy. He's our----
    Senator Pryor. Yes.
    Mr. McCurdy.--safety expert.
    Mr. Strassburger. Yes, it was Mr. Campbell--Representative 
Campbell, working with Congressman Bass, coming to us, asking 
us to look at the issue and take it on. And we did.
    Senator Pryor. Great. And could you identify yourself, for 
the record, please?
    Mr. Strassburger. Rob Strassburger, with the Alliance of 
Automobile Manufacturers.
    Senator Pryor. Thank you.
    And, Mr. McCurdy, this agreement that you've entered into, 
does it require all of your association's vehicles to have that 
device?
    Mr. McCurdy. All have agreed to participate in that, yes.
    Senator Pryor. Does that mean every single vehicle will 
have it?
    Mr. McCurdy. Yes.
    Senator Pryor. OK. And I've heard some discussion earlier 
about ``in key positions,'' which I'm not 100-percent sure I 
understand. Does that mean----
    Mr. McCurdy. I've spent a lot of time asking that same 
question, Senator, trying to understand the acronym and make 
sure that it's there. And I've been, again, kind of tutored by 
my staff that one of the reasons there appear to be some 
differences in the language is that actually, believe it or 
not, the nature of the keys are changing so dramatically. What 
you and I probably think of as a traditional key, that concept 
is changing, they're moving to start buttons and they're going 
more electronic. So, they wanted to get away from just kind of 
the standard vision of a key, but they are talking about it in 
all positions.
    Senator Pryor. OK, so they're talking about it. It'll work 
all the time, no matter what the key position, or whatever, may 
be?
    Mr. McCurdy. That's my understanding, yes, sir.
    Senator Pryor. And----
    Ms. Claybrook. Mr. Chairman, could I comment on one 
question you asked----
    Senator Pryor. Yes.
    Ms. Claybrook.--very briefly, which is, the auto industry--
--
    Senator Pryor. Microphone, please.
    Ms. Claybrook. Sorry. The auto industry has been sued for 
not having it's break-shift interlock for a number of years. 
This is not something they didn't know about. I would say it 
goes back 15 years. And the foreign industry, in 1995, pretty 
much agreed to put the brake-shift interlock in, and the 
Detroit manufacturers would not. And then, there were 20/20 and 
60 Minutes programs--I can't remember which ones--disclosing 
this. So, there's been a lot of pressure about this issue. It's 
not a brand-new issue. I am deeply grateful that Representative 
Campbell and Congressman Bass pushed the companies to take it 
the next step. But it's not a brand-new issue. I just wanted--
--
    Senator Pryor. Right.
    Ms. Claybrook.--to--for the record.
    Senator Pryor. I understand that, and I think the Committee 
does, as well.
    But here's my last question, Mr. McCurdy. On this issue--
would the manufacturers be opposed to a statutory requirement 
that this be done? And if so, why?
    Mr. McCurdy. Senator--and I indicated this in personal 
conversations with Senator Sununu, that if the Senator believes 
it's essential to memorialize this agreement, then we would be 
supportive of doing so.
    Senator Pryor. OK.
    Mr. McCurdy. Is that clear? I mean, I----
    Senator Pryor. Yes. No, I just didn't know if there was a 
good reason why we shouldn't do that. But, OK, we'll continue 
to work with you on that.
    And the last question I had was on the auto-reverse 
windows. We've talked a little bit about those today. But, as I 
understand it, the technology exists, they've been using these, 
I guess, in Europe. I don't know if they're required in Europe. 
I don't know their exact circumstances. But, as I understand, 
it's $10 to maybe $15, on average, a window, something like 
that. Is this something that your alliance would consider doing 
on a voluntary basis, or, there again, is it something that 
NHTSA thinks should be done by regulation, or should we----
    Mr. McCurdy. Senator, we've worked with NHTSA and--on the 
changing of the nature of the shift on the--and activator--on 
the power windows. Before, it was one that could be 
accidentally suppressed--or depressed, that, therefore, 
continued engagement. And so, the design changes were to make 
those that they were suppressed--or leveled out. And then, last 
year, it was amended again to make sure it had to be a lift-up-
and-out----
    Senator Pryor. Right.
    Mr. McCurdy.--in order to raise the window. And that's 
becoming the standard. That's where auto manufacturers are 
going.
    I actually asked a question, trying to understand, too, on 
the auto-reverse situation--some automakers--first of all, it's 
not required, to the best of my members' recollection, in 
Europe or in Japan, even though it's--I think, Ms. Claybrook's 
correct that in Japan it appears to be more widely used. In 
some vehicles--in the vehicle I was riding in yesterday, in the 
express position, it is an automatic reverse. But in some 
situations, believe it or not, you don't want it having auto-
reverse, because if someone were trying to actually reach into 
your car, and you didn't want them to be reaching into your 
car--criminal act or something--they could actually force the 
window down. So, that's why the lift-up-and-out--so, it's only 
in the express position that it would--that it goes down. On 
others, you actually have it where it would--where you couldn't 
force that down. So, there are some trade-offs there. I'm not 
providing an excuse. I'm just telling you that--just some of 
the technical questions that have been raised. And, again, I 
think we'll--we're willing to work with the Senate and the 
leaders and NHTSA to try and find out what is that best 
approach.
    Senator Pryor. Thank you.
    Mr. McCurdy. And, again, you know--I apologize--this is 
where data really is critical, just really understanding the 
full impact of that. It does sound easy. I don't think it is as 
much a cost issue as it is some other factors. But, again, 
we're open to working with the Senate on this.
    Senator Pryor. Thank you.
    Now, Senator Sununu, do you have any other questions?
    Senator Sununu. Just a follow-up to the question of cost 
that you asked, for Mr. Medford, because I do want to be clear 
about the cost of the--as clear as we can be about the cost of 
the auto-reverse. Ten years ago, I think NHTSA's estimate was 
that it would be $100 a window to implement. I think their 
current estimate, or the 2004 estimate, was $8 to $12.50 a 
window. So, don't you think it's reasonable to assume, not only 
can that cost profile be beaten today, but that if this is 
established as a standard feature, we can expect it to be 
significantly less than that $8 figure?
    Mr. Medford. Certainly, Senator, that--if the volume were 
to increase, the prices are likely to be reduced. I think the--
there are two types of auto-reverse systems. NHTSA actually has 
an optional requirement in its window standard that is more 
severe and stringent than the one that exists in the European 
standard. And so, they think there may be some differences in 
cost, if you had to comply with that one, versus the other one. 
And the figures that you quoted, that were in the 2004 notice, 
or before that more stringent one than currently exists as an 
option in our standard today. And it would be less for the 
Europeans, we think.
    Senator Sununu. Thank you for the clarification.
    Ms. Claybrook?
    Ms. Claybrook. Yes, I just wanted to comment that 80 
percent of all the vehicles in Europe today have the auto-
reverse in every window. So, I just want the record to be clear 
on that.
    And, second, for Mr. McCurdy, if we're going to have data--
we don't collect data as well as we should yet--but in 2004 at 
least eight children were strangled by power windows. And I 
have never heard of a complaint yet, either in Europe, or in 
the United States to the few equipped vehicles that are here, 
where someone said that some criminal tried to get into their 
vehicle and killed them because they had auto-reverse. So, if 
we're going to rely on data, let's rely on data. And I know we 
have that. And I'd love to have, you know, any further answer 
to that, that you might have.
    Mr. McCurdy. Well, I appreciate the gentlelady for the 
clarification. And, again, for--this is my third week, so I----
    Ms. Claybrook. I know it is. And I know----
    Mr. McCurdy.--I've got to----
    Ms. Claybrook. I know it is. I want to come visit you, so 
we can talk some more.
    Mr. McCurdy. Yes. No, I----
    Ms. Claybrook. Right, OK.
    Mr. McCurdy. We've had some previous experience, but it's 
been a number of years. You know, and this is not meant in any 
way--I asked, probably, a naive question yesterday when I was 
in Detroit at this 4,000-acre facility, where 5,000 people are 
doing safety and testing on automobiles, and been there for 
decades, and looking at people who are so committed to the 
purpose of safety. And if you listen to them, there is a real 
commitment. And no one is there trying to design things that 
intentionally cause harm. And I understand that NHTSA--I don't 
know what your budget is on testing, but I know that you do 
some in Ohio, and there's a lot of contract--it's a huge 
amount--as do other auto manufacturers. And my naive question 
was, Where does Public Citizen do their testing? And I got this 
blank look. And the fact of the matter is, you do not have a 
budget for that. And there's literally millions of dollars 
spent on this.
    So, I'm offering, again, an invitation for you all, as 
Members and staff and advocates, to actually come and observe 
and see. And some people will never, you know, be totally 
convinced. Perfect is often the enemy of the good. We want to 
have some good results here. We want to work with you on those. 
And that's the commitment that I give you. And I can't speak 
for everybody. And I appreciate everybody saying, ``Well, thank 
you for this.'' It's not me. It's that--it's been the work of 
these manufacturers and literally hundreds of thousands of 
people that have--making this commitment.
    Ms. Claybrook. You know, Mr. McCurdy raises a point, which 
is, there's no budget in this bill for NHTSA to do this work. 
And there's no authorization amount. And Public Citizen, of 
course, does not have a testing budget. Wish we did. We'd love 
to do that. But we rely on the government. And so, one of the 
things that we do do, Mr. McCurdy--and we'd love to do this 
with you--is, we lobby for more money for NHTSA to do its 
testing work. And I'd love to join hands with you and do this 
together. Thank you.
    Senator Sununu. Well, I appreciate that very much. I'm 
going to conclude my time, there. I know you can be counted on 
to lobby for more money for NHTSA----
    [Laughter.]
    Senator Sununu.--when the authorization period--when we 
come to the authorization period. And when we have those 
discussions here in this Subcommittee and the full Committee, I 
think we need to take into consideration, and we will take into 
consideration, everything that we're asking NHTSA to do, 
whether it's through SAFETEA-LU or TREAD or this legislation 
here.
    I want to thank all of the panelists for taking the time to 
be here. This hearing, I think, was very detailed, was--went 
even a little bit longer than I had expected. But that's a good 
thing, because that means we at least gave everyone a chance to 
weigh in on the things that they think are of greatest concern 
to all of us. And we--I think everyone here on the Committee 
and the staff understand, whether they've been to facilities at 
the auto manufacturers or not, that you've got great people 
working at those companies. They're smart, they're capable. 
They have families, they have kids. And there are probably more 
than a few that have dealt with the kinds of issues and 
problems that we're talking about here. So, I think everyone 
recognizes that, when you're talking about children and 
families, these issues do cut very close to home--through 
family, through friends, through stories that you've heard, and 
as we've heard here today.
    Dr. Gulbransen and Packy Campbell, very grateful for you 
being here, willing to speak on behalf of many, many others, 
some of whom sitting behind you today. No one who hasn't been 
as close to this as you have can really appreciate the 
difficulties and the courage that it takes for you to share 
your family's story. So, we're grateful for that.
    Mr. Medford, we know you've got a challenging job, whatever 
level we authorize for you, and we wish you well in your work.
    And, Ms. Claybrook, thank you for being here today, for 
your advocacy.
    Thank you, Mr. Chairman.
    Senator Pryor. Well, I want to thank Senator Sununu for his 
leadership on this issue. It's very important.
    Thank all the members--all the witnesses on the panel 
today.
    And I also want to say that the record will remain open for 
2 weeks for Senators to offer written questions, and we'll work 
with the staff on getting those responses back.
    But, with that, I want to thank you all very much, and the 
hearing's adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of the Association of International Automobile 
                       Manufacturers, Inc. (AIAM)

    The Association of International Automobile Manufacturers (AIAM) 
appreciates this opportunity to provide its views on vehicle safety for 
children, the subject of a February 28 hearing and of legislation now 
before the Commerce, Science, and Transportation Committee. AIAM is a 
trade association representing 14 international motor vehicle 
manufacturers who account for 40 percent of all passenger cars and 
light trucks sold annually in the United States. AIAM members include 
Aston Martin, Ferrari, Honda, Hyundai, Isuzu, Kia, Maserati, 
Mitsubishi, Nissan, Peugeot, Renault, Subaru, Suzuki and Toyota. AIAM 
also represents original equipment suppliers and other automotive-
related trade associations. For more information, visit our website at 
www.aiam.org.
    The focus of the Subcommittee's February 28 hearing was Senate bill 
S. 694, introduced on February 27 by Senators John Sununu and Hillary 
Clinton. Main elements of the bill are requirements for--

  <bullet> A NHTSA rulemaking to mandate that power windows have an 
        automatic reverse feature.

  <bullet> A NHTSA rulemaking to establish a rearward visibility 
        performance standard.

  <bullet> A NHTSA rulemaking to establish a vehicle roll-away 
        standard. This standard would assure that light vehicles having 
        an automatic transmission may not be shifted out of the 
        ``Park'' position unless the service brake pedal is depressed. 
        This requirement would apply in all ignition key positions in 
        which the transmission can be shifted out of ``Park.''

  <bullet> NHTSA to establish a database of injuries and deaths in non-
        traffic, non-crash events involving passenger motor vehicles.

  <bullet> NHTSA to establish a consumer information program relating 
        to child safety in non-traffic, non-crash incidents.

    AIAM supports the establishment of child safety as a high priority 
for the Subcommittee, and vehicle manufacturers view it as a high 
priority for their own research and product development initiatives. We 
also support NHTSA's efforts to obtain data on non-crash vehicle-
related events. We believe that such data provides the necessary, 
rational starting point and the only appropriate basis for establishing 
program priorities for new safety initiatives to address non-crash 
events. The alternative of relying upon anecdotal information or 
intuitive assessments could well lead to shifting of NHTSA and 
manufacturer resources away from initiatives that have greater life-
saving potential, toward actions with lesser potential benefits. We 
also support, as a necessary corollary to legislative direction for new 
data collection efforts, the provision of adequate budget and staff 
resources for NHTSA to collect and analyze the data. Without such 
resources and staff, the data collection and analysis process could be 
impaired or delayed.
    We also support the establishment of a consumer information program 
of the type included in the bill, to bring market incentives to bear in 
promoting child safety. Reliance on such market-based approaches (based 
upon previously developed and reliable data and analysis) can provide 
safety benefits more quickly than regulatory approaches in many 
instances. Ongoing efforts to educate parents and care-givers as to the 
need to use child restraints and the proper use of those restraints 
have been highly effective. We continue to support efforts to enhance 
the performance of child restraint systems, including efforts to make 
restraints easier to use. Extension of such consumer education programs 
to include non-crash risks is a reasonable step.
    Our specific comments on S. 694 are as follows:
Section 2(a)--Power Window Safety
    Consistent with direction under the 2005 SAFETEA-LU legislation, 
NHTSA completed a rulemaking to modify power window operating switch 
design to require that the switches would operate to close a window 
only if the switch were pulled up. See 71 Fed. Reg. 18673, April 12, 
2006. In responding to petitions for reconsideration of that rule, the 
agency stated that, based on available data, the measures adopted by 
the agency would ``prevent the types of power window incidents that 
have been documented.'' See 71 Fed. Reg. 18679. The agency went on to 
state that risk scenarios presented by safety advocacy organizations 
``lacked any documentation that any such cases have actually 
occurred.'' Id. Without any documented evidence that a safety problem 
beyond that addressed by the 2006 NHTSA rule exists, the redirection of 
agency and manufacturer resources to implement automatic reverse 
features across-the-board cannot be justified. However, as noted above, 
we support the enhancement of NHTSA's data collection capability for 
non-crash incidents, and we would be open to reconsidering our 
opposition to mandating auto-reverse if new data were to show a safety 
need. If Congress deems it necessary to direct further action by NHTSA 
on this matter, we urge that it direct NHTSA to conduct a review of the 
newly acquired non-crash data in 2 years, and pursue further rulemaking 
if justified based upon that review.
Section 2(b)--Rearward Visibility Performance Standard
    If Congress mandates improvements in rearward visibility for light 
vehicles, we support a true performance-based approach. For example, a 
standard could specify an area behind a vehicle that must be visible to 
the driver by some means. In this way, manufacturers may implement the 
most suitable visibility systems, which could involve technology that 
does not yet exist and could well vary among vehicle types. However, we 
have two concerns with the language in S. 694 in this regard. First, 
although the language of the bill on this point is not clear, the 
section 2(f) definition of ``rear blind zone'' could be interpreted to 
prevent manufacturers from relying on mirrors or enhanced rear window 
design to achieve compliance. Section 2(f) appears to require that 
areas beyond those visible through windows and mirrors must be visible, 
even if such areas are not safety critical. (The existing bill language 
could also be interpreted as excluding mirror and window performance 
only in establishing phase-in priorities.) In either case, it is not 
clear why visibility provided by windows and mirrors should 
automatically be excluded from consideration. Second, NHTSA's November 
2006 report on rear visibility technology identifies significant 
shortcomings in existing systems. It would be a mistake to mandate the 
implementation of new technology until there is a reasonable basis to 
conclude that the technology will perform well. Therefore, we urge 
Congress to allow NHTSA to extend the time for completing rulemaking 
and mandating compliance, based on the availability of effectively 
performing rear visibility systems.
Section 2(d)--Preventing Vehicles From Rolling Away
    S. 694 establishes the same ``brake-transmission shift interlock 
(BTSI)'' performance criteria, with the same September 1, 2010, 
effective date as the industry Voluntary Agreement to implement BTSI 
that was submitted to NHTSA on August 7, 2006. The bill would require 
manufacturers to report and NHTSA to publish the identification of 
vehicle models that do not comply with the BTSI criteria; the voluntary 
agreement includes a comparable commitment to publish this information. 
The industry estimated that 80 percent of model year 2006 light 
vehicles complied with BTSI criteria, and 98 percent of model year 2009 
light vehicles are projected to comply.
    All light vehicles produced by AIAM member companies already 
comply. Although we would not oppose a requirement for BTSI, we do not 
see a substantive safety benefit that would result from enactment of 
section 2(d). We note that requiring a NHTSA rulemaking as in section 
2(d) would, to some degree, divert agency resources away from 
activities that would presumably have a greater safety benefit.
Section 2(e)--Database on Injuries and Deaths in Non-Traffic, Non-Crash 
        Events
    The provisions of S. 694 regarding the establishment of a NHTSA 
database of non-crash events are somewhat more detailed than the 
comparable provisions in section 2012 and 10305 of SAFETEA-LU, but we 
doubt that these minor differences would lead to any substantive 
changes in the data system that NHTSA develops. As stated previously, 
we support the development of this database. A more effective step that 
Congress could take, however, would be to include in the bill an 
authorization of appropriations in an amount NHTSA projects to be 
necessary to implement the database, and to support inclusion of the 
necessary funding in the Fiscal Year 2008 budget for the agency.
Section 3--Child Safety Information Program
    We support the child safety information program described in 
section 3. We also support NHTSA's ongoing effort to make the LATCH 
system for child restraints more effective and easy to use, and the 
provision of consumer information to encourage proper use of child 
restraint systems.
                                 ______
                                 
 Prepared Statement of Sally Greenberg, Senior Product Safety Counsel, 
                     Consumers Union of U.S., Inc.

Introduction
    Consumers Union (CU), \1\ nonprofit publisher of Consumer Reports 
(CR), welcomes the opportunity to submit comments to members of the 
Senate Commerce Subcommittee on Consumer Affairs, Insurance, and 
Automotive Safety. CU has been testing cars and reporting our findings 
to readers since the organization's founding in 1936. CU regularly 
testifies before Congress on issues ranging from automotive safety to 
health care to telecommunications and financial privacy.
---------------------------------------------------------------------------
    \1\ Consumer Reports <SUP>'</SUP> is published by Consumers Union, 
an expert, independent nonprofit organization whose mission is to work 
for a fair, just, and safe marketplace for all consumers and to empower 
consumers to protect themselves. To achieve this mission, we test, 
inform, and protect. To maintain our independence and impartiality, 
Consumers Union accepts no outside advertising and no free test 
samples, and has no agenda other than the interests of consumers. 
Consumers Union supports itself through the sale of our information 
products and services, individual contributions, and a few 
noncommercial grants.
---------------------------------------------------------------------------
    The topic for discussion this morning, vehicle safety for children, 
is a top legislative priority for Consumers Union. This Senate Commerce 
Committee has a proud history of enacting legislation that has provided 
critical protections for children and adults riding in passenger 
vehicles. It is not an exaggeration to say that had this Committee not 
acted on seat belts, air bags, child car seats, roof crush, rollover 
and many other auto safety issues, many thousands of people would 
either not be alive today or would have suffered grievous injury.
    This hearing provides us with a welcome opportunity to share with 
Members of this Subcommittee concerns about the unfinished business of 
keeping children safe in and around cars. Our testimony focuses on four 
key areas of interest for us both in terms of our testing and our 
public policy work: blind zones, LATCH car-seat installation system, 
power window switches, and brake-shift interlock.
The Problem of Backing Over Children
    Every year, thousands of children are hurt or die because a driver 
backing up couldn't see them. Consumers Union has studied the problem 
and has found that all vehicles today have blind zones that prevent 
drivers from being able to see what is behind them. We also learned 
that some vehicles have far larger blind zones than others.
    Several years ago, Consumer Reports began measuring blind zones for 
every car and truck we test at our Auto Test Division in Connecticut. 
(see CR's Best and Worst Blind zone chart in the Appendix) We put a 28" 
cone behind the vehicle that approximates the size of a 1-2 year-old 
child and asked a 5,8" male driver and a 5,1" female driver to use 
their rear view and side mirrors to attempt to see what is behind them 
as they back up. The results of our testing have been startling. While 
all vehicles have blind zones that are dangerous, some vehicles have 
blind areas as large as 69 feet, a sure recipe for disaster if a child 
is in back of that car or truck. Back-overs are not ``freak'' 
accidents--they happen all too often and most important, are completely 
preventable.
    Currently, there are three sources of data on backing-over 
incidents that provide insights into the dimensions of this problem: 
\2\
---------------------------------------------------------------------------
    \2\ With the enactment of SAFETEA in 2005, NHTSA is now required to 
collect these data. Section 255 of that law directs the National 
Highway Traffic Safety Administration (NHTSA) to establish a method for 
collection of ``non-traffic non-crash data'' on ``back-overs, power 
window incidents, hyperthermia, fires and other related incidents.''

  <bullet> According to a 2005 report from the Centers for Disease 
        Control and Prevention (CDC), 7,475 children were treated in 
        hospital emergency rooms after being struck or rolled over by a 
---------------------------------------------------------------------------
        vehicle moving in reverse during the 2001-2003 period.

  <bullet> KIDS AND CARS \3\ own data--which is the only database that 
        currently tracks non-traffic incidents--shows at least 550 
        fatal back-over incidents occurred from 2000-2007, primarily 
        involving children under the age of 5. Most of these incidents 
        took place in residential driveways or parking lots. An injury 
        or death occurred in 99 percent of cases documented in the 
        database. Over 60 percent of backing-up incidents involved a 
        larger size vehicle, (truck, van, SUV). Tragically, in over 70 
        percent of these incidents, a parent or close relative was 
        behind the wheel.
---------------------------------------------------------------------------
    \3\ KIDS AND CARS is a nonprofit safety organization based in 
Kansas whose founder and president, Janette Fennell, has maintained a 
database of statistics on back-over and other non-traffic incidents 
since 1999. The government has never gathered these data. Non-traffic, 
non-crash incidents occur when a car is either parked or backing up or 
moving forward slowly and not driving on the roadways or thoroughfares. 
KIDS AND CARS data indicate that back-over incidents have grown each 
year as the popularity of longer, higher vehicles like SUVs, pickup 
trucks and to a lesser extent, minivans has grown. (NHTSA disputes that 
the numbers are growing, while acknowledging it doesn't have good data 
to prove or disprove that assertion. Vehicle Backover Avoidance 
Technology Study, p. 13.)

  <bullet> NHTSA's recent report, ``Vehicle Backover Avoidance 
        Technology Study,'' [hereinafter Backover Report] released in 
        November 2006, used 1998 death certificate data to estimate 
        that there were 183 fatalities per year from back-over 
        incidents, and between 6,700 and 7,419 injuries. \4\
---------------------------------------------------------------------------
    \4\ NHTSA's report notes the agency's problem in sizing-up the 
dimensions of the problem: ``The magnitude of the back-over problem has 
been estimated based on available data. Much of the difficulty in 
determining an exact count of back-over crashes is due to the fact that 
NHTSA databases mainly cover traffic crashes, which excludes back-over 
crashes that occur outside of the traffic-way (e.g., on private 
property). In response to Sections 2012 and 10305 of SAFETEA-LU, NHTSA 
is currently in the process of exploring alternate ways of developing a 
system to improve the collection of non-traffic vehicle-related 
incidents. Information on the development is contained in the section 
on `Plans to improve data collection in the United States' of this 
report.'' Page 13, NHTSA Backover Study.

    Young children are impulsive and unpredictable and they have little 
understanding of danger. They do not recognize boundaries such as 
property lines, sidewalks, driveways or parking spaces. Toddlers have 
established independent mobility between the ages of 12-23 months, and 
because of their relatively small size, they are often not easily 
visible to caregivers. Their concept of personal safety is also 
minimal. Back-overs are often the predictable consequence of a child 
following a parent into the driveway without the parent's knowledge. 
That is the story parents tell us time again--they did not know the 
child had followed them out of the house.
    The tragic consequences of a parent or caregiver not seeing a child 
and backing over that child are enormous. Dr. Greg Gulbransen, a 
pediatrician, is here today to describe from personal experience the 
tragic result of his inability to see his little son Cameron as Dr. 
Gulbransen backed his car into his own driveway.
    CU is committed not only to educating parents to the dangers of 
blind zones through our publication, Consumer Reports, but to working 
for the enactment of legislation that will require that all cars to 
meet a rearward visibility standard. CU believes that if technology 
exists to prevent these terrible incidents and the cost is reasonable, 
such technology should be standard equipment for all vehicles. This is 
the provision in the Kids and Cars Safety Act (S. 1948, 109th Congress) 
pertaining to back-over prevention:

        (b) Rearward Visibility--Not later than 18 months after the 
        date of enactment of this Act, the Secretary shall issue 
        regulations, applicable to all passenger motor vehicles, 
        requiring a rearward visibility performance standard that will 
        provide drivers with a means for detecting the presence of a 
        person or object behind the vehicle in order to prevent backing 
        incidents involving death and injury especially to small 
        children and disabled persons.

    Does the technology exist? Yes, technology exists to allow drivers 
to see behind them as they back up and has been used for years. The 
legislation we are supporting, the Cameron Gulbransen Kids and Cars 
Safety Act of 2007, doesn't require a particular technology--it simply 
calls for a rearward visibility performance standard which the 
automakers can meet using any technology that satisfies the standard.
    Consumer Reports has tested both rear bumper sensors that beep when 
they detect an object in the vehicle path and rearview cameras. CR 
found cameras to be the most effective for preventing a collision with 
an object or person behind the vehicle. Automakers are experimenting 
with new technologies all the time, including sensor systems that will 
actually park the car.
    Is the cost reasonable? NHTSA estimates the cost of cameras, the 
most effective technology in current use for seeing what is behind the 
vehicle, to be approximately $325. If the vehicle already has a monitor 
for a navigation system, or other purpose, the cost is substantially 
lower. Put that cost into perspective. A car DVD system costs $1,295-
$2,097, a moon or sun roof costs $700-$1,595, seat warmers cost $645-
$895. These are all options that many auto buyers are actively seek out 
when buying a new car. Surely the cost of this technology is worth the 
price if it saves a child's life.
    Back-overs can happen in any vehicle because all vehicles have 
blind zones--the area behind a vehicle you can't see from the driver's 
seat. The danger tends to increase with larger vehicles. As CU's Auto 
Test Site Director David Champion has noted the longer and higher the 
vehicle, the more difficult it is to see a child or something on the 
ground behind.
    Consumer Reports also advises our readers that ``it's always best 
to look carefully behind the vehicle before you get in and again before 
you put the car in gear and back up. Remember to back up slowly, and 
pay attention to your mirrors.''
    Consumers Union joins with other safety groups--including KIDS AND 
CARS, Advocates for Highway and Auto Safety, Public Citizen, US PIRG, 
the American Academy of Pediatrics, in urging Senators to support 
legislation to require a rearward visibility standard in all vehicles. 
That measure is included in a bill that is co-sponsored by Senators 
Hillary Clinton and John Sununu, S. 1948 in last year's Congress and 
will be introduced on February 27, 2007 during the 110th Congress.
    We also endorse KIDS AND CARS' recommendations to keep children 
safe as well.
    These recommendations include:

  <bullet> Walk around and behind a vehicle prior to moving it.

  <bullet> Know where your kids are. Make children move away from your 
        vehicle to a place where they are in full view before moving 
        the car and know that another adult is properly supervising 
        children before moving your vehicle.

  <bullet> Teach children that ``parked'' vehicles might move. Let them 
        know that they can see the vehicle; but the driver might not be 
        able to see them.

  <bullet> Consider installing cross view mirrors, audible collision 
        detectors, rearview video camera and/or some type of back-up 
        detection device.

  <bullet> Measure the size of your blind zone (area) behind the 
        vehicles you drive. A 5,1" driver in a pickup truck can have a 
        rear blind spot of 7 feet wide by 50 feet long.

  <bullet> Be aware that steep inclines and large SUV's, vans and 
        trucks add to the difficulty of seeing behind a vehicle.

  <bullet> Hold children's hand when leaving the vehicle.

  <bullet> Teach your children to never play in, around or behind a 
        vehicle.

  <bullet> Keep toys and other sports equipment off the driveway.

  <bullet> Never leave children alone in or around cars; not even for a 
        minute.

  <bullet> Keep vehicles locked at all times; even in the garage or 
        driveway.

  <bullet> Keys should never be left within reach of children.

  <bullet> Always make sure all child passengers have left the car 
        after it is parked.

  <bullet> Be especially careful about keeping children safe in and 
        around cars during busy times, schedule changes and periods of 
        crisis or holidays.

LATCH Car Seat Installation System
    Consumers Union has long been concerned about the safety of child 
passengers in cars. We know that when families with children are in the 
market for a car, child safety is one of their top priorities. We also 
know that parents and caregivers have struggled for years to install 
car seats securely enough to ensure that their children will be safe in 
the event of a crash. For many parents, getting a secure fit remains a 
challenge.
    Lower Anchors and Tethers for Children (LATCH), an installation 
system created to help standardize the way child restraints are 
attached to vehicles without using a seat belt, has been in operation 
since the NHTSA-promulgated regulation (Federal Motor Vehicle Safety 
Standard 225) became fully effective on September 1, 2002. All child 
restraints and most new vehicles manufactured as of that date were 
required to include hardware components designed to simplify child 
safety seat installation and to reduce the continuing high incidence of 
misuse and incorrect installation of child safety seats.
    CR also noted in the article attached herein that ``The [LATCH] 
system doesn't work equally well in all vehicles. In many cars, the new 
attachment points are obscured or difficult to reach, so it's not easy 
to use them even with some of the newest child seats. In other models, 
the LATCH anchors are positioned too far out from the vehicle's seat, 
making it difficult to secure the child seat tightly against the rear 
seat's back cushion. Try your child seat in the vehicle before you 
buy.''
    In 2005 NHTSA conducted a survey to collect information about the 
types of restraint systems being used to keep children safe while 
riding in passenger vehicles. In particular, NHTSA was interested in 
whether drivers with were using LATCH to secure their child safety 
seats to the vehicle, and if so, were these seats properly installed. 
This is what they found, which we thought was quite instructive:

  <bullet> 55 percent of child safety seats, located in a seating 
        position equipped with an upper anchor were attached to the 
        vehicle using an upper tether. 45 percent of parents and 
        caregivers, however, are still not using the upper tethers.

  <bullet> 13 percent of the time child safety seat was placed in a 
        seat position in the vehicle not equipped with lower anchors--
        the seat belt was used to secure the child safety seat to the 
        vehicle--of course, since we're all taught to put kids in the 
        middle seat.

  <bullet> Among the 87 percent who do place the child safety seat at a 
        position equipped with lower anchors, 60 percent use the lower 
        attachments to secure the child safety seat to the vehicle.

  <bullet> 81 percent of upper tether users and 74 percent of lower 
        attachments users said upper tether and/or lower attachments 
        were easy to use.

  <bullet> 75 percent preferred lower attachments over seat belts of 
        those with experience using both lower attachments and seat 
        belts.

  <bullet> 61 percent of upper tether non-users and 55 percent of lower 
        attachments non-users cited their lack of knowledge--not 
        knowing what they were, that they were available in the 
        vehicle, the importance of using them, or how to properly use 
        them--as the reason for not using them.

    On February 8, 2007, NHTSA held a meeting to give the public an 
opportunity to discuss their experiences using LATCH. Consumers Union 
tests over 80 vehicles each year. We ask our engineers to fit car 
seats--infant, toddler and booster seats--into a wide variety of cars 
and light trucks, using both the LATCH system and seatbelts and 
comparing the ease of use and other factors between cars and car seats. 
We report the results to our readers, raising concerns about LATCH 
systems that are particularly difficult to use or belts that could be 
better designed. Consumers Union's Jennifer Stockburger, an automotive 
engineer and mother of young children, made a presentation at the 
February meeting in Washington, D.C., and that Power Point presentation 
is attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          Latch Effectiveness
    CU's concerns about the ease of use and operation of LATCH is 
discussed below in the August 2005 issue of CR, accompanied by photos:
The Reality of Latch
    CHEVROLET AVALANCHE--Where do you put the child seat while securing 
the tether? The Avalanche illustrates the potential challenge in 
securing a low tether anchor.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Unfortunately, there are factors that can make installation of 
LATCH-equipped seats difficult or, in some cases, impossible.
    Typically, the safest spot to install a child seat is in the center 
position of the rear seat. That positions the child farthest from 
danger in an impact. Unfortunately, most vehicles don't equip their 
vehicles with lower anchors in the center seats. Chrysler Group and 
General Motors are good at providing three sets of attachments in their 
larger vehicles, and Ford owner's manuals often allow for child seats 
to be positioned in the middle using the inner anchors from the left 
and right side LATCH anchors.
    Access to the lower anchors varies from vehicle to vehicle; the 
best anchors allow the seat to quickly click or be hooked into place, 
while others make it awkward to attach and/or detach. Some vehicles 
have very firm seat cushions, making it difficult to fit your hand in 
to find and access the anchor. Other vehicles have soft cushions, but 
the anchor is recessed so far back that it's difficult to reach. 
Optimally located lower anchors provide enough space for an adult hand 
to easily access them.
    Getting to the top tethers can also be a difficult and frustrating 
process. Many vehicles have well-positioned anchors that are readily 
accessible; parents can simply run the top tether under the head 
restraint and clip it into the top tether anchor. Never run the tether 
over a removable or adjustable head restraint because the soft material 
in the head restraint can compress and create slack in the tether 
strap. It is better to remove or raise the restraint and run the tether 
over the seatback.
    Of all vehicle types, sedans generally have tether anchors that are 
easiest to reach, located on the rear deck behind the seats, typically 
set inside a small, covered recess. Wagons, SUVs, and hatchbacks with 
good tether anchors have them positioned midway up the back of the 
seats, sometimes with plastic covers that snap in place when they 
aren't being used. Ideal setups provide one top tether anchor for each 
seat location, so the straps are anchored straight back without 
twisting.
    But many wagons and hatchbacks also have less-friendly tether 
anchor locations. Some place the anchors at the base of the seat where 
it folds. These can be a full arm's-length away, making them already 
difficult to reach. To access this anchor from within the cabin, it may 
be necessary to tilt the seatback forward--a challenging maneuver if a 
large child seat is already on the vehicle's seat. Other models place 
the tether anchors beneath carpet or covers in the cargo floor.
    Hatchbacks and wagons also often have a cargo cover that protects 
luggage from the sun or the prying eyes of thieves. But the space 
between the cargo cover and the seatback is often very narrow, making 
it impossible to fit the tether strap through. The cover must be 
removed to access and install the tether strap, which is just another 
annoyance to deal with and adds to the potential for parents or 
caregivers to opt out of a crucial step.
    TOYOTA RAV4--Even SUVs marketed to families can present challenges 
to child-safety-seat installation, especially when attaching the lower 
tether anchor. Be sure to try installing a seat before buying a 
vehicle.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CU's Recommendations for Improving LATCH Usability & Effectiveness:

  <bullet> LATCH anchors should be required in center rear seats.

  <bullet> Improve top tether access and visibility.

  <bullet> Improve lower and upper anchor clearance so they can be 
        reached easily.

  <bullet> Ensure that routing for top tethers isn't impaired by head 
        restraints or other vehicle components.

  <bullet> Ensure top tethers on the seats are lengthy enough (CR found 
        they were sometimes too short to reach the tether anchor in the 
        vehicle).

Power Window Hazards
    NHTSA estimated in a 1997 study that 499 people each year visit 
emergency rooms due to power window injuries, almost \1/3\ of those 
under the age of 6, another nearly \1/3\ between the age of 6 and 15. 
Since 1971, \5\ at least 59 children have been strangled to death and 
thousands more children and adults injured by power windows. \6\
---------------------------------------------------------------------------
    \5\ Feb. 1, 1971, Federal Motor Vehicle Safety Standard 118, 
regulating power windows, was adopted by NHTSA setting minimal safety 
standards.
    \6\ The number of power windows has increased dramatically over the 
past three decades. In 1973, only 1.9 million new vehicles in North 
America had power windows. By 1994 that number was 68.1 percent for 
passenger cars and 55.3 percent for light trucks.
---------------------------------------------------------------------------
    When the Senate Commerce Committee enacted SAFETEA-LU in 2005, it 
included a critically important provision to prevent young children 
from accidentally closing power windows on their necks, causing 
strangulation. Section 258 of SAFETEA-LU \7\ called for the elimination 
of hazardous armrest rocker switches, requiring the safer pull-up or 
pull-out switches; NHTSA then published rules requiring safer switches 
on all new passenger vehicles manufactured after October 1, 2008. \8\ 
We have been pleased to see that Model Year 2007 vehicles, with only a 
few exceptions, now employ the safer switches. There remains some 
unfinished business, however.
---------------------------------------------------------------------------
    \7\ www.consumersunion.org/pub/1205%20Alliance%20rebuttal.pdf.
    \8\ NPR story on the new requirement http://216.35.221.77/
templates/story/story.php?storyId=3915926.
---------------------------------------------------------------------------
    While getting rid of dangerous switches is a big leap forward, and 
should prevent most of the accidental strangulations by children who 
are leaning on a switch with their heads in the window path, nonfatal 
injuries are still a major safety hazard. Injuries inflicted by power 
windows have a very long history--and power windows have enormous 
force: they will literally slice a cucumber or green pepper in two. The 
injuries that occur when another person inadvertently closes the power 
window on a child's fingers or hand or arm are often gruesome.
    And yet there is an easy fix for this hazard--auto-reverse or anti-
trap technology that is commonly used in Europe should also be the 
standard here. Like garage or elevator door sensors that open the door 
if they detect an obstruction, this technology sends a window down if 
it meets with an obstacle in its path. Such technology would have saved 
the many lives of children strangled by power windows or are missing 
fingers or pieces of fingers that were amputated by a power window.
    None of this information will come as a surprise to NHTSA--or the 
auto industry. Consumers Union has copies of hundreds of reports sent 
over the past 4 decades to both the automakers and NHTSA with 
heartbreaking stories of small children with amputated fingers or 
broken arms and worst of all, strangulations of children because 
another child or adult didn't realize she or he was in the path of the 
window. The history of the government's failure to require safe power 
window designs--and the industry's failure to address the hazard--when 
the technology is readily available and the cost is modest, is 
difficult to understand.
    At least 80 percent of the European car market has vehicles with 
anti-trap windows--they have become custom there. An effective anti-
trap voluntary standard was adopted by the European parliament and the 
Council of the European Union in February of 2000, \9\ Since that time, 
no power window fatalities have been recorded in any vehicle meeting 
European standards--and so, though voluntary, nearly every European 
automakers has adopted this technology. \10\
---------------------------------------------------------------------------
    \9\ See Petition, Center for Auto Safety, Filed with NHTSA August 
19, 2003, page 2. www.autosafety.org.
    \10\ Id.
---------------------------------------------------------------------------
    By contrast, only 15-20 percent of U.S. vehicles have this 
technology. The same models of cars equipped with auto-reverse power 
windows in Europe do not have that technology in their U.S. version, 
even as an option--the Ford Focus is one example. The estimated cost of 
making all windows ``anti-trap'' is, according to NHTSA, $8-$12 per 
window for a grand total of less than $50.00 per car. \11\
---------------------------------------------------------------------------
    \11\ Id.
---------------------------------------------------------------------------
    Legislation introduced by Senators Clinton and Sununu, the Cameron 
Gulbransen Kids and Cars Safety Act of 2007 (S. 1948, 109th Congress) 
addresses the hazard by requiring auto-reverse or ``anti-trap'' 
technology in all cars by a specific date:

        (a) Power Window Safety--Not later than 18 months after the 
        date of enactment of this Act, the Secretary of Transportation 
        (referred to in this Act as the `Secretary') shall issue 
        regulations, applicable to all passenger motor vehicles, to 
        ensure that power windows and panels automatically reverse 
        direction when they detect an obstruction to prevent children 
        from being trapped, injured, or killed.

Previous NHTSA Proposals on Power Windows
    In 1969 the government proposed auto-reverse technology for all 
power windows--the automotive industry unanimously opposed this measure 
and it was dropped. \12\ The resulting standard imposed minimal 
performance requirements for power operated windows. Again in 1996 
NHTSA proposed a rulemaking to remedy the hazards from power windows 
but took no further action.
---------------------------------------------------------------------------
    \12\ Id.
---------------------------------------------------------------------------
    We urge Members of this Subcommittee on Consumer Affairs, 
Insurance, and Automotive Safety to support the Cameron Gulbransen Kids 
and Cars Safety Act of 2007, which will require auto-reverse or anti-
trap technology and address once and for all the hazards to children 
and others from power windows.
Brake Shift Interlock
Introduction
    Technology to prevent vehicles from inadvertently being put into 
gear by children or anyone else when the vehicle is in the ``Park'' 
position is known as Brake-Transmission Shift Interlock or BTSI. It is 
an essential safety technology that requires depressing the brake pedal 
to move the gear shift out of park. Since children typically cannot 
reach the brake pedal, if BTSI is in place, they cannot place the car 
into gear by themselves.
    One of the witnesses at today's hearing, Packy Campbell from New 
Hampshire, lost his 21 month old son Ian when Ian's brother set his 
father's truck into motion and Ian was unable to move out of the way 
when the truck suddenly started rolling in reverse. This is not an 
isolated circumstance. KIDS AND CARS estimates that over 100 children 
have died since 1998 by placing a vehicle into motion. The government 
does not track these statistics because they typically do not occur on 
public roadways and have not been officially part of the government 
database. \13\
---------------------------------------------------------------------------
    \13\ Section 255 of SAFETEA, enacted by Congress in 2005, now 
requires that the government begin keeping track of injuries and deaths 
involving automobiles even if they do not occur on public roadways.
---------------------------------------------------------------------------
    S. 1948, introduced in October of 2005 as the Cameron Gulbransen 
Kids and Cars Safety Act, included a provision calling for brake shift 
interlock in all vehicles within 18 months after enactment. \14\ The 
provision is below:
---------------------------------------------------------------------------
    \14\ S. 1948, 109th Congress, pertinent section: (c) Preventing 
Vehicles From Rolling Away--Not later than 18 months after the date of 
enactment of this Act, the Secretary shall issue regulations, 
applicable to all passenger motor vehicles, requiring the vehicle 
service brake to be engaged in all key positions and while the key is 
out of the ignition, before starting the engine or engaging the 
transmission in order to prevent accidents resulting from vehicles 
accidentally or unintentionally rolling away.
---------------------------------------------------------------------------
    NHTSA announced on August 17, 2006 that the Alliance of Automobile 
Manufacturers and the Association of International Automobile 
Manufacturers were entering into a voluntary agreement to ensure that 
all vehicles sold in the U.S. with automatic transmissions will be 
equipped with ``brake transmission system interlocks'' to prevent 
children from moving the shift mechanisms out of park. \15\ Automakers 
included in this agreement have agreed to comply by September 1, 2010. 
\16\
---------------------------------------------------------------------------
    \15\ See this site for information on BTSI: 
http://dms.dot.gov/search/
searchResultsSimple.cfm?numberValue=25669&searchType=docket.
    \16\ The agreement says that ``any vehicle under 10,000 pounds 
produced for the United States market, with an automatic transmission 
that includes a `Park' position shall have a system that requires that 
the service brake be depressed before the transmission can be shifted 
out of `Park'.''
---------------------------------------------------------------------------
    According to NHTSA, approximately 80 percent of MY 2006 motor 
vehicles are equipped with an automatic transmission control system 
designed in accordance with the requirements of this agreement. More 
than 98 percent of MY 2009 motor vehicles to be produced are forecasted 
to be equipped with an automatic transmission control system designed 
in accordance with this agreement.
    While Consumers Union appreciates that automakers embrace the 
importance of having BTSI on all vehicles, CU believes that voluntary 
agreements are insufficient to ensure across-the-board compliance with 
an important safety standard. Voluntary agreements are just that, 
voluntary, and they don't bind the whole industry the way a mandatory 
safety standard does. Indeed, a handful of automakers, are not bound by 
the agreement because they are not members of the associations that 
were signatories to the agreement, though they may well chose to 
comply.
    Below is the list of automakers that are part of the voluntary 
agreement.
    Participating Automakers:

        Aston Martin
        BMW Group
        Ford Motor Company
        Hyundai Motor
        Maserati
        Nissan
        Suzuki
        DaimlerChrysler Corporation
        General Motors
        Isuzu Motors
        Mazda
        Porsche
        Toyota
        Ferrari
        Honda
        Kia Motors
        Mitsubishi Motors
        Subaru
        Volkswagen Group

    The bill introduced on February 27, 2007 codifies the voluntary 
agreement and makes it law, thus bringing all auto manufacturers under 
the requirement to implement BTSI, but maintaining the same generous 
timelines for compliance.
    This is the bill's language on BTSI:
    Preventing Vehicles From Rolling Away.--

        (1) In General.--Not later than 24 months after the date of the 
        enactment of this Act, the Secretary shall issue regulations to 
        require light motor vehicles that are equipped with an 
        automatic transmission that includes a ``Park'' position to 
        have a system that requires the service brake to be de-pressed 
        before the transmission can be shifted out of ``Park''. This 
        system shall function in any starting system key position in 
        which the transmission can be shifted out of ``Park''.

        (2) Applicability.--The regulation issued under paragraph (1) 
        shall apply to light motor vehicles manufactured on or after 
        September 1, 2010.

    The following is a list of Model Year 2007 vehicles that are not 
equipped with Brake-Transmission Shift Interlock (BTSI) technology as 
reported to NHTSA by the vehicle manufacturers:

        Audi: A4/S4, A4/S4 Avant, A4/S4 Cabriolet

        BMW: X3, Z4

        Buick: Rendezvous

        Cadillac: CTS

        Chevrolet: Equinox, Express 1500, Express 15-Passenger Van, 
        Silverado Classic

        Ford: E-150, E-350 15-Passenger Van, Freestar, Ranger

        GMC: Savana, Savana 15-Passenger Van, Sierra Classic

        Honda: S2000

        Hummer: H2

        Isuzu: Ascender 7

        Jeep: Liberty, Patriot

        Mazda: B-Series

        Mercury: Monterey

        Pontiac: Torrent

        Saturn: Ion, VUE

        Volkswagen: New Beetle

Conclusion
    Consumer advocates working on product safety believe that if a 
product hazard can be fixed for a reasonable cost, it should be done. 
This is especially true with hazards to children. We don't believe in 
playing the blame game--blaming parents for being careless or not 
conscientious when a product harms or kill their children is 
counterproductive and cruel. If we had played the blame game with 
safety caps on medicines or poisons, on garage doors or cigarette 
lighters, all of which have been redesigned for a reasonable cost with 
children's safety in mind--we would have many more children lost to 
injury or death.
    Whenever we can, we should fix safety hazards for everyone, but 
especially when they put our children at risk. We think this bill--
which addresses the hazards of back-over, power windows and brake shift 
interlock, provides Members of Congress with a unique opportunity to 
fix hazards to children at a reasonable cost.
    We urge members of the Senate Commerce, Science, and Transportation 
Committee to support the Cameron Gulbransen Kids and Cars Safety Act 
and thank you for your time and consideration of these vitally 
important issues.
                                 ______
                                 

                     Consumer Reports--October 2003

                             Driving Blind

    Every year, children are injured and killed because drivers don't 
see them while backing up.
    According to KIDS AND CARS, a nonprofit group that wants to improve 
child safety around cars, back-over incidents last year killed at least 
58 children.
    A contributing factor is that consumers continue to buy larger 
vehicles--minivans, pickups, and sport-utility vehicles--with larger 
blind spots. A blind spot is the area behind a vehicle that the driver 
can't see.
    To help drivers back up, carmakers and aftermarket companies offer 
two types of devices for vehicles: sensors and rear cameras. The 
cameras are marketed as safety devices; the sensors, as parking 
assists. KIDS AND CARS has called for vehicles to come equipped with 
such systems. Now, sensors are optional in many larger vehicles; 
cameras are optional in some higher-priced models.
    We tested several aftermarket sensors and cameras that can be 
installed on any vehicle, comparing them with original-equipment 
versions.
    The bottom line: Your first line of defense against back-over 
accidents is to get out of your car and check behind it just before you 
back up.
    Rear-mounted video cameras also help prevent back-over accidents 
because they let you see much of the area that's usually hidden in the 
blind spot. But they tend to be expensive, from $400 to $900, not 
including the cost of professional installation, which is recommended.
    A plastic fish-eye lens that adheres to a rear window can provide 
almost as much help as a video camera on certain vehicles and costs 
only about $20.
    The sensor systems in our tests, which cost $130 to $500 not 
including professional installation costs, worked well for parking but 
they aren't sensitive enough to be a reliable safety aid.
     *************************************************************
CR Quick Take
    The best way to prevent so-called back-over accidents is to walk 
behind your car and check for obstructions.
    If you want an extra margin of safety, first try the $20 Rear View 
Safety Lens, which works on vertical rear windows like those in many 
SUVs and minivans.
    Camera systems provide a clearer picture and will work on any 
vehicle, but they are expensive.
    Rear sensor systems can help you park, but they aren't reliable 
safety devices.
     *************************************************************
The Problem of Rear Blind Spots
    Back-over accidents usually occur when a person, often a child, is 
hidden in a vehicle's rear blind spot. The longer the vehicle and the 
higher the rear window, the bigger the blind spot and the more 
difficult it is to see a child or object on the ground behind the 
vehicle.
    To illustrate that point, we measured the blind-spot area of a 
sedan, a minivan, an SUV, and a pickup truck. We placed a 28-inch-high 
traffic cone at varying distances behind the vehicle to measure how far 
back it would have to be before a driver of average stature (5 feet 8 
inches) and one of short stature (5 feet 1 inch) could see it.
    We found that a Honda Accord sedan has a blind spot of roughly 12 
feet for an average-height driver. That is, the driver may not see a 
small object up to 12 feet behind the bumper. The blind spot for a 
short driver in the Accord is 17 feet.
    The Dodge Grand Caravan minivan has a blind spot of 13 feet for the 
average-height driver and 23 feet for the short driver. The Toyota 
Sequoia SUV is slightly worse: 14.5 feet for an average-height driver; 
24.5 feet for a short driver.
    By far the biggest blind spot, however, occurred with a Chevrolet 
Avalanche pickup: 30 feet for an average-sized driver, 51 feet for a 
short driver.
Your Choices
    Camera systems. When the vehicle is shifted into reverse, a camera 
sends a wide-angle view of the area behind the vehicle to a monitor 
near the driver.

  <bullet> Best for seeing small children or objects in a vehicle's 
        blind spot. Camera systems also work as parking aids.

  <bullet> But neither model in our tests emits an audible alert when 
        you approach an object. These systems are expensive.

  <bullet> Details: To use the HitchCAM, your vehicle must have a tow 
        hitch; the camera is mounted in the trailer-hitch receiver and 
        broadcasts to a video screen attached to the inside of the 
        windshield. The camera for the Magna Donnelly Video Mirror 
        mounts to the rear of your vehicle and sends the image to a 
        small flip-down screen below the rear-view mirror.

    Because it looks straight out the back, the HitchCAM shows more 
area. The Video Mirror, which looks downward, displays less area 
overall--about 4 feet behind the rear bumper--but enough to help 
prevent a back-over accident. This view works better as a parking aid. 
The Video Mirror also helped us back up to a trailer. (You must remove 
the HitchCAM from the trailer hitch when connecting a trailer.) But the 
Video Mirror was much less effective at night than the HitchCAM.
    With both systems, image clarity and screen size didn't match those 
of factory-installed cameras in the Acura MDX and the Lexus RX330. But 
they provide a reasonable image.
    Both systems worked well even when splashed with muddy water.
    Wide-angle lens. The plastic lens sticks to the rear window and 
allows you to see a wide-angle rear view.

  <bullet> Best for seeing objects in the blind spot, parking.

  <bullet> But the lens works only with vertical rear windows, such as 
        those in many SUVs, minivans, and wagons. It may interfere with 
        normal rear visibility. Back-seat passengers or cargo may block 
        the view, and the lens is subject to reflections. You must keep 
        it free from smudges.

    The model we tested, the Elite Enterprises Rear View Safety Lens, 
www .rearlens.com, is 6 x 8 inches and made of plastic. Because the 
lens is small, details are hard to see. But the lens significantly 
reduced the blind spot on most vehicles from 15 or more feet to about 2 
feet.
    Sensor systems. Using ultrasonic or microwave energy, sensors 
detect objects within about 6 feet behind the vehicle and alert the 
driver via a beep and/or a lighted display.

  <bullet> Best for a parking aid to help drivers avoid dinging fenders 
        and bumpers. Models in our tests detected large stationary 
        objects. For example, they generally picked up a 3-inch-wide 
        pole when it was 3 to 4 feet away from the vehicle.

  <bullet> But most could not detect objects low to the ground, such as 
        a bicycle or basketball, or a small moving object.

    False signals can also be a problem. They were often caused by dips 
in the road and surface changes. Systems with sensors near the rounded 
edge of the bumper can pick up the sides of a garage and emit a false 
warning. In time, these ``false positives'' may lull drivers into 
ignoring the warnings.
    All require professional installation.
    The Rostra model may require cutting and bending the license plate 
and could interfere with the tailgate latch. It might also prevent the 
license-plate lights from illuminating the plate. The Guardian Alert 
requires a 2-inch receiver tow hitch and 5-pin trailer wiring socket, 
but is the only model that didn't require drilling into the vehicle. 
All aftermarket systems performed about the same as factory-installed 
sensors.
     *************************************************************
CR Quick Recommendations
    If you want an aid for parking, any of these products can help. To 
help prevent a back-over accident, however, only the rear-mounted video 
cameras and Rear View Safety Lens are reliable.
    Of the two camera systems we tested, the HitchCAM provides the 
larger and better-quality video display, but requires a 2-inch receiver 
tow hitch and 5-pin trailer wiring socket for mounting. For half the 
price, the Donnelly Video Mirror can be mounted on any vehicle with a 
rear hatch.
    Among sensor systems, the Rostra system is the most sensitive. For 
half the price, the ReverseGuard provides good sensitivity but no 
visual alert.
     *************************************************************
Ratings--Backup Aids (Availability--Most models at retail stores 
        through 2003.)

                  Cameras--In order of display clarity.
------------------------------------------------------------------------
                                                                 Screen
           Brand             Price      Clarity of display        size
                              ($)                                 (in.)
------------------------------------------------------------------------
HitchCAM HC-001                900  Good                          2.75x2
Magna Donnelly Video           400  Fair                           2x1.5
 Mirror Reverse Aid 22336
------------------------------------------------------------------------


                    Sensors--In order of sensitivity.
------------------------------------------------------------------------
                                                    Features
                Price                 ----------------------------------
    Brand        ($)     Sensitivity      No. of      Audio      Visual
                                         sensors      alert      alert
------------------------------------------------------------------------
Rostra            350  Very Good       2            Yes        Yes
 Obstacle
 Sensing
 System 250-
 1594
ReverseGuard      200  Good            4            Yes        No
 Classic RA10
Echomaster EM-    130  Fair            2 or 4       Yes        Yes
 PV
Guardian          500  Poor            1            Yes        Yes
 Alert Hitch
 Receiver
------------------------------------------------------------------------
Availability: Most models at retail stores through 2003.

     *************************************************************
How To Avoid a Backover Accident--What You Can do
    If children play in your driveway, park your car at the end of the 
driveway close to the street.
    Show your children how hard it is to see out the back of your car. 
Let them see you disappear into the blind spot.
    Just before backing up your vehicle, walk behind it to make sure 
your path is clear. Be sure children are not so close as to be able to 
dart behind you.
    Look in your mirrors before you put the car in reverse to monitor 
the rear area.
    Look around while backing up, using all mirrors and looking over 
both shoulders.
    Back up slowly.
    If you have a backup aid, pay attention to its audible or visual 
warnings but don't rely solely on the aid.
                                 ______
                                 

                     Consumer Reports--August 2003

                 Which Power-Window Switches Are Safer?

    At least 25 children have died during the past decade from injuries 
involving power windows in cars, according to KIDS AND CARS, a 
nonprofit group that tracks auto-safety issues involving children. 
Typically, the child has his or her head out the window of a parked car 
and accidentally leans on the window switch. The glass moves up 
forcefully, choking the child.
    Two types of switches are inherently riskier than others if they're 
mounted horizontally on the door's armrest:
    Rocker switches move the glass up when you press one end of the 
switch, down when you press the other.
    Toggle switches work when pushed forward or pulled back.
    A third type, the lever switch, is safer because it makes it harder 
to raise the window accidentally. Lever switches must be pulled up to 
raise the glass. They generally have not been implicated in fatal 
injuries, according to KIDS AND CARS. Switches of any design mounted 
vertically or on an upswept armrest are harder to activate by accident.
    Lever switches and auto-reverse sensors are common in Europe. But 
auto-reverse is required in the U.S. only in vehicles with auto/one-
touch-up windows and remotely controlled windows. (BMW is recalling 
some vehicles because of problems with the autoreverse mechanism.)
    Clarence Ditlow, director of the Center for Auto Safety (and a 
member of Consumers Union's board of directors), says, ``If garage 
doors can have a reversing sensor, power windows should.'' His 
organization has petitioned the government for upgraded safety 
standards.
    In response to a petition by safety groups including Consumers 
Union, in April 2006, the National Highway Traffic Safety 
Administration (NHTSA) decided to ban power window rocker and toggle 
switches from U.S. manufactured vehicles. Car makers will install 
recessed or lever switches instead. They have until Oct. 1, 2008 to do 
so.
    The Big Three automakers say they abide by the safety standards in 
place wherever their cars are sold. For example, Kristen Kinley, a 
spokeswoman for Ford Motor Co., says its power windows meet and in some 
cases exceed Federal standards.
    KIDS AND CARS is working with Consumer Union for legislation 
requiring a national performance standard for power windows.
     *************************************************************
What You Can do
    Never leave children alone in a car or the keys in the car when 
kids are nearby. Pay close attention to the design and location of 
window switches when shopping for a new car. Here's a basic rundown for 
the vehicles we've reviewed:
    Horizontal rocker switches. Most vehicles from Ford, Lincoln, 
Mercury, Chevrolet, Buick, Cadillac, GMC, Oldsmobile, and Pontiac, and 
the Saturn Ion.
    Horizontal toggle switches. Some vehicles from Chrysler including 
the Dodge Neon, Stratus, and Intrepid, and Dodge trucks.
    Lever switches, the safer type. Acura, Audi, BMW, Chrysler 
Pacifica, Honda, Hyundai, Infiniti, most Isuzu models, Jaguar, Kia, 
Lexus, most Mazda models, Mercedes-Benz, Mitsubishi, Nissan, Saturn L 
and Vue, current Saab models, Subaru, Toyota, Volkswagen, and Volvo.
                                 ______
                                 
   Prepared Statement of Janette E. Fennell, President, KIDS AND CARS
    Child safety and health is purported to be a top priority in this 
country. Both the National Highway Traffic Safety Administration 
(NHTSA) and the Alliance of Automobile Manufacturers (Alliance) have 
stated that safety is their top priority. Nevertheless, certain common 
design features and equipment built into motor vehicles still place 
children at risk of serious, even fatal, injuries in and around motor 
vehicles.
    In many ways, the development of motor vehicle technology has 
improved safety and convenience. However, potential safety hazards have 
accompanied the development of some technologies. Power windows are a 
case in point. This technology was added as a convenience, but it has 
also added new hazards. Power windows pose a serious threat of death 
and injury to children when they are trapped by the window as it rises. 
This danger has been documented for decades, since power windows first 
became popular. \1\ Nothing has been done because the deaths and 
injuries are not reported as part of the national traffic safety 
statistics. In the 110th Congress, we have not only the opportunity but 
the obligation to finally eradicate power window strangulation as a 
cause of death and serious injury to children.
---------------------------------------------------------------------------
    \1\ Ralph Nader, May 1968 letter warning about the dangers of power 
windows.
---------------------------------------------------------------------------
    Congress recently forced NHTSA to address one aspect of the risk 
posed by power windows. In the Safe, Accountable, Flexible and 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
Congress required all power window systems in motor vehicles to have 
``pull-up or out'' switch designs which are safer than the rocker or 
toggle switch designs. Rocker and toggle switches are known to be 
dangerous because they can be pressed by accident, as when a child 
unknowingly leans an elbow on a rocker switch, inadvertently closing 
one or all of the power windows. ``Pull-up'' or ``pull-out'' switch 
designs are not prone to this problem. This change is an important 
safety advance but addresses only a portion of the injury problem.
    Even with safer window switches, passengers are still in danger if 
someone else in the vehicle intentionally closes a power window without 
realizing that fingers or hands are in the way of the rising window. 
Children continue to be killed and maimed by power windows. In December 
of 2006, a Detroit, MI child was strangled to death by a power window. 
The Detroit incident is particularly noteworthy because the vehicle 
involved was a Pontiac Vibe, which has the safer power window switches.
    To prevent these tragic injuries and deaths auto-reverse technology 
is needed in all power windows. When a power window rises with 40-80 
pounds of pressure and meets an obstruction, auto-reverse technology 
would ensure that power windows would immediately reverse direction. 
Eighty percent of vehicles sold in Europe already come equipped with 
this simple, lifesaving technology. U.S. children deserve this same 
protection.
    In the U.S., auto manufacturers provide ``obstacle detections 
devices for sliding doors and automatic liftgates.'' \2\ The industry 
protects us from these moving door panels; but ignores power windows. 
What's the difference? Children are just as likely to be injured by 
power windows as they are by sliding minivan doors and power liftgates. 
The industry needs to simply provide the same technology they already 
utilize on doors and liftgates to power windows.
---------------------------------------------------------------------------
    \2\ Testimony of the Alliance of Automobile Manufacturers (Alliance 
testimony), page 4, presented at the hearing on Vehicle Safety for 
Children, before the Subcommittee on Consumer Affairs, Insurance, and 
Automotive Safety, Senate Committee on Commerce, Science, and 
Transportation, February 28, 2007.
---------------------------------------------------------------------------
    The American public, lawyers and safety advocates understand the 
danger posed by power windows and that there is an available 
technological solution. Safety advocates have been calling for an 
improvement in power window safety for decades. Yet, NHTSA has denied 
no less than 5 petitions requesting that auto-reverse technology be 
added to power windows. NHTSA's reasons for denying the petitions are 
the supposed lack of data and cost.
    Current cost estimates are between $8-$10 per window. If this 
technology becomes standard equipment on all vehicles the true cost 
will range between $5-$7 per window or possibly lower. Even at current 
cost estimates, this safety technology is far less expensive than many 
optional convenience and entertainment features the manufacturers 
include in their motor vehicles.
    With regard to the lack of data, there is actually an abundance of 
information about the issue. NHTSA estimates that there could be 499 
hospitalizations annually (NHTSA Research Note, May 1997); small 
children are often victims, losing fingers and even limbs. Ten year-old 
data shows we have a problem.
    NHTSA reviewed 1997 and 1998 death certificates and located at 
least 4 deaths for each of those years. NHTSA is aware of the 8 
fatalities that occurred in 2004; \3\ yet they continue to state that 
``based on all available evidence the agency expects, on average, at 
least one child fatality, and at least one serious injury (e.g., 
amputation, brain damage from near suffocation) per year could be 
prevented by the requirements of the final rule.'' \4\ This simply is 
not the case.
---------------------------------------------------------------------------
    \3\ NHTSA press event, Children's Hospital, Columbus, OH, September 
2004.
    \4\ Final Rule, Response to Petitions for Reconsideration, Power-
Operated Window, Partition, and Roof Panel Systems, 71 FR 18673, 18680 
(Apr. 12, 2006).
---------------------------------------------------------------------------
    KIDS AND CARS collects data about non-traffic incidents involving 
children under the age of fourteen. Enclosed are two spreadsheets 
containing information KIDS AND CARS has compiled about power incidents 
where people were injured, killed or requested something be done about 
these ``guillotines on wheels.''
    Utilizing methods anyone interested in locating data has at their 
disposal, we compiled the spreadsheets that contain information about 
children being strangled to death by power windows and others injuries 
such as fingers amputations, broken wrists, etc. Though NHTSA and the 
Alliance continue to deny that power windows represent a significant 
risk to all passengers in vehicles, it was information that had been 
reported to them that we used to compile the Spreadsheet #1.
    Spreadsheet #1 contains information compiled from NHTSA Office of 
Defect Investigations (ODI) reports, Vehicle Owner Questionnaires (VOQ) 
reports, letters written to alert or complain about the dangers of 
power windows to Ford, etc. The list contains over 140 incidents where 
people have taken the time to alert auto makers and NHTSA about these 
dangers and provide information about injuries and deaths. We simply 
took the information NHTSA already has and are reporting it back to you 
in a spreadsheet format. We do not understand why NHTSA has never 
included this information in any of their reports or studies about 
power windows. Though far from comprehensive, (not even the tip of the 
tip of the iceberg) it does provide information about the dangers of 
power windows. It is important to note that drivers do not have the 
ability to see young children seated directly behind them before 
raising power windows. They can alert children that windows are being 
put up; but do not have the ability to visually monitor them while 
driving.
    Spreadsheet #2 contains information compiled by KIDS AND CARS 
involving children injured or killed by power windows from our 
database.
    We know there are hundreds if not thousands of power window 
injuries and deaths that have been reported to auto manufacturers but 
we do not have access to their data, nor is it contained in the 
enclosed spreadsheets. We feel the information provided is compelling 
enough for Congress to act. But, if the Committee determines more data 
is needed to act, we suggest that the Subcommittee use its subpoena 
powers to request the relevant records from all auto manufacturers 
including complaints, injuries, fatalities and lawsuits filed regarding 
power window injuries and deaths. This information is not being 
supplied, yet the Alliance notes ``that auto-reverse was denied because 
the petitioners did not provide data regarding the need.'' \5\ Why are 
they not providing the data that is available at their finger tips?
---------------------------------------------------------------------------
    \5\ Alliance testimony, op. cit. note 1, page 11.
---------------------------------------------------------------------------
    We know that hundreds (most probably thousands) of reports have 
been made to auto makers about these injuries and fatalities. The 
industry has withheld this information for decades; yet place the 
burden on nonprofit agencies to inform NHTSA and the general public 
about these dangers.
    The combination of NHTSA's 1997 power window injury study, our 
spreadsheets and the subpoenaed records of auto makers will finally put 
to rest the fact that auto-reverse is a necessary safety feature. We 
encourage and trust that you will act with the information provided.
    During the last 10 years KIDS AND CARS has advocated for non-
traffic motor vehicle safety for children. During that time we have 
tried to persuade NHTSA to collect data about non-traffic incidents and 
bring awareness to the dangers children face in and around ``parked'' 
vehicles. NHTSA freely states that non-traffic incidents are clearly 
under their purview; \6\ \7\ but they have resisted getting involved 
except when mandated by Congress to act.
---------------------------------------------------------------------------
    \6\ ``NHTSA is also responsible for motor vehicle safety when there 
is not a crash or the event occurs off the public traffic way. When the 
agency tries to quantify safety problems associated with non-traffic or 
non-crash situations it often finds that it has little or no data and 
must rely on the data gathering, efforts of others.'' Data Collection 
Study: Deaths and Injuries Resulting from Certain Non-Traffic and Non-
Crash Events, May 2004, page 3.
    \7\ ``NHTSA is responsible for reducing deaths and injuries 
associated with motor vehicle crashes and non-crashes.'' Interim Status 
Report, NHTSA Pilot Study, Non-Traffic Motor Vehicle Safety Issues, 
July 2001, page 1.
---------------------------------------------------------------------------
    Again, we need Congress to help save the lives of young children 
from these predictable and preventable situations. We have provided 
data that for some reason has been ignored by the Federal agency in 
charge of keeping us safe in and around our motor vehicles. We know 
that the costs are minimal; especially in contrast to the life of even 
one child. We know the industry is already using the auto-reverse 
technology on many if not most vehicles in Europe, and in door panels 
and liftgates and on power windows for high-end models in the U.S. 
Safety should not be a luxury only for those who can afford it.
    To honor the 60+ children who have lost their lives since this 
problem was first brought to the NHTSA's attention, we implore you to 
act swiftly and with resolve to stop power window deaths and injuries, 
reverse the history of regulatory delay and indifference, and ensure 
that power windows will no longer kill or seriously injure another 
innocent child.

        Attachments to this prepared statement have been retained in 
        Committee files.

                                  <all>

</pre></body></html>
